<html>
<title> - OVERSIGHT HEARING: THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 114-21]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 114-21
 
                   OVERSIGHT HEARING: THE PRESIDENT'S
                  FISCAL YEAR 2016 BUDGET REQUEST FOR
                THE U.S. ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MARCH 4, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  



       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________
                               
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
94-980 PDF             WASHINGTON : 2015                   
        
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>  
              
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 4, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3

                               WITNESSES

McCarthy, Gina, Administrator, United States Environmental 
  Protection Agency, Accompanied By: David Bloom, Acting Chief 
  Financial Officer, Environmental Protection Agency.............     6
    Prepared statement...........................................     8
    Response to an additional question from Senator Booker.......    14
Responses to additional questions from:
    Senator Fisher...............................................    14
    Senator Inhofe...............................................    17
    Senator Wicker...............................................    46

                          ADDITIONAL MATERIAL

Articles:
    New York Times: Scientists Warn of Rising Oceans From Polar 
      Melt.......................................................   147
    UCIrvine News: West Antarctica Melt Rate Has Tripled; 
      UCIrvine-NASA..............................................   151
    AGU Publications, Geophysical Research Letters; Mass loss of 
      the Amundsen Sea Embayment of west Antarctica from four 
      independent techniques.....................................   154
Report, Sciencexpress: Ice Shelf Melting Around Antarctica.......   163


OVERSIGHT HEARING: THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR 
                THE U.S. ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Vitter, Capito, Boozman, 
Sessions, Wicker, Rounds, Sullivan, Boxer, Cardin, Whitehouse, 
and Markey.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order.
    We appreciate very much, Administrator McCarthy, your being 
here. We will have a lot of things to talk about, agreements 
and disagreements.
    The EPA is proposing to cut $333 million from the Clean 
Water State Revolving Loan Fund which provides grants and loans 
for wastewater treatment. This is one of the programs that back 
in my State, and I am sure in other States, that is very 
popular and one in which we are very much involved.
    EPA is 3 years behind in reporting to Congress on 
wastewater and storm water needs. However, it doesn't stop EPA 
from pursing its new waters of the US rule on which we had a 
hearing. I have to say, in my State of Oklahoma, the Farm 
Bureau and the other ag groups find that to be the one that is 
the most offensive to them and is going to be the biggest 
problem.
    The President's budget proposes a 66 percent cut in the 
Diesel Emissions Reduction Grant Program, which Senator Carper, 
who will be here shortly, I am sure, and I work to fund each 
year. Voluntary diesel engine retrofits through matching funds 
are a cost effective way of reducing diesel engine pollution 
which EPA estimates causes 15,000 premature deaths each year.
    EPA consistently misses its statutory deadline for 
proposing and finalizing renewable volume obligations for 
refiners, creating significant uncertainty and volatility 
buying and selling Renewable Identification Numbers or RINs, 
which are the credits used as proof of compliance with the 
Renewable Fuels Standard.
    The President's budget cuts Superfund, Homeland Security 
Preparedness and Response while he is out saying that terrorism 
is less of a threat to the American people than climate change. 
In fact, EPA also intends to pursue a legislative proposal for 
an additional $4 billion in mandatory spending for EPA to 
enforce its climate change regulations which 32 States oppose 
and will result in double digit electricity price increases in 
43 States.
    Mandatory spending would mean that EPA would hand out money 
with no congressional oversight. The President requests $3.5 
million for 20 new attorneys because, ``Each EPA action is 
expected to be challenged in court, which will require skilled 
and experienced attorneys specialized in the Clean Air Act to 
devote significant resources to defense of these actions.''
    I think that was your quote, Madam Administrator. These 
attorneys would defend a climate change rule which, according 
to EPA's own consistent testimony, will not affect climate 
change.
    In fact, the Clean Power Plan would reduce CO<INF>2</INF> 
concentrations by less than 1 percent, reduce global 
temperature rise by less than 0.016 degrees Fahrenheit, and 
reduce sea level rise by the thickness of three sheets of 
paper.
    If we would like to point to our international agreement 
with China as proof that global concentrations will change, it 
is important to keep in mind that China emits 800 million tons 
of CO<INF>2</INF> per month while the Clean Power Plan 
reduction would be 550 million tons per year. We are talking 
about 550 million tons per year as opposed to 800 million tons 
a month from China.
    In November, EPA proposed lowering the ozone standard when 
the current standard is not implemented in 40 percent of the 
Country. Manufacturers will not be able to expand.
    I remember years ago, we did a study in Oklahoma on what it 
would really mean if we had to go into a non-attainment status. 
It would be something very, very damaging. When we had the 
standards of 75 ppm, I will ask you to respond, how many States 
have not complied with the 2008 standards before we even go 
into more stringent standards.
    Members of the committee and I are looking forward to 
questioning the EPA's priorities on the regulatory agenda.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

             Statement of Hon. James Inhofe, U.S. Senator 
                       from the State of Oklahoma

    ``Administrator McCarthy, thank you for appearing this 
morning.
    The President's $8.6 billion proposal to fund the EPA 
represents a $452 million increase from last year's enacted 
levels but sacrifices core responsibilities in the pursuit of 
new regulations.
    EPA proposes cutting $333 million from the Clean Water 
State Revolving Loan Fund which provides grants and loans for 
wastewater treatment and pollution control. EPA is 3 years 
behind in reporting to Congress on wastewater and storm water 
needs. However, it doesn't stop EPA for pursing its new waters 
of the US rule which EPA cannot ensure us doesn't expand its 
authority over isolated ponds, storm sewer systems, water reuse 
systems, roadside ditches, rock quarries, farm activities, and 
even backyard creeks.
    The President's budget proposes a 66 percent cut to the 
Diesel Emissions Reduction Grant Program which Senator Carper 
and I work to fund each year. Voluntary diesel engine retrofits 
through matching funds are a cost effective way of reducing 
diesel engine pollution which EPA estimates causes 15,000 
premature deaths each year.
    EPA consistently misses its statutory deadline for 
proposing and finalizing renewable volume obligations (RVO) for 
refiners creating significant uncertainty and volatility buying 
and selling Renewable Identification Numbers (RINs), which are 
the credits used as proof of compliance with the Renewable 
Fuels Standard (RFS).
    The President's budget cuts Superfund Homeland Security 
Preparedness and Response while he is out saying that terrorism 
is less of a threat to the American people than climate change. 
In fact, EPA also intends to pursue a legislative proposal for 
an additional $4 billion in mandatory spending for EPA to 
enforce its climate change regulations which 32 states oppose 
and will result in double digit electricity price increases in 
43 states. Mandatory spending would mean that EPA would hand 
out money with no congressional oversight. The President 
requests $3.5 million for 20 new attorneys because, ``each EPA 
action is expected to be challenged in court, which will 
require skilled and experienced attorneys specialized in the 
Clean Air Act to devote significant resources to defense of 
these actions.'' These attorneys would defend a climate change 
rule which, according to EPA's own consistent testimony, will 
not affect climate change.
    In fact, the Clean Power Plan would reduce CO<INF>2</INF> 
concentrations by less than a percent, reduce global 
temperature rise by less than 0.016 degrees Fahrenheit, and 
reduce sea level rise by the thickness of three sheets of 
paper. If we would like to point to our international agreement 
with China as proof that global concentrations will change, 
it's important to keep in mind that China emits 800 million 
tons of CO<INF>2</INF> per month while the Clean Power Plan 
reduce 550 million tons per year.
    In November, EPA proposed lowering the ozone standard when 
the current standard is not implemented in 40 percent of the 
country. Manufacturers won't be able to expand and with a non-
attainment designation, federally supported highway and transit 
projects, both new capacity and in-progress projects, will be 
halted. This only increases cost of existing expansions, 
complicates the ability to quickly respond to congestion, and 
reduce states' competitiveness for additional expansion 
opportunities.
    The members of this Committee and I are looking forward to 
questioning EPA's priorities and regulatory agenda.''

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Senator.
    Welcome, Administrator McCarthy. Thank you for your 
dedication and devotion to your work, to the American people, 
to clean air, clean water, safe drinking water, and making sure 
that we treat this planet the way it deserves to be treated so 
that our grandchildren can actually have a decent quality of 
life.
    EPA has a vital mission that affects the well-being of 
every American: implementing our Nation's landmark laws. I 
mentioned a few, clean air, children's health, safe drinking 
water, toxics, and water quality in America's lakes and rivers. 
The health and safety of our children and families depends on 
the critical work you do and the way we support you or fail to 
support you.
    I am pleased that EPA's budget request of $8.6 billion 
includes a $452 million increase above the Fiscal Year 2015 
enacted level, but we need to remember that 6 years ago, EPA's 
budget was $10.3 billion, and the Fiscal Year 2016 budget 
request that we will discuss today is a 20 percent cut from 
that level. EPA is being asked to do more rather than less. I 
think it is important for us to keep that in mind.
    Yes, I think my colleague is right. The budget does place 
an important focus on combating dangerous climate change. We 
are seeing the consequences of climate change all around us, 
from historic droughts to extreme wildfires to vanishing 
wildlife habitat. We are seeing the extreme weather predicted 
by scientists who sat there in 2008 and said, you are going to 
see more snowfall, more droughts and more heat.
    When my friend and colleague went to the floor to show that 
it was cold out and threw a snowball, he said he did it because 
he thinks we are too serious and he wants us to lighten up.
    Senator Inhofe. Since you mentioned my name, I can 
interrupt you here. Yes, we need to lighten up.
    Senator Boxer. Let the record show I quoted him correctly. 
He said ``We need to lighten up.''
    Here is the deal. He proved my point and the point of those 
of us who believe climate change is real because we are seeing 
these extreme snowfalls, records are being broken while we are 
seeing extreme heat. That is the weather. The climate is 
different than the weather. We are clearly seeing the rise in 
overall temperatures.
    This is happening right before us. Last week on the front 
page of the Post, we read that Native villages in Alaska are 
being threatened by deteriorating sea ice. Entire villages will 
have to be moved. One is being moved right now at a cost of 
upwards of $100 million. The article warns, ``In the coming 
decades this could apply to numerous other towns.'' This has 
happened before.
    Honest to God, I think the only place that doesn't get it 
is right here but that is the way it is and the way it will 
continue to be for a couple years, that is for sure.
    I want to say EPA is doing essential work on behalf of the 
American people to address the growing threat of climate 
change. The budget would ensure that State governments have the 
resources, the technical assistance and the incentives to help 
cut carbon pollution from our Country's biggest source, power 
plants.
    I urge you to keep up your good work. You are going to be 
attacked hard today on this. I know that and I appreciate the 
fact that my colleagues on the Republican side see it 
differently. I want to say that those of us on this committee 
on our side of the aisle feel you have to do this. It is in the 
law.
    Carbon pollution is pollution. We already know from 
scientists that the co-benefits of reducing carbon mean better 
health for all of our people, regardless of where they live.
    Another important area of EPA's budget is support for the 
Nation's water infrastructure. I commend EPA for proposing 
funding for the Water Infrastructure Financing and Innovation 
Act, which was created last year in the Water Resources Reform 
and Development Act of 2014.
    I want to thank Senator Vitter, Senator Inhofe, Senator 
Cardin and Senator Carper for going along with this idea.
    This is new financing. It is like TIFIA, it leverages 
funds. However, I agree with my friend and colleague that this 
is not a replacement for the State revolving fund. I am very 
concerned that inadequate levels of funding proposed for the 
State revolving fund is going to hurt our people at home.
    Our Nation's water infrastructure needs far outstrip the 
funding available. The proposed $53.8 million cut to the State 
revolving funds will make this funding gap grow. We are in 
agreement on that, Mr. Chairman.
    EPA is also doing essential work to protect the drinking 
water of 117 million Americans. I believe this clean water 
rulemakes a lot of sense. I want to compliment you and the 
Corps of Engineers for your testimony at the last hearing. It 
was very contentious.
    The bottom line is we need to make sure that if there is 
pollution upstream, that it does not wind up in the bodies of 
the people living downstream. We need to protect the Clean, 
Safe Drinking Water Act. One way to do it is by having this 
rule clarified.
    In closing, EPA has a record that Americans support. You 
are one of the most popular agencies in the Country, whether it 
is Republicans, Democrats or Independents, because you are 
fighting for the health of the people.
    I think you are doing a great job. I look forward to 
hearing from you later.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    Welcome Administrator Gina McCarthy. EPA has a vital 
mission that affects the wellbeing of every American--
implementing our nation's landmark laws to address clean air, 
children's health, safe drinking water, toxics, and water 
quality in America's lakes and rivers. The health and safety of 
our children and families depends on the critical work you do.
    I am pleased that EPA's budget request of $8.6 billion 
includes a $452 million increase above the fiscal year enacted 
level. But we need to remember that 6 years ago, EPA's budget 
was $10.3 billion, and the fiscal year budget request that we 
will discuss today is a 20 percent cut from that level. EPA is 
being asked to do more rather than less and it is important to 
keep that in mind.
    This budget places an important focus on combating 
dangerous climate change. We are already seeing the 
consequences of climate change all around us--from historic 
droughts to extreme wildfires to vanishing wildlife habitat. 
And we are seeing extreme weather also predicted by 
scientists--record snowfalls and record heat. So I thank my 
Chairman for proving that point on the Senate floor recently. 
That was not his intent, but for me he helped my case.
    Last week, on the front page of the Washington Post we read 
that native villages in Alaska are being threatened by 
deteriorating sea ice. Entire villages will have to be moved, 
which will cost upwards of a hundred million dollars. And the 
article warns that ``in the coming decades [this] could apply 
to numerous other towns.''
    Another important area of EPA's budget is support for the 
nation's water infrastructure. I want to commend EPA for 
proposing funding for the Water Infrastructure Financing and 
Innovation Act (WIFIA), which was created last year in the 
Water Resources Reform and Development Act of 2014. This new 
financing tool will help leverage private financing for 
critical drinking water and wastewater infrastructure projects 
and can be an important complement to the Clean Water and 
Drinking Water State Revolving Funds.
    However, WIFIA is not a replacement for the State Revolving 
Funds. I am concerned about the inadequate levels of funding 
proposed for these programs. Our nation's water infrastructure 
needs far outstrip the funding available, and the proposed 
$53.8 million cut to the State Revolving Funds will make this 
funding gap grow.
    EPA is also doing essential work to protect the drinking 
water of 117 million Americans. The agency's proposed Clean 
Water rule will protect those water bodies that provide 
drinking water for 1 in 3 Americans while being clear about 
which waters are exempt. You have undertaken an open and 
transparent process that has given all sides the opportunity to 
comment. It is important to incorporate that feedback and 
finalize this vital rule.
    EPA has a record that Americans support--clean air, clean 
water, and a healthy planet are shared values. I look forward 
to hearing from Administrator McCarthy today.

    Senator Inhofe. Thank you, Senator Boxer.
    Ms. McCarthy, we will recognize you for the reasonable time 
you may take. Then we will open it up to questions.

   STATEMENT OF GINA MCCARTHY, ADMINISTRATOR, UNITED STATES 
 ENVIRONMENTAL PROTECTION AGENCY, ACCOMPANIED BY: DAVID BLOOM, 
ACTING CHIEF FINANCIAL OFFICER, ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Chairman Inhofe, Ranking Member 
Boxer and members of the committee, for the opportunity to 
appear before you to discuss the Environmental Protection 
Agency's proposed Fiscal Year 2016 budget.
    I am joined by the agency's Acting Chief Financial Officer, 
David Bloom.
    The EPA's budget request of $8.592 billion in discretionary 
funding for the 2016 Fiscal Year provides resources that are 
vital to protecting human health and the environment, while 
building a solid path forward for sustainable economic growth.
    Since 1970 when EPA was founded, we have seen over and over 
again that a safe environment and a strong economy go hand in 
hand.
    The budget supports essential work to address climate 
change, improve air quality, protect our water, safeguard the 
public from toxic chemicals, support communities' environmental 
health, maintain Corps enforcement strengths, support needed 
research and work toward a sustainable future for all 
Americans.
    Effective environmental protection is a joint effort of the 
EPA, States and our tribal partners. We are setting a high bar 
for continuing our partnership efforts and looking for 
opportunities for closer collaboration and targeted joint 
government projects, in planning processes through efforts like 
E-Enterprise.
    That is why the largest part of our budget, $3.6 billion or 
42 percent, is provided directly to our State and tribal 
partners. The Fiscal Year 2016 budget request includes an 
increase of $108 million for State and tribal categorical 
grants.
    This budget requests $1.1 billion to address climate change 
and to improve air quality. These resources will help protect 
the most vulnerable to climate impacts and harmful health 
effects of air pollution through common sense standards, 
guidelines, as well as partnership programs.
    Climate change is not just an environmental challenge. It 
is a threat to public health, our domestic and global economy 
and to our national and international security. The request 
supports the President's Climate Action Plan and in particular, 
the Clean Power Plan, which establishes carbon pollution 
standards for power plants.
    In addition, the President's budget calls for $4 billion 
for a Clean Power State Incentive Fund to support State efforts 
to accelerate carbon pollution reductions in the power sector.
    Protecting the Nation's water remains a top priority for 
EPA. In Fiscal Year 2016, we will finalize and support 
implementation of the Clean Water rule which will clarify types 
of waters covered under the Clean Water Act and foster more 
certain and efficient business decisions to protect the 
Nation's waters.
    Recognizing the need for water infrastructure, the SRF and 
related efforts are funded at over $2.3 billion. We will work 
with our partners to help communities by focusing on issues 
such as financial planning for future public infrastructure 
investments and expanded efforts through States to identify 
financing opportunities for resilient drinking water, 
wastewater and stormwater infrastructure.
    Last month, the agency launched the Water Infrastructure 
and Resilience Financing Center. That is a key component of 
this expanded effort. We are proposing a multifaceted effort to 
help our communities, including low income neighborhoods, rural 
communities and communities of color.
    This includes targeted funding and on the ground community 
assistance through EPA's regional coordinators and a network of 
circuit riders. An investment of $16.2 million will help local 
communities improve safety and security at chemical facilities 
and prevent and prepare for oil spills.
    These efforts represent a shared commitment among those 
with a stake in chemical facility safety and security, ranging 
from facility owners to first responders.
    The Fiscal Year 2016 budget request will let us continue to 
make a real and visible difference to communities every day. It 
gives us a foundation to improve infrastructure across the 
Country and it will sustain State, tribal and Federal 
environmental efforts across all our programs.
    With this proposed budget, the President is not only 
sending a clear signal about the resources EPA needs to 
effectively and efficiently work with States and tribes to 
protect public health and the environment, it is also a part of 
an overall Federal a budget proposal that does not accept the 
bad public policy embodied in sequestration and does not hold 
back needed resources and nondefense spending in order to 
increase needed defense spending or vice versa.
    Instead, the President's proposed Fiscal Year 2016 budget 
finds a path forward to avoid sequestration and properly 
support both domestic and national security interests.
    Mr. Chairman, I thank you for the opportunity to testify 
and look forward to answering questions.
    [The prepared statement of Ms. McCarthy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
          Response by Gina McCarthy to an Additional Question 
                          from Senator Booker


                               beach act


    Question 1. The BEACH Act authorized the EPA to award 
grants to eligible states, territories, and tribes to develop 
and implement beach water quality monitoring and notification 
programs for coastal recreational waters. As a result, EPA's 
Beach Grants have made nearly $10 million a year available for 
the past 4 years. The program allows for a more standardized 
approach to the monitoring of water quality and the 
notification of beach goers if the water they are swimming in 
is unsafe for recreation.

     What is EPA's justification for zeroing out funding for 
the BEACH Act grant program?
     Given the reduction in EPA's proposed fiscal year from 
$10 million to $0, how does EPA plan to assist State and local 
public health officials in identifying, notifying the public 
of, and ultimately reducing the risk of illness and disease to 
swimmers at our recreational beaches?

    Response. The agency is proposing to eliminate certain 
mature program activities that are well-established, well 
understood, and where there is the possibility of maintaining 
some of the human health benefits through implementation at the 
local level. While beach monitoring continues to be important 
to protect human health, states and local governments now have 
the technical expertise and procedures to continue beach 
monitoring without Federal support, as a result of the 
significant technical guidance and financial support the Beach 
Program has provided.

          Responses by Gina McCarthy to Additional Questions 
                          from Senator Fischer

    Question 1. In your budget justification document you say:

    ``In support of the President's Climate Action Plan, the 
EPA will work to assist other Federal agencies to improve the 
analysis of climate change issues under NEPA, including 
estimating greenhouse gas emissions associated with Federal 
actions and consideration of mitigation measures, as well as 
fostering climate resiliency.''

    Are you already implementing CEQ's draft guidance that 
would require all Federal agencies to address global climate 
change in NEPA reviews?
    Response. NEPA currently requires that agencies consider 
greenhouse gas emissions and climate change in the NEPA process 
as it would other pollutants. The draft CEQ guidance will help 
promote consistency and efficiency in meeting NEPA 
obligations.\1\ Our ongoing comments to other agencies reflect 
the concepts outlined in the draft guidance, and are meant to 
help agencies meet their existing NEPA responsibilities. As 
noted in the draft guidance, ``Climate change is a fundamental 
environmental issue, and the relation of Federal actions to it 
falls squarely within NEPA's focus.''
---------------------------------------------------------------------------
    \1\http://www.gpo.gov/fdsys/pkg/FR-2014-12-24/pdf/2014-30035.pdf
---------------------------------------------------------------------------
    Question 2. In your role as a reviewer of Environmental 
Impact Statements developed by other agencies, do you believe 
you can require other agencies to adopt measures to mitigate 
global climate change?
    Response. The EPA does not have authority to require other 
agencies to adopt mitigation measures as part of the NEPA 
process. However, NEPA does require that agencies consider 
appropriate mitigation measures for the environmental impacts 
associated with their proposed actions, and the agency will 
continue to recommend that agencies consider ways to reduce 
greenhouse gas emissions associated with their actions.

    Question 3. Do you think that the draft CEQ guidance would 
give you the power to second-guess a decision by another 
Federal agency that any effect on global climate change is 
insignificant and no EIS is needed?
    Response. The EPA's role is to make recommendations for the 
other agencies to consider as they make their decisions on 
actions that may impact the environment. NEPA requires agencies 
to carry out their NEPA responsibilities in a manner that is 
reasonable, and the same rule of reasonableness applies to the 
consideration of climate impacts. Embedded in implementing NEPA 
are the rule of reason, proportionality, and flexibility to 
provide the agency preparing the analysis and documentation to 
focus on the issues that are important, hear from all 
stakeholders and consider their input based upon the substance 
and expertise provided, and exercise their professional 
judgment in projecting the potential environmental--including 
all elements of the human environment which encompass 
ecological, social, and economic effects of the proposal and 
any reasonable alternatives. The CEQ's draft guidance seeks to 
provide greater clarity to agencies as they carry out their 
NEPA responsibilities.

    Question 4. Have you done any outreach to stakeholders on 
the draft CEQ guidance?
    Response. CEQ, as the drafter of the guidance, is managing 
the public input process. The EPA has not conducted any 
independent stakeholder outreach.

    Question 5. How will the new guidance affect how EPA 
complies with NEPA for its own actions, such as issuing Clean 
Water Act permits or developing regulations?
    Response. The EPA is working to ensure that NEPA compliance 
for our own actions consider, as appropriate and consistent 
with the draft CEQ guidance, the extent to which the proposed 
action has associated greenhouse gas emissions, and the extent 
to which adaptation and resilience measures may be necessary in 
light of expected climate change. Some of the specific actions 
included in this question, such as some Clean Water Act permits 
and issuing of regulations, do not fall within the scope of 
NEPA because they are specifically exempted by statute, e.g., 
see Section 511 (c) of the Clean Water Act.


                    renewable fuels standards (rfs)


    Question 6. In 2007, Congress put the Renewable Fuel 
Standard in place for 15 years, setting a stable policy 
environment to drive investment and growth in renewable fuel. 
This approach has guided billions of dollars from around the 
world and here at home toward innovation inside the United 
States. American agriculture has also responded to this 
investment signal. For example, just this year, 3 cellulosic 
biofuel refineries opened, each co-located with a corn ethanol 
facility. Each biorefinery is producing clean, cellulosic 
biofuel. Using specially designed equipment, all three 
facilities use corn stover, an agricultural waste material 
collected from the very same fields that provide corn to 
ethanol facilities. This didn't happen by accident. Farmers 
make planting decisions based on the RFS. Equipment 
manufacturers' invest million in R&D perfecting new equipment 
that can be available to serve this market. Congress made a 
promise in 2007, and it is the EPA's responsibility to uphold 
that promise with a regulatory process that meets our intent. 
The 2014 RVO proposal would have stranded billions of dollars 
of investment and ripped the rug out from under those in the 
private sector who responded to the investment signals of the 
RFS. Will your new proposal retain the commitment to American 
agriculture that we made nearly a decade ago?
    Response. The EPA understands the importance of the RFS 
program, and is committed to the program's goals, namely, 
reducing emissions of greenhouse gases from the transportation 
sector and increasing American energy security. The agency is 
aware that the agricultural community, as well as renewable 
fuel producers and other stakeholders, have invested 
significant time, energy, and resources into ensuring that the 
objectives of the RFS program become a reality. Renewable fuel 
use has increased substantially over the past decade, and we 
have seen significant advancements in renewable fuel production 
capacity and efficiency, including recent advancements in the 
commercial-scale production of cellulosic biofuel. Congress 
designed the RFS program to rely primarily on growth in 
conventional biofuel beginning with its inception in 2006, but 
then to transition to growth primarily in cellulosic and other 
advanced biofuel growth for 2015 and beyond. Our proposed 
standards are consistent with this intent of Congress.
    The annual rule-setting process under the statute has 
proven to be very challenging, and we recognize that the delay 
in issuing the 2014 standards has exacerbated uncertainty in 
the market for both renewable fuel producers and obligated 
parties. However, the EPA is committed to getting this program 
back on the statutory timeline to provide needed market 
certainty and support the development and use of renewable 
fuels by completing a rulemaking for the 2014, 2015 and 2016 
RFS standards by November 30, 2015.

    Question 7. Your staff has recently stated that you 
anticipate putting out RFS volumes by late June. Do you see 
that as acceptable? Given that we have biodiesel producers 
across the country shutting down or idling their plants, why do 
we need to wait another 4 months? If we wait until June we've 
lost another half of a year.
    Response. The EPA recognizes that delays in issuing the 
rule have contributed to uncertainty in the market. We proposed 
volume standards for 2014, 2015, and 2016 on June 10, 2015 (80 
FR 33100) and are committed to finalizing these standards by 
November 30, 2015. The agency also will finalize the applicable 
volume of biomass-based diesel for 2017 along the same 
timeline. By doing so we will get the program back on the 
statutory timeline and establish a more stable footing for the 
program's future.

    Question 8. Your staff also recently stated that 2014 
numbers will be based on actual production. What does that mean 
exactly? Does that mean the volumes will be set at the levels 
that were actually produced under the RFS in 2014? And can we 
assume that we will see growth from there in the biodiesel 
category in 2015 and 2016?
    Response. The EPA has proposed 2014 standards that reflect 
the volumes of renewable fuel that were actually used in 2014, 
as it is those volumes that are eligible to be used to meet 
applicable standards under the RFS program. The agency did so 
because the 2014 compliance year is now over, and any standard 
the EPA sets for 2014 can no longer influence renewable fuel 
production or use in that year. Details of how we calculated 
the 2014 volumes are addressed as part of the proposal (80 FR 
33100, June 10, 2015).

    Question 9. You recently approved an application from 
Argentinian companies to essentially streamline biodiesel 
imports from Argentina under the RFS. Why would you do that 
when the overall RFS hasn't been set for 2 years and the U.S. 
industry is in disarray? It almost shows a disregard for the 
U.S. companies that we know are struggling as a direct result 
of the delays on the RFS. Can you explain why you would do that 
at this time? Why not wait until the RFS volumes are set and 
then make a decision on the Argentina imports?
    Response. The agency notes that under the existing 
regulations, biofuels were already being imported from 
Argentina. The CARBIO plan provides for even more oversight to 
ensure that feedstocks used to produce compliant renewable 
fuels under the program are coming from qualifying land. 
CARBIO's plan includes a robust tracking program that requires 
that an independent third party conduct an annual survey of the 
entire biofuel supply chain, from soybean production through 
intermediate processing, to biodiesel production. This approved 
plan enhances existing regulatory oversight requirements 
currently applied to qualifying renewable fuels being imported 
from Argentina.

    Question 10. I understand that in setting the annual 
biodiesel volumes you are required under the law to look at 
production capacity and other factors. So now that we know this 
extra production exists and is likely coming to the United 
States, how will you account for that as you set annual RFS 
standards for biodiesel? In other words, will you increase 
volumes more aggressively to allow U.S. producers to continue 
to grow, so that they're not displaced by these Argentinian 
imports?
    Response. The proposed biomass-based diesel standards 
establish minimum volumes for biomass-based diesel to provide 
additional certainty to the biodiesel and renewable diesel 
industries. The proposed biomass-based diesel standards ensure 
steady growth through 2017.
    All of the RFS standards that we proposed take into 
consideration domestic production, imports and exports. The 
market will determine the precise mix of fuels and their 
sources for complying with the standards, as a result of a 
number of market forces and national biofuel or related 
policies both here in the U.S. and in other countries. Since 
those market forces and policies change over time, we did not 
attempt to estimate precisely the resulting volumes that would 
be imported from specific countries. The proposed standards 
provide ample room for the growth of biodiesel volumes from 
domestic production in addition to potential import volumes.


                              epa region 7


    Question 11. Private Nebraska building contractor entities 
have shared inquiries and questions regarding EPA Region 7, 
Kansas City, and the utilization of resources and personnel 
enforcing lead paint regulations against Nebraska home and 
building contractors. In particular, private building 
contractors have expressed concerns involving the manner and 
rationale of investigations conducted by Region 7 and the 
protocol for fines pursued for stated violations.
    Response. We interpret this to be a statement to provide 
context to Question 13.

    Question 12. In order to address concerns expressed by 
Nebraska private contractor interests, I request that EPA 
provide the following information involving Region 7, Kansas 
City and the regulation of lead paint in private homes and 
commercial businesses:
    Response. We interpret this to be a statement to provide 
context to Question 13.

    Question 13. Please provide a budget breakdown of:

     The amount of Region 7 funds expended for outreach and 
education to the building contractor community in Nebraska.
     The amount of funds directly tied to educating property 
owners and building contractors on EPA lead paint rules and 
regulations.
     What amount of Region 7's Budget is dedicated to 
investigations and pursuit of fines?
    Response. Region 7 has responsibilities for various Toxic 
Substance Control Act regulations related to lead-based paint 
including TSCA Section 402(c), 15 U.S.C. Section 2682, 
Renovation, Repair, and Painting Program (RRP) which addresses 
lead-based paint hazards created by renovation, repair, and 
painting activities that disturb lead-based paint in housing 
and child occupied facilities built before 1978. Within Region 
7, the states of Iowa and Kansas have requested and been 
approved for implementing the RRP Program. Neither Nebraska nor 
Missouri have sought such approval and, as such, Region 7 is 
responsible for direct implementation of the regulation in 
these two states. Additionally, Region 7 is responsible for 
direct implementation of the TSCA Section 1018, Lead-based 
Paint Disclosure Rule, in Iowa, Nebraska, Kansas and Missouri. 
This rule is not delegable to states.
    Region 7 implements all agency enforcement and compliance 
programs (which includes supporting many environmental statutes 
such as Resource Conservation and Recovery Act; Clean Water 
Act; Safe Drinking Water Act; Clean Air Act; Residential Lead-
Based Paint Hazard Reduction Act; etc.) and for the Lead Risk 
Reduction program (which includes supporting the RRP and 
Disclosure Rule, providing education and outreach, implementing 
lead-based paint activities, and other program-related 
activities). In fiscal year 4, Region 7 dedicated 4.3 FTE and 
$314,000 to support RRP and Disclosure Rule activities (which 
includes State grant oversight, State technical support, 
outreach/compliance assistance, enforcement, and other related 
activities). In fiscal year 5, Region 7 has allocated 4.3 FTE 
and approximately $275,000 to support RRP and Disclosure Rule 
activities. While Region 7 receives funding for the agency's 
programs, Region 7 does not allocate its funding on a state-by-
State basis or at an activity level.

    Question 14. Does Region 7 contract with private or 
commercial entities to investigate reported violations? And 
Does Region 7 offer financial incentives to individuals who 
report violations?
    Response. The EPA, through a cooperative agreement with the 
National Older Worker Career Center (NOWCC), utilizes the NOWCC 
personnel for various activities (i.e. inspections, outreach, 
administrative support, etc.). The NOWCC is a national non-
profit organization which helps to identify and place older 
workers with the EPA through the Senior Environmental 
Employment Program. Region 7 is a participant and provides 
funding to the SEE Program to obtain support for lead-based 
paint related inspections and other activities. The personnel 
provided by the NOWCC for the program are considered grant 
enrollees with the NOWCC. These personnel would conduct both 
routine inspections and inspections assigned as a result of a 
tip or complaint.
    Region 7 does not offer incentives to individuals who 
report violations. Individuals frequently contact Region 7 to 
report suspected violations. These individuals are generally 
contractors concerned that non-compliance by others may place 
them at a competitive disadvantage; families concerned about 
the risks of lead dust to children created through painting or 
renovation activities in their home; and/or, local agencies who 
have identified painting or renovation activities which they 
perceive to be non-compliant and which may pose risks to 
children.

          Responses by Gina McCarthy to Additional Questions 
                          from Senator Inhofe


                                 ozone


    Question 1. In the proposed rule, you State that EPA will 
take a series of actions in the next year to implement the new 
standard. (EPA says it will issue guidance for State 
designations within 4 months of finalizing the rule, provide 
guidance for infrastructure SIPs, and propose any needed 
implementation rules within 1 year.)

     Approximately how much money, resources, and staff will 
be required to complete this work in fiscal year 6?
     Has EPA requested the resources needed to complete all of 
this work?
     Where in the budget are these resources requested?

    Response. Within the levels in the fiscal year President's 
Budget, the agency requests the resources and FTE necessary to 
continue its Clean Air Act-prescribed responsibilities to 
administer and implement the NAAQS. This includes funding for 
review of the ozone NAAQS and for implementation of a 
potentially revised ozone standard, including development of 
transition guidance and area designation guidance, within 
current statutory and resource limitations. The agency also 
will continue consulting with states to determine additional 
methods to improve the SIP development and implementation 
process that are within current statutory limitations.

    Question 2. The proposal relies heavily on ``unknown 
technologies'' for compliance (Table 4-10 in the draft RIA: 66 
percent of NOx controls in the East are unknown and 70 percent 
in the West are unknown). However, only ``extreme'' 
nonattainment areas can include unknowns in their SIPs.

     How do you expect states to comply with a standard when 
your agency can't even identify ways to make it feasible?
     Do you expect states to have to choose between extreme 
sanctions or self-designating themselves as ``extreme'' 
nonattainment areas, accepting all the extreme stationary 
source requirements that go along with that designation?
     Your RIA already assumes in the ``known controls'' that 
the existing source proposal will be complied with fully, so 
how is it even remotely possible to achieve your proposed 
standard?

    Response. The EPA's application of unknown control measures 
reflects the agency's experience that some portion of controls 
to be applied in the future may not be currently available but 
will be deployed or developed over time. The EPA's application 
of unknown control measures does not mean the agency has 
concluded that all unknown control measures are currently not 
commercially available or do not exist. Unknown control 
technologies or measures can include existing controls or 
measures for which the EPA does not have sufficient data to 
accurately estimate engineering costs. In addition, there will 
likely be some emissions reductions from currently unknown 
control technologies as a result of state-specific rules that 
are not yet finalized.

    Question 3: How much of future attainment relies on 
``unknown controls''? How does EPA calculate the cost these 
future ``unknown controls''? Why has EPA lowered the cost of 
those unknown controls by half since developing the 2011 ozone 
rule?
    Response. Following advice from the EPA Advisory Council on 
Clean Air Compliance Analysis (COUNCIL), in the 2014 analysis 
EPA relied on a methodology to estimate the cost of unknown 
controls that used an average cost-per-ton for the needed 
emissions reductions. The agency agrees with the COUNCIL that 
the approach is both transparent and strikes a balance between 
the likelihood that some unidentified abatement would be 
achieved at costs that are lower than average and that some 
would be achieved at costs that are higher than average.

    Question 4. In 2011, President Obama pulled the plug on 
this same proposal due to ``regulatory burdens and regulatory 
uncertainty.'' Our economy was still struggling to recover from 
the recession, and the $90 billion price tag was something even 
he was unable to justify.

     o you really think that our economy is in better shape 
now to handle a $3 trillion rule than it was in 2011?
     What has changed since the President's decision that 
signals now is an appropriate time to radically revise the 
standard before the benefits of the last one have been fully 
implemented?

    Response. Sections 108 and 109 of the Clean Air Act (CAA) 
govern the establishment, review, and revision, as appropriate, 
of the NAAQS to protect public health and welfare. The CAA 
requires the EPA to periodically review the air quality 
criteria the science upon which the standards are based and the 
standards themselves. This rulemaking is being conducted 
pursuant to these statutory requirements.
    The EPA sets the National Ambient Air Quality Standards at 
a level that is requisite to protect the public health and 
welfare, based on the best available science. The U.S. Supreme 
Court ruled in Whitman v. American Trucking Associations, 531 
U.S. 457 (2001), that under Section 109 of the Clean Air Act, 
the EPA may not consider the costs of implementation in setting 
standards.
    Under the Clean Air Act, states ultimately determine what 
local measures may be required to address local sources of air 
pollution. For that reason, the EPA presents an illustrative 
estimation of the costs and benefits of complying with proposed 
revisions to a NAAQS. EPA estimates that reducing pollution to 
meet a revised ozone NAAQS in 2025 will yield health benefits 
of $6.4 to $13 billion annually for a standard of 70 ppb, and 
$19 to $38 billion annually for a standard of 65 ppb, except 
for California, which was analyzed separately. Nationwide 
costs, except California, are estimated at $3.9 billion in 2025 
for a standard of 70 ppb, and $15 billion for a standard of 65 
ppb. The estimated benefits of a strengthened ozone standard 
outweigh the estimated costs by as much as a ratio of $3.33 to 
$1.
    For decades, ozone pollution has been reduced by the 
combined efforts of Federal, state, tribal and local 
governments. The costs and benefits of Federal rules are 
evaluated during the public process for each rule. More than 
forty years of experience with the Clean Air Act has shown that 
America can build its economy and create jobs while cutting 
pollution to protect the health of our citizens and our 
workforce.

    Question 5. Compared to just 4 years ago, EPA has lowered 
cost estimates for the same stringent ozone standards by as 
much as $51 billion. Have compliance costs for ozone controls 
really dropped by over 80 percent since 2010?
    Response. The cost estimates for the 2014 proposal are 
different than the 2010 reconsideration proposal because we are 
analyzing changes between different current and proposed 
standards, air quality, and needed emissions reductions. In 
part because of recent improvements in air quality and Federal 
and State actions that will come into effect over the next 
decade, meeting the proposed standards will require fewer 
emissions reductions than the reconsideration, meaning the 
estimated costs are lower.

    Question 6. Over the last 4 years, EPA has slashed its cost 
estimates for the same stringent ozone standards.

     Has the cost of compliance technologies gone down, or did 
EPA change the assumptions in its cost-benefit analysis?
     How much of that reduction is due to projected air 
quality improvements versus changes in EPA's control cost 
assumptions?

    Response. The cost estimates for the 2014 proposal are 
different than the 2010 reconsideration proposal because we are 
analyzing changes between different current and proposed 
standards, air quality, and needed emissions reductions. In 
part because of recent improvements in air quality and Federal 
and State actions that will come into effect over the next 
decade, meeting the proposed standards will require fewer 
emissions reductions than the reconsideration, meaning the 
estimated costs are lower.

    Question 7. In 2010, EPA projected that the same ozone 
standards that EPA is now proposing could cost as much as $44 
billion per year. These are straight-up, added costs to 
American manufacturing. I'm concerned that, during this slow 
economic recovery, we are driving manufacturing out of the 
U.S., to other countries with lax environmental standards. In 
analyzing these proposed regulations, does EPA consider the 
effects of driving manufacturing offshore, to countries with 
little or no environmental controls?
    Response. The EPA sets the National Ambient Air Quality 
Standards at a level that is requisite to protect the public 
health and welfare, based on the best available science. The 
U.S. Supreme Court ruled in Whitman v. American Trucking 
Associations, 531 U.S. 457 (2001), that under Section 109 of 
the Clean Air Act, the EPA may not consider the costs of 
implementation in setting standards.
    Under the Clean Air Act, states ultimately determine what 
local measures may be required to address local sources of air 
pollution. For that reason, the EPA presents an illustrative 
estimation of the costs and benefits of complying with proposed 
revisions to a NAAQS. EPA estimates that reducing pollution to 
meet a revised ozone NAAQS in 2025 will yield health benefits 
of $6.4 to $13 billion annually for a standard of 70 ppb, and 
$19 to $38 billion annually for a standard of 65 ppb, except 
for California, which was analyzed separately. Nationwide 
costs, except California, are estimated at $3.9 billion in 2025 
for a standard of 70 ppb, and $15 billion for a standard of 65 
ppb. The estimated benefits of a strengthened ozone standard 
outweigh the estimated costs by as much as a ratio of $3.33 to 
$1.
    For decades, ozone pollution has been reduced by the 
combined efforts of Federal, state, tribal and local 
governments. The costs and benefits of Federal rules are 
evaluated during the public process for each rule. More than 
forty years of experience with the Clean Air Act has shown that 
America can build its economy and create jobs while cutting 
pollution to protect the health of our citizens and our 
workforce.

    Question 8. High levels of natural background ozone may 
cause many otherwise clean states, especially in the West, to 
be unable to meet EPA's stringent ozone proposal even with 
costly emission controls.

     EPA says it can deal with these concerns through its 
``exceptional events'' program. Yet, since 2008, Utah has 
submitted 12 exception event demonstrations, and EPA has yet to 
approve one. Historically, how many times has the exceptional 
exceedance policy been used by the states and EPA? How long and 
what was the cost to taxpayers each time it was used? How many 
times annually do you expect it to be needed going forward?
     EPA also says it can deal with these concerns through 
``Rural Transport Areas.'' Yet EPA has no track record for 
Rural Transport Areas under an 8 hour ozone standard like in 
the proposal. Why should we think the Agency can use Rural 
Transport Areas to provide regulatory relief to states with 
high background ozone?

    Response. Existing and upcoming EPA regulations and 
guidance will assist states in ensuring background ozone does 
not create unnecessary control obligations as they continue 
their work to improve air quality.
    Assuming a State can provide an adequate assessment or 
demonstration to legally invoke regulatory relief, there are a 
few types of CAA-authorized relief that are described in the 
ozone NAAQS proposal. As examples, an area may be able to rely 
upon the exceptional events provisions of the Act to exclude 
certain emissions data from consideration during the process of 
area designations under the possible revised NAAQS, which could 
impact whether an area is designated nonattainment. An area 
also may be able to rely on the international emissions 
provisions of the Act when making attainment demonstrations, 
which could limit their ultimate control requirements. Finally 
the Administrator can determine that certain qualifying 
nonattainment areas are Rural Transport Areas, thus eliminating 
the need for states to develop an attainment plan. All of these 
CAA-authorized provisions have been used in the past for 
implementing ozone standards.
    The states typically submit exceptional events 
demonstrations between the promulgation of a new or revised 
NAAQS and the initial area designations for that NAAQS, in 
order avoid designation as a nonattainment area through 
exclusion of data affected by exceptional events. The EPA 
recognizes the challenges associated with developing, 
submitting and reviewing exceptional events demonstration 
packages and is actively developing Exceptional Events Rule 
revisions and additional guidance on demonstrating ozone-
related exceptional events associated with wildfire, which we 
anticipate proposing in the fall of 2015 and finalizing in the 
summer of 2016. This schedule will ensure the final rule 
revisions and ozone-related guidance are available in advance 
of implementation activities (e.g., Governors' designation 
recommendations) for any potential new or revised ozone NAAQS. 
Because states submit exceptional events demonstration packages 
directly to their reviewing EPA regional office, the EPA does 
not have a national tracking system for the submission, review, 
and expended resources associated with the exceptional events 
process. Some air agencies and EPA regions have developed their 
own processes, systems, and criteria to track exceptional 
event-related information.

    Question 9. Yellowstone national park's current ozone level 
is 66ppb----

     Is the Agency considering setting a standard that is 
below the current ozone levels at Yellowstone National Park?
     I understand EPA has been criticized regarding the way 
background ozone concentrations are calculated and used. What 
steps is the agency taking to improve that process?

    Response. Based on a significantly expanded body of 
scientific evidence, including more than 1,000 new studies 
since the last review of the standards, the EPA is proposing 
that the current primary ozone standard set at a level of 0.075 
ppm is not requisite to protect public health with an adequate 
margin of safety, and that it should be revised to provide 
increased public health protection. This proposed conclusion is 
supported by the independent group of science experts who form 
the Clean Air Science Advisory Committee (CASAC). Specifically, 
the EPA is proposing to revise the level of that standard to 
within the range of 0.065 ppm to 0.070 ppm to increase public 
health protection, including for ``at-risk'' populations such 
as children, older adults, and people with asthma or other lung 
diseases, against an array of ozone-related adverse health 
effects. For short-term ozone exposures, these effects include 
decreased lung function, increased respiratory symptoms and 
pulmonary inflammation, effects that result in serious 
indicators of respiratory morbidity such as emergency 
department visits and hospital admissions, and non-accidental 
mortality. For long-term ozone exposures, these health effects 
include a variety of respiratory morbidity effects and 
respiratory mortality.
    Existing and upcoming EPA regulations and guidance will 
assist states in ensuring background ozone does not create 
unnecessary control obligations as they continue their work to 
improve air quality.

    Question 10. I understand that EPA does not exclude Mexican 
and Canadian ozone emissions when it determines background 
levels of ozone. What could a county in my district due to 
control emissions in a foreign country?
    Response. Existing and upcoming EPA regulations and 
guidance will assist states in ensuring background ozone does 
not create unnecessary control obligations as they continue 
their work to improve air quality. For purposes of implementing 
the ozone standards, sources of ozone precursor emissions 
emanating from outside the U.S. are considered background 
sources. The CAA contains attainment planning provisions that 
allow states to account for international emissions that are 
beyond their control. If used appropriately, these provisions 
could limit the ultimate control requirements that would apply 
to local sources. These CAA provisions have been used in the 
past in implementing the ozone standards.

    Question 11. High levels of ozone transported from Asia and 
Mexico may mean that many otherwise clean states, especially in 
the West, will be unable to meet EPA's stringent ozone proposal 
even with costly emission controls. EPA says it can deal with 
these concerns through Clean Air Act provisions on 
international transport.

     EPA has been notoriously slow in providing states similar 
regulatory relief for natural ozone under the Exceptional 
Events Program. Why should states believe that EPA will be any 
better in approving regulatory relief for international ozone 
transport?
     Will EPA commit to not designate as nonattainment any 
counties that fail the proposal's ozone standards because of 
international transport?

    Response. Existing and upcoming EPA regulations and 
guidance will assist states in ensuring background ozone does 
not create unnecessary control obligations as they continue 
their work to improve air quality.
    Assuming a State can provide an adequate assessment or 
demonstration to legally invoke regulatory relief, there are a 
few types of relief that are included in the proposal. As 
examples, an area may be able to rely on existing CAA-
authorized provisions to obtain relief from designation as a 
nonattainment area, or relief from adopting additional controls 
to demonstrate attainment.

    Question 12. EPA halted implementation of the 2008 ozone 
standard from 2010-2012 while it reconsidered that standard. 
That delay put State implementation of the 2008 ozone standard 
well behind the normal schedule. States are now committing time 
and money to catch up on the 2008 ozone standard. In fact, EPA 
just issued the implementation rules for the 2008 standard on 
February 13, 2015. Why is EPA proposing new ozone standards 
when it hasn't given states a chance to implement the current 
ones?
    Response. Sections 108 and 109 of the Clean Air Act (CAA) 
govern the establishment, review, and revision, as appropriate, 
of the NAAQS to protect public health and welfare. The CAA 
requires the EPA to periodically review the air quality 
criteriathe science upon which the standards are based and the 
standards themselves. This rulemaking is being conducted 
pursuant to these statutory requirements.

    Question 13. EPA chose to project the costs of its proposed 
ozone standard to 2025, 8 years after counties will be 
designated as nonattainment areas under the proposal.

     What consequences will those counties face while 
designated nonattainment?
     Does EPA's modeling capture the cost of lost economic 
activity that counties in nonattainment areas will experience 
during those 8 years?

    Response. The Clean Air Act provides for a range of actions 
to take place when an area is designated nonattainment. The 
specifics are discussed in further detail in section VII.4 of 
the preamble to the proposed rule (Nonattainment Area 
Requirements beginning on 79 FR 75373).
    Consistent with Executive Order 12866, and OMB guidance, 
the EPA prepared a Regulatory Impact Analysis accompanying the 
proposed updates to the ozone NAAQS that shows the benefits and 
costs of illustrative control scenarios that states may choose 
in complying. Because states have flexibility in how to meet 
their goals, the actions taken to meet the goals may vary from 
what is modeled in the illustrative scenarios. Specific 
details, including information about how costs and benefits are 
estimated for these illustrative scenarios are available in the 
RIA (http://www.epa.gov/ttn/ecas/regdata/RIAs/20141125ria.pdf).

    Question 14. EPA chose to project the costs of its proposed 
ozone standard to 2025, saying that would be the year in which 
most counties would have to attain the standards if granted 
compliance extensions.

     Since EPA bases its entire economic analysis on these 
assumed extensions, will the Agency commit to extending 
compliance deadlines to the maximum extent possible when 
finalizing the ozone standards?
     If EPA assumed longer compliance deadlines, shouldn't it 
write those compliance extensions into the final rule?

    Response. The EPA intends to take action to provide for 
compliance flexibility similar to what has been provided under 
prior standards.

    Question 15. EPA reassures that counties won't be 
designated as nonattainment areas under its proposed stringent 
ozone standards for another 3 years. But won't those new 
standards be immediately effective on PSD permits, making it 
harder for business to build and expand facilities to create 
new jobs?
    Response. New or modified major stationary sources that 
must get a PSD permit must show that the project will not cause 
or contribute to a violation of a revised ozone standard upon 
the effective date of that standard. The EPA has proposed a 
grandfathering provision for PSD permit applications that are 
administratively complete before the new NAAQS is signed, or 
where a draft permit or preliminary determination has been 
published before the effective date of a revised standard. 
Those in-pipeline permit applications meeting the qualification 
criteria in EPA's final rule would not need to be revised in 
order to be approved.

    Question 16. EPA has said that most counties won't need to 
attain its stringent ozone standards until 2025. But counties 
in nonattainment areas will face severe regulatory consequences 
in just 3 years, and the new standards become immediately 
effective for permits to expand business. EPA seems to want us 
to think these proposed standards are a ``next decade'' 
problem, but aren't they a now problem?
    Response. Approximately 2 years after a standard is 
revised, the EPA is required to determine attainment and 
nonattainment areas. For areas designated nonattainment, 
additional preconstruction permitting requirements must be 
implemented and, depending on the severity of the poor air 
quality in the area, the State must begin developing attainment 
plans for the area. The first attainment deadline under the Act 
is 3 years following designation, which would be by the end of 
2020 if areas are designated in the fall of 2017. This 
attainment deadline would apply only to those areas with air 
quality closest to the standard at the time of designation and 
such areas would not be required to develop an attainment plan.

    Question 17. EPA can't even point to controls capable of 
almost half the emissions reductions needed in the east and all 
of the reductions required in California to meet its stringent 
proposed ozone standard. This sounds like shoot first, ask 
questions later rulemaking. Should we be imposing this much 
burden on the American people when EPA doesn't even know how 
this rule can be accomplished?
    Response. The U.S. Supreme Court ruled in Whitman v. 
American Trucking Associations, 531 U.S. 457 (2001), that under 
Section 109 of the Clean Air Act, the EPA may not consider the 
costs of implementation in setting National Ambient Air Quality 
Standards. The Court indicated specifically that EPA was not to 
consider potential job losses due to implementation of a 
standard, even if such job losses ``might produce health 
losses''. 531 U.S. at 466. Moreover, if EPA were to consider 
such costs, it would be ``grounds for vacating the NAAQS, 
because the Administrator had not followed the law''. Id. at n. 
4.
    Under the Clean Air Act, states ultimately determine what 
local measures may be required to address local sources of air 
pollution. For that reason, the EPA presents an illustrative 
estimation of the costs and benefits of complying with proposed 
revisions to a NAAQS. EPA estimates that reducing pollution to 
meet a revised ozone NAAQS in 2025 will yield health benefits 
of $6.4 to $13 billion annually for a standard of 70 ppb, and 
$19 to $38 billion annually for a standard of 65 ppb, except 
for California, which was analyzed separately. Nationwide 
costs, except California, are estimated at $3.9 billion in 2025 
for a standard of 70 ppb, and $15 billion for a standard of 65 
ppb. The estimated benefits of a strengthened ozone standard 
outweigh the estimated costs by as much as a ratio of $3.33 to 
$1.
    For decades, ozone pollution has been reduced by the 
combined efforts of Federal, state, tribal and local 
governments. More than forty years of experience with the Clean 
Air Act has shown that America can build its economy and create 
jobs while cutting pollution to protect the health of our 
citizens and our workforce.

    Question 18. EPA's modeling for its proposed stringent 
ozone standards caps costs for emissions reductions required 
from so-called ``unknown controls'' based on costs of known 
controls. This defies the basic economics of increasing 
marginal costs. Does EPA really believe that the costs of 
reaching the highest low-hanging fruit are the same as those to 
get the fruit at the top of the tree?
    Response. Following advice from the EPA Advisory Council on 
Clean Air Compliance Analysis (COUNCIL), in the 2014 analysis 
EPA relied on a methodology to estimate the cost of unknown 
controls that used an average cost-per-ton for the needed 
emissions reductions. The agency agrees with the COUNCIL that 
the approach is both transparent and strikes a balance between 
the likelihood that some unidentified abatement would be 
achieved at costs that are lower than average and that some 
would be achieved at costs that are higher than average.

    Question 19. We hear a lot about the need to repair 
``crumbling roads and bridges.'' However, stringent ozone 
standards could make it harder for states to show that proposed 
highway project ``conform'' with ozone standards. Has EPA 
considered the economic and safety impacts that could result if 
these stringent ozone standards block crucial transportation 
projects?
    Response. Road maintenance and safety projects are exempted 
from transportation conformity requirements. The transportation 
conformity rule provides exemptions for a number of project 
types that address needed repairs and the need to improve 
highway safety. These include:

     reconstructing bridges as long as the number of travel 
lanes is not increased;
     pavement resurfacing and/or rehabilitation;
     pavement marking;
     projects that correct, improve or eliminate a hazardous 
location or feature;
     projects that increase sight distance;
     installation of guardrails, median barriers and crash 
cushions;
     lighting improvements; and
     projects that improve safety at railroad crossings.

    The EPA places a high priority in assisting areas to 
determine exempt projects and to make required conformity 
determinations for other projects.

    Question 20. According to EPA, ozone-forming emissions have 
been cut in half in the last three decades. This progress will 
continue under current regulations. Wouldn't you agree that 
Americans are already enjoying the benefits of cleaner air, and 
will enjoy even more future benefits, regardless whether the 
existing standards are adjusted?
    Response. The Clean Air Act requires primary NAAQS that are 
``requisite to protect the public health'' with an ``adequate 
margin of safety.'' The EPA is proposing that the current 
primary ozone (O3) standard set at a level of 0.075 ppm does 
not meet this requirement, and that it should be revised to 
provide increased public health protection. Specifically, the 
EPA is proposing to retain the indicator (ozone), averaging 
time (8-hour) and form (annual fourth-highest daily maximum, 
averaged over 3 years) of the existing primary O3 standard and 
is proposing to revise the level of that standard to within the 
range of 0.065 ppm to 0.070 ppm. EPA analyses indicate that 
most of the country will be able to meet a revised standard 
with a level in this range, based on existing Federal control 
requirements.

    Question 21. EPA's modeling indicates that its proposed 
ozone standards may actually increase mortality in cities like 
Houston. Can you please explain how this proposal could end up 
increasing deaths in some areas?
    Response. The proposed revisions to the National Ambient 
Air Quality Standards for ozone discussed the possibility that 
some control strategies designed to reduce the highest ambient 
ozone concentrations can also result in increases in relatively 
low ambient ozone concentrations. That discussion can be found 
at http://www.gpo.gov/fdsys/pkg/FR-2014-12-17/pdf/2014-
28674.pdf. We are currently reviewing comments on this 
interaction, and other issues raised by the proposal.
    The proposal, based on extensive scientific evidence, found 
that reducing high ozone concentrations will reduce risk--
including risk of ozone-related mortality--broadly across the 
country. This includes the risk associated with exposure to 
high ozone concentrations in all of the urban areas evaluated 
in the risk and exposure assessment.

    Question 22. Ozone is mainly outdoors. Yet most people 
spend 90 percent of their time indoors. Do you think this is 
why recent published studies found that indoor air quality and 
poverty were much more strongly linked to asthma than outdoor 
air quality?
    Response. The Clean Air Act directs the EPA to set National 
Ambient Air Quality Standards to limit harmful pollutants in 
the atmosphere. The EPA's proposed revision to the ozone NAAQS 
is based on extensive scientific evidence, including more than 
1,000 new studies since the last review of the standards. This 
evidence shows that ozone can harm public health and welfare. 
The proposed updates will improve public health protection, 
particularly for children, the elderly, and people of all ages 
who have lung diseases such as asthma.

    Question 23. Only 1 of the 12 studies considered by EPA 
show any link between long-term ozone exposure and mortality. 
And this study did not find any link in California, where ozone 
levels are the highest in the country. Shouldn't we be 
concerned that EPA is cherry-picking science to support its 
regulatory agenda?
    Response. Based on a significantly expanded body of 
scientific evidence, including more than 1,000 new studies 
since the last review of the standards, the EPA is proposing 
that the current primary ozone standard set at a level of 0.075 
ppm is not requisite to protect public health with an adequate 
margin of safety, and that it should be revised to provide 
increased public health protection. This proposed conclusion is 
supported by the independent group of science experts who form 
the Clean Air Science Advisory Committee (CASAC). Specifically, 
the EPA is proposing to revise the level of that standard to 
within the range of 0.065 ppm to 0.070 ppm to increase public 
health protection, including for ``at-risk'' populations such 
as children, older adults,
    and people with asthma or other lung diseases, against an 
array of ozone-related adverse health effects. For short-term 
ozone exposures, these effects include decreased lung function, 
increased respiratory symptoms and pulmonary inflammation, 
effects that result in serious indicators of respiratory 
morbidity such as emergency department visits and hospital 
admissions, and nonaccidental mortality. For long-term ozone 
exposures, these health effects include a variety of 
respiratory morbidity effects and respiratory mortality.

    Question 24. I'm concerned that EPA is cherry-picking and 
contorting science to support its ozone proposal. For instance, 
one study found no statistically significant difference in lung 
function in humans exposed to ozone at levels above and below 
the standards in EPA's ozone proposal. Yet EPA ``reanalyzed'' 
that data and decided there was a statistically significant 
impact after all leading that study's author to say that EPA 
``misinterpreted'' his data. Shouldn't EPA just go where the 
science points, rather than trying to shoehorn findings into 
its regulatory agenda?
    Response. In reviewing a significantly expanded body of 
scientific evidence, including more than 1,000 new studies 
since the last review of the standards, the EPA in some 
instances conducted further analysis of the data underlying the 
studies. This review and these analyses are discussed in the 
Integrated Science Assessment, the Health Risk and Exposure 
Assessment and the Policy Assessment. Each of these documents 
are available at http://www.epa.gov/ttn/naaqs/standards/ozone/
s--o3--index.html. Based on the body of scientific evidence, 
the EPA is proposing that the current primary ozone standard 
set at a level of 0.075 ppm is not requisite to protect public 
health with an adequate margin of safety, and that it should be 
revised to provide increased public health protection. This 
proposed conclusion is supported by the independent group of 
science experts who form the Clean Air Science Advisory 
Committee (CASAC).

    Question 25. All of the clinical studies cited by CASAC in 
support of the 60 ppb standard were created by the EPA. Yet, 
all of the non-EPA literature on health impacts of 60 ppb ozone 
cited by CASAC does not support a 60 ppb standard. Is this what 
EPA meant when it said that ``increasing uncertainty in the 
scientific evidence at lower ozone concentrations'' led it to 
not include a 60 ppb standard in the ozone proposal?
    Response. Compared to ozone standard levels from 65 to 70 
ppb, the extent to which standard levels below 65 ppb could 
result in further public health improvements becomes notably 
less certain. For example, as explained in the preamble to the 
proposed rule (79 FR 75309), there are uncertainties associated 
with the adversity of exposures to 60 ppb of ozone, 
particularly single occurrence of such exposures; air quality 
analyses in locations of multicity epidemiologic studies; and 
epidemiology-based risk estimates. The EPA determined that it 
is not appropriate to place significant weight on these factors 
or to use them to support the appropriateness of standard 
levels below 65 ppb.

    Question 26. EPA has released maps showing only the 
projected counties in non-attainment in 2025.
     Under EPA guidance does the agency designate non-
attainment area boundaries starts with metropolitan area as the 
``presumptive'' nonattainment area? Why are your maps 
inconsistent with your guidance?
    Response. The EPA has not yet issued guidance for 
designating areas for a potentially revised ozone standard, but 
intends to do so shortly after any standard is revised. 
Nonattainment area boundaries for a revised ozone standard will 
depend on a number of factors that are currently highly 
uncertain.

    Question 27. How many counties still do not meet the 1997 
ozone standards? How about the 2008 standards? Doesn't it make 
sense to work on attaining the existing standards, the tightest 
standards ever, before promulgating new standards?
    Response. The 1997 ozone standard was revoked on April 6, 
2015. However, before that revocation, as of April 1, 2015, 
there were 7 designated nonattainment areas (consisting of 36 
counties) that had not yet attained the standard based on 
preliminary 2014 ozone monitoring data. For the 2008 ozone 
standard, there are, as of April 1, 2015, 28 designated 
nonattainment areas (consisting of 163 counties) that have not 
yet attained the standard based on preliminary 2014 ozone 
monitoring data.
    The EPA sets the National Ambient Air Quality Standards at 
a level that is requisite to protect the public health and 
welfare, based on the best available science. The U.S. Supreme 
Court ruled in Whitman v. American Trucking Associations, 531 
U.S. 457 (2001), that under Section 109 of the Clean Air Act, 
the EPA may not consider the costs of implementation in setting 
standards.

    Question 28. Why does EPA leave California off of its maps 
and analyses? If California is being give a longer period of 
time to attain the standards, shouldn't other places in the 
country be granted that latitude as well? How much ($/ton) are 
NOx offset reductions selling for in Houston? Los Angeles? 
Other places?
    Response. While EPA analyzed costs and benefits for 
California separately from the rest of the United States, all 
of these analyses are described in full in the Regulatory 
Impact Analysis for the ozone proposal. The maximum amount of 
time a nonattainment area has to attain the standards is 
dictated by specific provisions of the Clean Air Act, and 
depends on the area's classification. Because a number of 
California counties likely would have attainment dates ranging 
from 2032 to late 2037, California is not shown on maps that 
illustrate projected attainment status in 2025.
    The EPA does not centrally track or collect data on the 
selling prices of emissions offsets. Offset transactions are 
typically private transactions between emissions sources and 
the price paid per ton of emissions used for offsets is not 
required to be reported or disclosed to the EPA by permit 
applicants.


                                climate


    Question 1. The budget request includes a $4 Billion 
incentive program for states that reduce CO<INF>2</INF> 
emissions beyond the existing source proposal.

     How do you propose to implement this program?
     Do you plan to send Congress a legislative proposal?
     If the proposal is to give states money if they go beyond 
EPA mandates, will the result be to transfer taxpayer dollars 
away from states with large emission reduction burdens under 
your plan to states that have a smaller burden. For example, 
Vermont has no emissions reduction obligation under your plan 
because its power plants are small. So, would you automatically 
transfer taxpayer money from Southeastern and Southwestern 
states to Vermont?

    Response. The fiscal year President's Budget includes an 
incentive fund for States choosing to go beyond the Clean Power 
Plan, which will be finalized this summer. The Clean Power 
State Incentive Fund will provide $4 billion to support States 
exceeding the minimum requirements established in the final 
Clean Power Plan for the pace and extent of carbon pollution 
reductions from the power sector. This funding will enable 
States to invest in a range of activities that complement and 
advance the Clean Power Plan, including efforts to address 
disproportionate impacts from environmental pollution in low-
income communities and support for businesses to expand efforts 
in energy efficiency, renewable energy, and combined heat and 
power through, for example, grants and investments in much-
needed infrastructure.
    Each State with an emissions reduction goal under the Clean 
Power Plan will have a reserved portion of the Fund, based on a 
combination of population and State power sector emissions. 
States across the country are well-positioned to act quickly 
and resolutely to reduce carbon pollution from the power 
sector--beyond the requirements of the final Clean Power Plan. 
If a State elects not to participate, its funding allocation 
will return to the Treasury. Additional details on the Fund 
will be made available this summer.
    Question 2. With respect to the Clean Power Plan, your 
justification statement says: ``In fiscal year 6, the EPA will 
encounter a staggering workload to implement these rules and 
agency resources have been shifted to help meet the demand. 
Because of the breadth, complexity and precedent-setting nature 
of work, the agency expects a marked increase in demands for 
legal counsel in both headquarters and Regional Offices. In 
addition, each EPA action is expected to be challenged in 
court, which will require skilled and experienced attorneys 
specialized in the Clean Air Act to devote significant 
resources to defense of these actions.''
     In your own budget justification statement you say that 
these rules will result in a ``staggering workload'' to 
implement and defend these two rules. Don't you think those 
taxpayer dollars would be better spent increasing funding to 
states to implement existing programs rather than spending it 
on lawyers?
    Response. Successfully addressing climate change will 
require the EPA and State governments to work together, and the 
President's proposed budget provides additional resources for 
that work, both to the Agency and to the states.
    With additional legal counseling resources, the EPA would 
provide significant benefits to our partners, stakeholders, and 
regulated communities. For example, counseling attorneys work 
closely with their program clients in rule development to 
ensure stakeholder input is appropriately considered. EPA 
counseling lawyers are also a vital resource to States as 
States develop implementation plans under the Clean Air Act.
    The President's proposed budget also provides significant 
resources for States. It includes $25 million in grants for 
States to develop their Clean Power Plan strategies, and sets 
up a Clean Power State Incentive fund of $4 billion.

    Question 3. Recent correspondence between your agency and 
the House Energy and Commerce Committee indicated EPA has not 
``explicitly modeled the temperature impacts of the Clean Power 
Plan'' and could not State what, if any impact the rule would 
have on global temperatures or sea rise levels.
     Why hasn't EPA done the modeling? Is it a matter of 
budgeting?
     Why is your agency attempting to impose this extremely 
complex rule and spend billions of taxpayer dollars to address 
global warming when you haven't even checked to see if the rule 
would actually achieve your global warming goals?
    Response. The EPA included with the proposed Clean Power 
Plan a Regulatory Impact Analysis that estimated the total 
monetized climate-related benefits and costs of the rule, 
following applicable statutes, Executive Orders, and other 
guidance. Although the EPA has not explicitly modeled the 
temperature or sea level rise impacts of this rule, the Clean 
Power Plan is an important and significant contribution to 
emission reductions, thereby slowing the rate of global warming 
and associated impacts.

    Question 4. Your budget would eliminate funding under the 
Indoor Radon Abatement Act which authorizes grants to states to 
address radon (-$8 million) even though indoor radon is the 
second-leading cause of lung cancer and the leading cause of 
lung cancer for non-smokers and the funding was targeted this 
funding to support states with the greatest populations at 
highest risk. According to your Budget in Brief, indoor radon 
causes an estimated 21,000 lung cancer deaths annually in the 
U.S. Carbon dioxide causes no deaths.
     Why would the budget propose spending $279 million to 
rework the U.S. energy economy (climate regulations) while 
ignoring real environmental threats?
    Response. Over the past 23 years, the State Indoor Radon 
Grant program has provided funds to support states's efforts to 
reduce risks from radon exposure to establish their own 
programs. Because exposure to radon gas continues to be an 
important risk to human health, in fiscal year the
    EPA will continue to focus on reducing radon risk in homes 
and schools, including through partnerships with the private 
sector, remaining State programs and public health groups, as 
well as driving action at the national level with other Federal 
agencies, through the Federal Radon Action Plan. The EPA also 
will continue information dissemination, participation in the 
development of codes and standards, and social marketing 
techniques aimed at informing the public on the risks of radon.

    Question 5. Section 110(c) of the Clean Air Act requires 
EPA to issue a Federal implementation Plan (FIP) if a State 
does not submit a State Implementation Plan (SIP), does not 
submit a satisfactory SIP or does not make a satisfactory SIP 
revision (42 U.S.C. 7410(c)). Please provide a list of 
enforcement mechanisms with cites to the relative legal 
authority the EPA will use to enforce all components of a 
Federal plan on a State that does not does not submit a SIP, 
does not submit a satisfactory SIP--in whole or in part--or 
fails to make a satisfactory revision that meets the criteria 
of the proposed Clean Power Plan.
    Response. Under Section 111(d) the EPA is proposing a two-
part process where the EPA sets state-specific goals to lower 
carbon pollution from power plants, and then the states must 
develop plans to meet those goals. States develop plans to meet 
their goals, but EPA is not prescribing a specific set of 
measures for states to put in their plans. This gives states 
flexibility. States will choose what measures, actions, and 
requirements to include in their plans, and demonstrate how 
these will result in the needed reductions. The Clean Air Act 
provides for EPA to write a Federal plan if a State does not 
put an approvable State plan in place. In response to requests 
from states and stakeholders since the proposed Clean Power 
Plan was issued, EPA announced in January 2015 that we will be 
starting the regulatory process to develop a rule that would 
set forth a proposed Federal plan and could provide an example 
for states as they develop their own plans. EPA's strong 
preference remains for states to submit their own plans that 
are tailored to their specific needs and priorities. The agency 
expects to issue the proposed Federal plan for public review 
and comment in summer 2015.

    Question 6. During the hearing, I asked you if the EPA 
would consider withholding Federal highway funding if a State 
that does not submit a SIP, does not submit a satisfactory 
SIP--in whole or in part--or fails to make a satisfactory 
revision that meets the criteria of the proposed Clean Power 
Plan. You responded,
    ``Ms. McCarthy. This is not a traditional State SIP under 
the national ambient air quality standards. There are other 
processes for us to work with States. Clearly our hope is that 
States will provide the necessary plans. If not, there will be 
a Federal system in place to allow us to move forward.''
    Will you clarify for the record whether EPA would consider 
withholding Federal highway funding to enforce any elements of 
the proposed Clean Power Plan?
    Response. When the EPA finalizes the Clean Power Plan we 
will be very clear that sanctions will not be imposed for a 
state's failure to submit or enforce a State plan under the 
Clean Power Plan.


                      waters of the united states


    Question 1. Please provide me with examples where EPA or 
the Corps has used a groundwater connection to establish 
jurisdiction over a body of water that has no surface 
connection, direct or indirect, to a navigable water. For any 
such examples, please also provide the distance between the 
body of water that lacks such a surface connection and the 
nearest water of the United States. Please exclude any 
allegations that a groundwater connection establishes the 
existence of a point source discharge where the body of water 
with no surface connection was itself determined to be a point 
source, rather than a water of the United States.
    Response. The agencies existing regulations and guidance 
allow for establishing that a wetland is adjacent to 
jurisdictional tributary based on the presence of a confined 
surface or shallow subsurface connection. This connection would 
then serve as the basis for determining whether a significant 
nexus with a downstream traditional navigable water is present. 
This is explicitly recognized in the agencies' 2008 (post-
Rapanos) guidance documents. Federal courts have upheld 
jurisdiction consistent with this regulation and guidance, 
relying on a groundwater connection as the basis for a 
significant nexus finding. See Northern California River Watch 
v. city of Healdsburg. The agencies make clear in the final 
Clean Water Rule that groundwater is never jurisdictional under 
the Clean Water Act.

    Question 2. Is it currently the national policy of either 
EPA or the Corps of Engineers to establish jurisdiction over 
all wetlands in flood plain?
    Response. No. Existing law and policy requires the agencies 
to determine, on a case-specific basis, whether or not a 
particular wetland located in the floodplain is jurisdictional. 
Location in the floodplain does not itself make a wetland 
jurisdictional.

    Question 3. Is it currently the national policy of either 
EPA or the Corps of Engineers to establish jurisdiction over 
all waters in flood plain?
    Response. No. Existing law and policy requires the agencies 
to determine, on a case-specific basis, whether or not a 
particular water located in the floodplain is jurisdictional. 
Location in the floodplain does not itself make a water 
jurisdictional.


                          hydraulic fracturing


    Question 1. The EPA continues its study into the 
relationship between drinking water and hydraulic fracturing, 
which was initiated in 2010. Well over $20 million has been 
spent on this study and the timeline continues to slip. In 
fact, the draft assessment report was expected in December 2014 
yet today, there is no indication when this will be released.
     What is the current timeline for release of the EPA's 
drinking water study?
     Will the report undergo interagency review prior to its 
release? If so, which agencies will be a part of the review? If 
not, why not?
     After the draft assessment report is released, what is 
the timeline moving forward?

    Response. To date, the EPA's hydraulic fracturing drinking 
water study has produced 25 scientific products, including 12 
EPA technical reports. Additionally, on June 4, 2015, the EPA 
released the draft hydraulic fracturing drinking water 
assessment report. The assessment is a state-of-the-science 
integration and synthesis of over 950 publications and sources 
of data. The draft assessment was released for public comment, 
and submitted to the EPA Science Advisory Board for external, 
independent peer review.
    The EPA shared findings from the draft hydraulic fracturing 
drinking water assessment report with other Federal agencies 
and departments prior to the release of the assessment on June 
4.
    The draft assessment report was released for public comment 
and peer review on June 4, 2015. The EPA Science Advisory Board 
will conduct the external peer review of the draft assessment. 
Their preliminary schedule for review includes several 
teleconferences and an October 28-30, 2015 meeting of the SAB 
ad hoc review panel. The SAB anticipates release of the final 
peer review report in spring 2016. After receipt of the SAB's 
peer review report, EPA will finalize the hydraulic fracturing 
drinking water assessment report. The final report will reflect 
SAB input and the input of submitted public comments. The EPA 
anticipates completing the final assessment report in 2016.

    Question 2. You've said that hydraulic fracturing can be 
done safely and have agreed with former EPA Administrator Lisa 
Jackson that there have been no confirmed cases of hydraulic 
fracturing impacting drinking water. The White House Council on 
Economic Advisors released a report last week that touted the 
economic benefits because of the increase in domestic oil and 
natural gas and clearly linked the production increases to the 
use of hydraulic fracturing and horizontal drilling. What is 
your vision for getting the American public to understand that 
hydraulic fracturing is safe and that fracking has unlocked an 
American energy revolution that has lowered all Americans's 
energy prices, created jobs, helping lower GHG emissions and 
revitalizing such industries as the manufacturing, steel and 
chemical sectors?
    Response. The EPA's vision is to make sure that the 
American public has the best scientific information available 
to understand the potential impacts of hydraulic fracturing 
activities on drinking water resources. Once EPA responds to 
public and SAB peer review comments and finalizes the 
assessment, EPA expects that it will be a critical resource for 
State regulators, tribes, local communities, and industry who 
can use the information to better identify how best to protect 
public health and drinking water resources.
    The hydraulic fracturing drinking water assessment report 
identified potential vulnerabilities to drinking water 
resources due to hydraulic fracturing activities. The draft 
assessment concluded that there are both above and below ground 
mechanisms by which hydraulic fracturing activities have the 
potential to impact drinking water resources. These mechanisms 
include water withdrawals in time of or in areas with low water 
availability, spills of hydraulic fracturing fluids and 
produced water; fracturing directly into underground drinking 
water resources; below ground migration of liquids and gases; 
and inadequate treatment and discharge of waste water.
    We found specific instances where one or more mechanisms 
led to impacts on drinking water resources, including 
contamination of drinking water wells. The number of cases, 
however, was small compared to the number of hydraulically 
fractured wells.
    This finding could reflect a rarity of effects on drinking 
water resources, but may also be due to other limiting factors. 
These factors include: insufficient pre-and post-fracturing 
data on the quality of drinking water resources; the paucity of 
long-term systematic studies; the presence of other sources of 
contamination precluding a definitive link between hydraulic 
fracturing and an impact; and the inaccessibility of some 
information on hydraulic fracturing activities and potential 
impacts.

    Question 3. In the draft fiscal year budget proposal, it 
states that EPA will respond to peer review comments from the 
Agency's Science Advisory Board (SAB) in order to finalize the 
study. It further suggests that the report will provide a 
synthesis of the State of the science, including the results of 
research focused on whether hydraulic fracturing affects 
drinking water resources, and if so, will identify the driving 
factors.
     Clearly you already have a plan for additional research. 
Can you share those plans?
     More importantly, will the Agency actually consider the 
recommendations of its own Science Advisory Board in this 
process, particularly if those recommendations do not align 
with EPA's own research initiatives, which you just addressed?

    Response. The President's fiscal year budget request 
includes $4.0M to address the peer review and public comments 
received on the Hydraulic Fracturing Drinking Water Assessment 
report, including performing additional analyses in response to 
these comments.
    The Department of Energy, Department of Interior, United 
States Geological Service, and EPA developed the Federal 
Multiagency Collaboration on Unconventional Oil and Gas (UOG) 
to coordinate on-going and future high priority research 
associated with safely and prudently developing onshore shale 
gas, tight gas, shale oil, and tight oil resources. The three 
agencies shared the ``Federal Multiagency Collaboration on 
Unconventional Oil and Gas Research--A Strategy for Research 
and Development'' (Strategy) in July 2014 (http://
unconventional.energy.gov/pdf/Multiagency--UOG--Research--
Strategy.pdf). Separate from the hydraulic fracturing drinking 
water assessment, resources are requested to further research 
outlined in the Strategy to better understand and mitigate the 
potential impacts of UOG practices.
    Throughout the development of hydraulic fracturing drinking 
water assessment, the EPA has actively engaged input from the 
agency's Science Advisory Board (SAB). A previous SAB panel 
provided comment on the hydraulic fracturing study plan 
published in 2011. A separate SAB panel provided comment on the 
hydraulic fracturing drinking water study progress report 
published in 2012. The same SAB ad hoc panel will review the 
draft assessment report. The external peer review by the SAB is 
expected to provide detailed comments and suggestions 
concerning the draft assessment. EPA will consider and evaluate 
all comments received from the SAB. SAB comments, along with 
comments received from the public, will help inform and guide 
the EPA as it develops the final draft of the assessment.

    Question 4. Director McCarthy, the President's new economic 
report says that 1) ``natural gas is already playing a central 
role in the transition to a clean energy future,'' 2) that an 
effective regulatory structure for addressing environmental 
concerns already ``exists primarily at the State and local 
level,'' and 3) that unconventional natural gas production 
technology unleashed in the U.S. ``can help the rest of the 
world reduce its dependence on high-carbon fuels.'' Given this 
positive view from the White House, which is supported by a 
broad scientific consensus, how do you intend to ensure that 
your agency's proposed regulations on methane will not short-
circuit the U.S. energy revolution that is driving so much job 
creation?
     Can we assume that the upcoming EPA study on hydraulic 
fracturing will not conflict with this latest White House 
report that recognizes the clear advantages of unconventional 
energy development?

    Response. Responsible development of America's shale gas 
resources offers important economic, energy security, and 
environmental benefits. Recognizing this, in April 2012, 
President Obama signed E.O. 13605, Supporting Safe and 
Responsible Development of Unconventional Domestic Natural Gas 
Resources, which, among other things, charges Federal agencies 
to pursue multidisciplinary, coordinated research. The EPA is 
working with other Federal agencies, states and other 
stakeholders to understand and address potential concerns with 
hydraulic fracturing so the public has confidence that natural 
gas production will proceed in a safe and responsible manner.
    The EPA's study of the potential impacts of hydraulic 
fracturing for oil and gas on drinking water resources in the 
United States reflects the multiple, complex activities 
associated with the use of water in hydraulic fracturing, 
beginning with water acquisition and ending with the wastewater 
treatment and disposal. When completed, the products from the 
EPA's hydraulic fracturing study are intended to provide 
information needed to inform decisionmakers involved with 
ensuring that hydraulic fracturing activities do not impact the 
nation's drinking water resources.

    Question 5. In February 2014 the EPA's IG sent a memo to 
the EPA Office of Water outlining an initiative the IG has 
underway that will ``determine and evaluate what regulatory 
authority is available to the EPA and states, identify 
potential threats to water resources from hydraulic fracturing, 
and evaluate the EPA's and states' responses to them.'' Do you 
consider this a duplication of the EPA's efforts as it relates 
to the multi-year and multi-million dollar hydraulic fracturing 
and water study currently in process at the EPA and if not, 
then how do these studies differ? Hasn't EPA independently done 
this type of evaluation (see the letter from EPA to NRDC)?
    Response. The OIG does not consider its evaluation in this 
case as duplicative of the study by the EPA's Office of 
Research and Development (ORD). ORD's Final Study Plan is 
scoped to the hydraulic fracturing water lifecycle, defined by 
ORD to include water acquisition, chemical mixing, injection, 
flowback and produced waters, and wastewater treatment. The OIG 
will not undertake a review of these matters. The OIG is not 
conducting independent scientific evaluations, laboratory 
studies or toxicological studies as planned in ORD's study.


                              srf program


    Question 1. It is my understanding that since the program's 
inception in 1988, the Clean Water State Revolving Loan Funds 
have provided a total of $105 billion in assistance, leveraging 
Federal capitalization grants totaling approximately $36.2 
billion. Further, since the program's inception in 1997, 
Drinking Water State Revolving Loan Funds have provided 
approximately $33 billion in assistance, leveraging Federal 
capitalization grants totaling approximately $19 billion. This 
means that for every Federal dollar invested in the Clean Water 
SFR community wastewater systems have received nearly $3 
dollars in assistance and for every dollar in the Drinking 
Water SRF community water systems have received approximately 
$1.75 dollars in assistance.

     Do you agree that the SRF program has been among the most 
successful programs we have in government?
     It that is so, why does the President's budget 
perennially underfund these programs?

    Response. Yes, and the Administration strongly supports the 
successful Clean Water and Drinking Water State Revolving Loan 
Fund programs. The President's fiscal year budget request 
recognizes that both SRF programs report long-running 
significant water infrastructure needs. In fiscal year 6, the 
Administration is requesting a total of $2.3 billion for the 
SRF programs--$1.186 billion for the DWSRF and $1.116 billion 
CWSRF. In addition, the fiscal year request includes $50 
million in technical assistance, training, and other efforts to 
enhance the capacity of communities and states to plan and 
finance drinking water and wastewater infrastructure 
improvements. The fiscal year budget also requests funds to lay 
the groundwork for a Water Infrastructure Finance and 
Innovation Act of 2014 (WIFIA) program that would provide 
additional assistance. EPA has also launched the Water 
Infrastructure and Resilience Finance Center to help 
communities address their wastewater, drinking water, and 
stormwater needs within constrained budgets, particularly 
through innovative financing and by building resilience to 
climate change.

    Question 2. Under the Clean Water Act, EPA is supposed to 
send a report to Congress on the funding needs for both 
wastewater and drinking water infrastructure. The last report 
to
    Congress on wastewater needs was based on the 2008 Clean 
Water Needs Survey. The estimate of need in that survey--$298 
billion over 20 years--is woefully out of date. That estimate 
is based on cities' own capital improvement plans. It does not 
reflect new mandates like the hugely costly sewer overflow 
control measures that EPA is imposing on cities in enforcement 
actions or costly new requirements for nutrient reductions and 
stormwater controls.
    By failing to provide an updated estimate of needs, EPA is 
doing a disservice to Congress, to cities, and to itself. We 
all need reliable information to make good decisions and EPA is 
required by law to update the needs survey every 4 years.
     When will EPA provide Congress with the updated the Clean 
Water Needs Survey?

    Response. The 2012 Clean Water Needs Survey Report to 
Congress is currently undergoing review. When the review is 
complete and the Report is cleared, it will be immediately 
provided to Congress.

    Question 3. We all know that the needs for both water and 
wastewater are huge. According to the U.S. Conference of 
Mayors, cities are spending $115 billion a year to provide 
water and wastewater services and meet Federal mandates. So, 
the proposal to provide a combined $2.3 billion for the Clean 
Water and Drinking Water State Revolving Funds is a drop in the 
bucket. Since the Federal Government does not provide funding 
to meet those mandates, I think it is important to take a hard 
look at how we are asking cities to spend their citizen's 
money.
     We all support clean and safe water. But, I am told that 
EPA enforcement officials extract penalties on top of 
commitments of hundreds of millions of dollars to address sewer 
overflows. Is that right?
     I also am told that EPA enforcement officials will 
require complete elimination over sewer overflows if they think 
a city can pay for it, when a less expensive approach could 
meet water quality standards. Is that right? Is EPA requiring 
cities to do more than meet the standards that states have set 
and EPA has approved that will protect water quality?

    Response. Sewer overflows, which contain raw sewage, may 
present significant environmental and human health risks to 
communities. Raw sewage contains bacteria, viruses, parasites, 
industrial wastewater, and inhalable mold and fungi which can 
be particularly problematic for children and the elderly.
    The ability to assess a penalty when appropriate is 
important both to ensure future compliance and meet the 
standard under which courts review such consent decrees. Under 
the EPA's current approach, the agency tailors the terms of a 
settlement agreement, including any civil penalty, to the 
individual facts and circumstances of each case. Moreover, in 
determining appropriate civil penalties, the EPA uses the 
significant flexibility provided under the EPA's Clean Water 
Act Penalty Policy (including consideration of a city's 
specific financial circumstances) to substantially mitigate 
civil penalties in municipal cases. The agency remains 
committed to ensuring that we take into account the individual 
circumstances of each community, so that we can meet the 
objective we share with every community to achieve clean water 
and encourage future compliance with the Clean Water Act in a 
way that makes sense for that community.
    For combined sewer systems, the level of control is 
governed by the Combined Sewer Overflow Control Policy, with 
which each ``permit, order, or decree'' for municipal combined 
sewer system discharges ``shall conform'' as required by 
Congress in section 402(q) of the Clean Water Act.\1\ The Clean 
Water Act requires permit holders to meet both water quality 
and technology standards and either can govern the requirements 
for compliance.
---------------------------------------------------------------------------
    \1\Link to CSO Control Policy: http://water.epa.gov/polwaste/npdes/
cso/upload/owm0111.pdf
---------------------------------------------------------------------------
    Separate sanitary sewer systems must be designed to contain 
and treat raw sewage generated by a community. An enforceable 
requirement of National Pollutant Discharge Elimination System 
(NPDES) permits is that cities properly operate and maintain 
their sewer collection and treatment systems.

    Question 4. Given the enormous cost of meeting water and 
wastewater mandates, affordability is a significant issue. It 
is my understanding that at EPA Headquarters, you talk about 
giving cities more time to meet mandates; you talk about 
adaptive management; and you talk about using green 
infrastructure alternatives. However, when they bring 
enforcement actions against cities, EPA regions and 
Headquarters enforcement officials are not providing these 
flexibilities.

     How are you addressing the real affordability concerns of 
cities?
     Do you think your enforcement officials should try to 
extract every last dollar from a city that you claim they can 
afford even if spending more money will not provide additional 
water quality benefits?
     If a city steps up and agrees to spend hundreds of 
millions or in some cases billions of dollars, do you think it 
is also appropriate to impose penalties on that city when the 
penalty will simply go to the U.S. Treasury and will reduce the 
amount of funding available to help improve the environment?

    Response. The EPA is sensitive to the significant 
investment cities must make to ensure clean and safe water. The 
EPA's guidance ``Combined Sewer Overflows Guidance for 
Financial Capability Assessment and Schedule Development'' (FCA 
Guidance), adopted in March 1997, provides a flexible framework 
for considering the site-specific factors that impact a given 
community's rate base.\1\ The guidance encourages communities 
to consider and present any other documentation of their unique 
financial circumstances so that it may be considered as part of 
the analysis. These flexibilities were further clarified in 
November 2014, in the EPA's ``Financial Capability Assessment 
Framework for Municipal Clean Water Act Requirements,'' which 
was developed with significant input from a variety of 
stakeholders including the United States Conference of Mayors, 
the National League of Cities, and the National Association of 
Counties.\2\ As detailed in the EPA's January 13, 2013, 
``Assessing Financial Capability for Municipal Clean Water Act 
Requirements'' Memorandum, nothing in the Federal Clean Water 
Act prohibits communities from introducing a sewer rate 
structure based on differential household incomes.\3\
---------------------------------------------------------------------------
    \1\CSO Guidance for FCA and Schedule Development: http://
water.epa.gov/polwaste/npdes/cso/upload/csofc.pdf
    \2\FCA Framework Memo: http://water.epa.gov/polwaste/npdes/cso/
upload/municipal--fca--framework.pdf
    \3\Link to Assessing Financial Capability for Municipal Clean Water 
Act Requirements Memo: http://water.epa.gov/polwaste/npdes/stormwater/
upload/sw--regionalmemo.pdf
---------------------------------------------------------------------------
    Section 204(b)(1) of the Clean Water Act recognizes the use 
of lower rates for low-income residential users as satisfying 
the stipulation that recipients of services must pay their 
proportionate share. The EPA's regulations at 40 C.F.R. Section 
35.2140(i) reflect this and authorize low-income residential 
user rates. Local officials have a great deal of latitude under 
these regulations and the EPA continues to encourage 
communities to consider and adopt rate structures that ensure 
that lower-income households continue to be able to afford 
vital wastewater services.
    The EPA utilizes its Clean Water Act Penalty Policy to 
provide flexibility to substantially mitigate civil penalties 
in municipal cases, including taking into account a city's 
specific financial circumstances.\4\ The agency remains 
committed to ensuring that we consider the individual 
circumstances of each community so that we can meet our shared 
objective of achieving clean water and encouraging future 
compliance with the Clean Water Act in a way that makes sense 
for individual communities.
---------------------------------------------------------------------------
    \4\CWA Penalty Policy: http://www2.epa.gov/sites/production/files/
documents/cwapol.pdf
---------------------------------------------------------------------------
    Question 5. I am very concerned that the way EPA looks at 
affordability when they decide what mandates to impose on 
communities means that our poorest citizens will end up paying 
10 percent or more of their income on sewer bills.
    Last Congress, in Title V of the Water Resources Reform and 
Development Act, we amended the Clean Water Act to give 
direction on how to identify what communities would experience 
a significant hardship raising the revenue to finance projects 
to meet Clean Water Act mandates. One of the criteria that we 
listed in the statute is whether the area is considered 
economically distressed under the Public Works and Economic 
Development Act. Under this Act, a community or area within a 
larger political boundary is economically distressed when --
     the per capita income at 80 percent or less than national 
average,
     unemployment is 1 percent or more greater than national 
average, or
     there is an actual or threatened severe unemployment or 
economic adjustment.

    This information is provided by the community and must be 
accepted unless the Secretary of Commerce determines it is 
inaccurate.
     Will EPA also incorporate this approach into your 
evaluation of affordability when taking enforcement action?

    Response. The EPA is committed to implementing the Clean 
Water Act requirements in a sustainable manner, and will 
continue to work with permit holders toward our shared goals of 
clean water. The EPA's enforcement program encourages permit 
holders to submit any documentation that would create a more 
accurate and complete picture of their financial capability, 
which could include the type of information listed below. The 
EPA's ``Financial Capability Assessment Framework for Municipal 
Clean Water Act Requirements'' provides examples of information 
that may prove relevant in negotiating schedules.\1\
---------------------------------------------------------------------------
    \1\ FCA Framework Memo: http://water.epa.gov/polwaste/npdes/cso/
upload/municipal--fca--framework.pdf
---------------------------------------------------------------------------


                     technical assistance to states


    Question 1. In EPA's fiscal year Budget Request, the Agency 
did not request any funds for the EPA technical assistance 
competitive grant program. As you know, this program provides 
small and rural communities with the training and technical 
assistance necessary to improve water quality and provide safe 
drinking water. Many communities count on this program to 
assist them in complying with Federal regulations when 
operating drinking and wastewater treatment facilities. These 
communities believe that is the most effective program to aid 
in compliance with the requirements of both the Clean Water Act 
and the Safe Drinking Water Act. In the past Congress has 
agreed and from fiscal year--fiscal year appropriated $12.7 
million for the program. Given its success and importance to so 
many communities across the country, why is EPA is not 
requesting any funds to support this grant program in fiscal 
year 6?
    Response. Answer: Assisting small and rural communities in 
compliance with water regulations is very much a priority for 
this Administration. The EPA's fiscal year budget requests 
$1.186 billion for the Drinking Water State Revolving Fund 
(DWSRF) program, which can be used to provide special 
assistance to systems serving 10,000 or fewer customers. For 
example, States are required to provide a minimum of 15 percent 
of the funds available for loan assistance to small systems to 
help address infrastructure needs. The DWSRF also allows states 
a 2 percent small system technical assistance set-aside to 
provide assistance to small and rural water systems. The 2 
percent DWSRF set-aside is used by nearly every State to 
support their small systems and several states use these funds 
for non-profit State affiliates.
    In fiscal year 6, the EPA is also requesting additional 
resources as part of the agency's infrastructure investment 
which will enable states to augment their roles and 
participation in building small drinking water system 
capabilities and partnerships. For example, an additional $9 
million is requested to expand upon existing technical, 
managerial, and financial capability programs, and develop 
additional tools and partnerships to promote sound asset 
management, as well as strengthen State resources to engage in 
these activities. In addition, a $9 million increase is 
requested to provide technical assistance for small systems to 
plan and facilitate partnership, regionalization, or 
consolidation agreements. The EPA also is requesting an 
increase of $7.7 million in the Public Water System Supervision 
funding in order to enhance State and tribal efforts to provide 
increased operator training and technical assistance to small 
communities so they can acquire the knowledge and expertise 
needed to properly operate drinking water systems and therefore 
protect public health.

    Question 2. You have requested $46 million and 13 new FTES 
for an unauthorized program to improve climate resilience for 
water and wastewater facilities. In contrast, you have 
requested only $5 million for fiscal year out of the EPM 
account to set up the implementing the newly authorized Water 
Infrastructure Finance and Innovation Authority (WIFIA), but no 
money out of the STAG account to actually implement it. How can 
you explain the disparities in these requests? What does this 
say about your priorities?
    Response. The $46 million and additional FTEs identified in 
the President's fiscal year budget, along with requests for the 
State Revolving Fund programs and preparation for WIFIA, 
reflect a priority to invest in our nation's infrastructure. 
Activities within the $46 million include:

     Water Infrastructure and Resilience Finance Center--
Assist communities across the country improve their wastewater, 
drinking water, and stormwater systems, particularly through 
innovative financing and by building resilience to extreme 
weather events.
     Capacity Building--Expand upon existing technical, 
managerial, and financial capability programs, and develop 
additional tools and partnerships to promote sound asset 
management.
     Integrated Planning--Expand community assistance in 
developing integrated plans, and to provide support for a 
limited number of implementation projects.
     Small System Partnerships--Provide technical assistance 
for small systems to plan and facilitate partnerships, 
regionalization, or consolidation agreements. Disseminate best 
practices or model partnership efforts by states and towns.
     Full Cost Pricing--Provide technical assistance to 
communities on the adoption of pricing structures that cover a 
system's full capital and operations and maintenance costs.

    Also, the Administration's request for continued WIFIA 
startup efforts in fiscal year will lay the groundwork for a 
WIFIA program that would provide additional infrastructure 
assistance.


                     new definition of flood plain


    Question  On January 30, 2015, the President signed a new 
Executive Order (EO 13690) that changed the existing flood 
plain management policy that has been in effect since 1977. 
With these changes, the policy applies to all agencies and all 
Federal actions and flood plain is now defined as either the 
500 year flood plain or a larger area based on climate 
modeling.

     Will this new definition affect the projects that states 
can fund using the State Revolving Loan Funds?
     Will this new definition affect the type, size, or 
location of infrastructure that EPA requires cities to build to 
treat wastewater or to address sewer overflows under 
enforcement agreements?
     Will this new definition affect the conditions attached 
to municipal stormwater permits?
     What was EPA's involvement in developing this Executive 
Order?
     What outreach efforts were made before signing this 
Executive Order to State and local governments?

    Response. Executive Order 13690 (EO 13690), which amended 
Executive Order 11988 on Floodplain Management, gives agencies 
flexibility to select one of three approaches for establishing 
the flood elevation and hazard area they use in siting, design, 
and construction. First, agencies may use the elevation and 
flood hazard area that result from freeboard of 2 or 3 feet, 
depending on criticality. Second, agencies may also use the 
elevation and flood hazard area that result from a climate-
informed science approach. Finally, agencies may use the area 
subject to flooding by the 0.2 percent annual chance flood. EO 
13690 does not define the flood plain as ``either the 500 year 
flood plain or a larger area based on climate modeling.''
    Following the development and issuance of the Final Revised 
Guidelines for EO 13690, which the public comment period 
recently closed (May 6), the EPA will begin the process for 
implementing EO 13690. Until that process is complete, it would 
be premature to respond to questions regarding effects on 
programs or projects.
    The EPA participated in the interagency group that assisted 
in the development of the Executive Order and Draft Revised 
Guidelines. As one of the agencies in the interagency group, 
the EPA participated in engagement efforts with states, local 
governments, and other stakeholders regarding flood risk policy 
issues.


                               stormwater


    Question  EPA has announced that it has abandoned its plans 
to develop a national storm water rulemaking that would have 
tried to expand your authority to regulate not only pollutants, 
but also the actual flow of water. That is not surprising given 
the fact that courts have made it clear that the Clean Water 
Act does not give EPA any authority to regulate water flows. 
However, it is my understanding that your agency is continuing 
to advance this agenda by regulating water flows in individual 
permits.

     Will you commit to me that your agency will use Clean 
Water Act permits to regulate the discharge of pollutants only 
and not the flow of water?

    Response. The EPA and the States responsible for 
administering the National Pollutant Discharge Elimination 
System (NPDES) permits will continue to review and reissue 
Municipal Separate Storm Sewer System (MS4) permits under the 
authorities governing stormwater discharges in Section 402(p) 
of the Clean Water Act (CWA).


                          attorneys/workforce


    Question 1. Administrator McCarthy, the President's budget 
request seeks an additional $10 million that would go to hire 
almost 40 additional attorneys to work at EPA. More than $3.5 
million would go to hire 20 new attorneys who would be devoted 
to supporting the Clean Power Plan alone.
    At a House committee hearing last week, you stated that 
these attorneys would not be ``litigation attorneys'' and 
instead would be used to help with reviewing permits and 
assisting states to set up their programs.
    However, your own budget justification says these 
additional attorneys and needed because, ``In addition, each 
EPA action is expected to be challenged in court, which will 
require skilled and experienced attorneys specialized in the 
Clean Air Act to devote significant resources to defense of 
these action.''

     Which is it? Do you stand behind your recent statement to 
Congress, meaning the budget justification is incorrect? Or do 
you agree that you need to hire additional attorneys in part to 
defend these unlawful rules in court?

    Response. The fiscal year President's budget requests 19.5 
additional employees for legal counseling on a wide variety of 
EPA issues and 20 employees specifically for Clean Power Plan 
implementation. All of these additional employees would be 
provided to the EPA's Office of General Counsel for use in both 
EPA headquarters and the regional offices. Lawyers in the 
Office of General Counsel work closely with EPA program offices 
on rule development and implementation. They also review 
permits, counsel on State implementation plans and help address 
stakeholder concerns and questions. As such, with these 
employees, the EPA would provide significant benefits to our 
partners, stakeholders, and regulated communities.
    Assisting the Department of Justice in defending the 
agency's actions is an important role for lawyers in the EPA's 
Office of General Counsel. Our lawyers have deep expertise in 
specific areas of law, and advise on all agency activities 
within that area of expertise. Most of the EPA's significant 
rules are challenged in court; often the regulated industry and 
environmental plaintiffs both challenge the same rule. It is in 
the interest of all stakeholders if the agency can get the rule 
right the first time, providing a robust explanation and 
record. This means a better final rule and less uncertainty.
    The additional Clean Power Plan focused legal employees 
will work on the full range of important legal counseling 
services provided by the Office of General Counsel, including 
rule development, assisting the Department of Justice in 
defense, reviewing permits, and counseling on State 
implementation plans.

    Question 2. The Budget justification goes on to say that 
additional legal resources will make EPA more responsive to 
states, industry, and citizens, and will make EPA's actions 
more defensible in court. Yet the budget request also says 
there are no performance measures for the agency's attorneys 
like there are for other programs.

     Why is that?
     Does this lack of staffing or accountability explain why, 
when it issued performance standards for new sources in 
September 2013, EPA seemed unaware of the Energy Power Act 
provision that prohibits the use of carbon capture projects 
receiving certain
     Federal funding from being used to show the technology 
had been adequately demonstrated?
     Shouldn't EPA attorneys and staff in the Air office have 
known about that provision before the rule was proposed?
     How are you going to ensure that these additional legal 
resources will be used effectively?
     Would these be term-limited positions, or permanent 
hires?
     Do the agency's attorneys--or any employees for that 
matter--keep track of their time, like attorneys in the private 
sector do or workers at a coal mine or factory would?
     Given the issues EPA has had with time and attendance 
problems, what is EPA doing to ensure that EPA staff are in 
fact doing the jobs they are being paid to do?

    Response. The Office of General Counsel supports each of 
the agency's programs in achieving their goals and priorities. 
As such, OGC supports the accomplishment of the performance 
measures for every agency program. The additional legal 
counseling FTE in the President's proposal would result in the 
agency's ability to hire additional permanent attorneys in 
fiscal year 2016. These new attorneys would allow the agency to 
better serve our co-regulators and other stakeholders.
    While OGC itself does not have quantitative measures, it 
has a very structured and systematic approach to its work. Each 
law office has a weekly or bi-weekly meeting to report to the 
General Counsel, and each office carefully tracks the cases and 
associated deadlines in its area of law. Each law office is 
similarly in close contact with the relevant media office, 
getting real-time feedback on both that office's needs and OGC 
lawyers' performance.
    The EPA's September 2013 Proposed Carbon Pollution Standard 
for New Power Plant\1\] does not raise any accountability 
concerns. Any final standards the EPA issues will be based on 
sound science and will undergo thorough legal review to ensure 
they comply with all applicable laws and regulations. The EPA 
does not believe that the Energy Policy Act of 2005 precludes 
consideration of the projects the EPA has evaluated. The EPA 
has issued a Notice of Data Availability (NODA) that notes the 
availability of a Technical Support Document (TSD) in the 
rulemaking docket that details its proposed position on this 
issue. It explains, ``EPA interprets these provisions to 
preclude EPA from relying solely on the experience of 
facilities that received EPAct05 assistance, but not to 
preclude EPA from relying on the experience of such facilities 
in conjunction with other information.'' The EPA based its 
proposed determination on a number of projects and other 
information including projects that did not receive any 
assistance under EPAct05. In addition, the agency extended the 
public comment period for January 2014 proposal by 60 days to 
allow adequate time for the public to review and comment on the 
contents of the NODA and TSD.
---------------------------------------------------------------------------
    \1\ For more information: http://www2.epa.gov/carbon-pollution-
standards/2013-proposed-carbon-pollution-standard-new-power-plants
---------------------------------------------------------------------------
    OGC uses a tracking system primarily to assist with 
workload management, to help ensure that all deadlines are met. 
In addition to this close tracking of substantive work, 
judicial deadlines, and client satisfaction, the time and 
attendance of OGC employees are subject to all agency 
accountability measures for time and attendance. Updated 
agencywide internal controls were implemented on September 21, 
2014 to ensure compliance with time and attendance policies and 
regulations. The EPA made system adjustments to ensure accurate 
time and attendance recording, including elimination of default 
pay and mass approvals. The EPA established requirements for 
supervisors to monitor time and attendance reports, and 
clarified the time and attendance approvals of senior 
executives through an executive approval framework.

    Question 3. Please describe the process and resources the 
Agency (both Headquarters and Regional Offices) currently uses 
to track litigation to which it is a party, as well as 
deadlines for regulatory or other EPA action that have been 
established in litigation settlements or court orders.

     What efforts are planned in fiscal year to improve this 
process and the public transparency of this tracking?
     What public notice and opportunity for comment and public 
participation does the Agency give to the public when a 
deadline established in a settlement or court order is revised 
or extended?

    Response. The process the agency uses to track litigation 
starts with assigning the litigation to an attorney. The 
attorney assigned along with counsel from the Department of 
Justice, is responsible for tracking the litigation, and any 
associated deadlines or court-ordered schedules. As major 
deadlines or events approach, these are brought to the 
attention of the General Counsel through weekly or bi-weekly 
meetings. Where the agency agrees in settlement to a deadline 
for agency action, that deadline becomes a commitment of the 
relevant program office.
    For both litigation and regulatory actions, there are a 
number of ways that agency provides information to the public. 
Below are examples of how information regarding litigation and 
regulatory actions are made available:

     Each Notice of Intent (NOI) to sue the EPA under an 
environmental statute is posted here: http://epa.gov/ogc/
noi.html. (In response to stakeholder requests, the EPA has 
also begun posting complaints next to the related NOI.)
     When the EPA receives a petition for rulemaking, those 
are posted here: http://www2.epa.gov/aboutepa/petitions-
rulemaking.
     The EPA publishes in the Federal Register any proposed 
settlement agreement under the Clean Air Act before finalizing. 
There is a 30-day open comment period on each of these proposed 
settlements. You can see an example here: https://
Federalregister.gov/a/01-21342.
     Regulatory agendas are available in a few different ways, 
as explained on the agency's website. Available here: http://
www2.epa.gov/laws-regulations/regulatory-agendas-and-
regulatory-plans.
     The searchable regulatory plan is available at: http://
www.reginfo.gov/public/do/eAgendaSimpleSearch. (These entries 
include deadlines such as those agreed to through settlement; 
for an example search RIN 2060-AM08).

    Question 5. For its fiscal year budget proposal, EPA 
requested to remove the 50 person ceiling for hiring under 
Title 42. A March 5, 2015, EPA Inspector General Report found 
that EPA's Office of Research and Development did not always 
demonstrate the need to use Title 42 to recruit or retain 19 
positions reviewed. In four cases reviewed, the IG found that 
employees were converted to Title 42 to perform the same 
position, yet paid a total $47,264 more in salary for 
performing the same job. The EPA OIG recommended that EPA 
improve transparency and its justification for the use of Title 
42 appointments or reappointments, which could result in 
potential monetary benefits of $3.5 million. EPA did not agree 
with the OIG's recommendation. The OIG responded that EPA's 
alternate approach does not address the need to justify the 
need to use Title 42 authority or the need for more 
transparency in the decisions to use the Title 42 authority.

     Why did EPA request to remove the 50 person ceiling under 
Title 42 for fiscal year and not for fiscal year 6?
     Why did EPA disagree with the OIG's recommendations?
     How will the EPA address the need for greater 
transparency and justification for Title 42 hiring?

    Response. As a result of congressional action in fiscal 
year 5, the Administration chose to not request any additional 
changes to its Title 42 authority in the fiscal year 
President's Budget at this time. It should be noted that as 
recently as 2014, the National Academy of Sciences strongly 
supported EPA's use of the Title 42 authority. EPA's Office of 
Research and Development (ORD) and the Office of Inspector 
General (OIG) reached an agreement on the corrective actions to 
be taken and EPA has completed these actions. The OIG has 
officially closed this audit. The OIG report found that ORD has 
a rigorous, in-depth process for hiring high-quality scientists 
and science leaders under its Title 42 authority. The Report 
found no instances of impropriety or mismanagement by EPA of 
its Title 42 authority and acknowledged ORD had detailed 
implementation guidance in place. The OIG also noted that EPA 
has undergone other favorable evaluations, such as a 2012 
Government Accountability Office audit of EPA's Title 42 
authority.
    Further, the OIG report highlighted ORD's statements that 
Title 42 ``allows the agency to maintain workforce flexibility 
and critical expertise in the face of emerging and rapidly 
changing scientific and technological approaches. The science 
leaders that ORD has recruited and retained using Title 42 are 
world-renowned experts in their field and are leading cutting-
edge research programs in ORD to address the environmental 
issues of the 21st Century.'' ORD agreed to address the one OIG 
procedural recommendation contained in the report, which 
focused solely on perceptions of transparency.
    To address the one OIG report recommendation, ORD revised 
its Title 42 Operations Manual to increase the transparency of 
ORD's justification to use Title 42 authority. The ORD Title 42 
Operations Manual has been updated to reflect ORD's periodic 
reporting and use of Title 42 recruitment request memorandum. 
The OIG has now closed this audit.


                           homeland security


    Question 1. Administrator McCarthy, President Obama 
recently said that terrorism is less of a threat to the 
American people than climate change. Do you agree?
    Response. Climate change and acts of terrorism are both 
issues of serious concern to the EPA. The EPA's homeland 
security budget helps the EPA to address important requirements 
that are intended to prepare the EPA to respond to and promote 
recovery from significant emergencies, including acts of 
terrorism and natural disasters.

    Question 2. Does the President's thinking explain why EPA's 
budget request has cut homeland security related funding in 
several important areas?
    For example, the budget would cut more than $1 million from 
the Science and Technology account for work to treat 
contamination from chemical and radiological incidents (Page 
131). The budget would also cut more than $2.5 million from the 
Superfund account reducing EPA's ability to detect threats and 
test and decontaminate sites.
     Why is EPA cutting back its capability to detect and 
respond to biological or radiological attacks?
    Response. The EPA is maintaining its capability to detect 
and respond to biological or radiological attacks. Over the 
past years, the EPA has built, developed, and now maintains 
agency Homeland Security assets that provide critical technical 
expertise and support during nationally significant incidents 
including those which can involve chemical, biological, 
radiological, and nuclear (CBRN) agents. EPA also continues to 
provide support in addressing the science and technology needs 
for response to and recovery from biological and radiological 
incidents.
    The reductions to the Solid Waste & Emergency Response 
program will not impact the agency's ability to respond to 
incidents. The reductions may affect field equipment 
maintenance and upgrades, such as planned upgrades to the 
Portable High-Throughput Integrated Laboratory Identification 
System (PHILIS) units. Additionally, there may be reduced 
agency participation in large-scale exercises that support 
internal and external coordination on Federal roles and 
responsibilities. The EPA will continue its coordination and 
integration efforts and its increased leverage of resources 
with our Federal partners to enable the EPA to meet its 
baseline requirements on Homeland Security Presidential 
Directives and Homeland Security mandates by following an all-
hazards approach with emphasis on the most pressing capability 
gaps.
    The fiscal year EPA's President's Budget request of $21.1 
million for the Homeland Security Research Program (HSRP) will 
allow the agency to continue to conduct research that supports 
the agency in characterization of biological and radiological 
contamination and decontamination of indoor and outdoor areas 
as well as the management of the resulting waste during 
response to these incidents.
    In addition, the President's fiscal year Budget requests 
increased funding for some of the needed operability upgrades 
to our radiation air monitoring system, RadNet.

    Question 3. The budget for emergency preparedness is 
essentially stagnant (only a slight $200,000 increase due to 
higher fixed cost for rent and staff salaries).
     What does this mean in practice--fewer air monitoring 
flights, slower response times, increased risks to human health 
and the environment from a terrorist event?

    Response. The EPA will continue its role in protecting 
human health and the environment from risks posed by a 
potential terrorist event, and the fiscal year President's 
budget proposal would not impact the agency's ability to 
respond to a terrorist event. The proposed budget for the 
Superfund Emergency Preparedness program adjusts resources for 
the National Response Team (NRT). The EPA will continue to 
maintain its significant role in the NRT, but will reduce 
contractor support for NRT committees and subcommittees.

    Question 4. Recent scandals suggest that EPA has a 
``culture of complacency'' among some supervisors and managers 
when it comes to time and attendance problems, computer usage, 
and property management.
     Given these concerns--and ongoing work by the Office of 
Inspector General--I am troubled to see the low priority that 
EPA places on screening job applicants and making sure its 
employees have been vetted and are suitable for their positions 
of trust.
     For example, the homeland security budget for conducting 
background checks for employees and contractors would be cut by 
$340,000--even though the John Beale episode has highlighted 
the need for improved background checks. Do you think this is 
the time for EPA to be cutting back on its process for doing 
background checks?

    Response. The EPA continues to perform background 
investigations in accordance with the Office of Personnel and 
Management (OPM) guidelines. There are no planned resource cuts 
to background investigations for fiscal year 6. The reduction 
cited in the question reflects savings associated with other 
work in the Homeland Security: Protection of EPA Personnel and 
Infrastructure program. More specifically, the reduction 
reflects savings associated with transitioning the EPA 
Personnel Access and Security System (EPASS) from development 
into a State of operation and maintenance. EPASS manages the 
enrollment, printing, issuance, and lifecycle of Personal 
Identity Verification (PIV) credentials as required by Homeland 
Security Presidential Directive 12 (HSPD-12).

    Question 5. The IG has also raised concerns about the 
Office of Homeland Security and its interference with the IG's 
law enforcement work.
     How will this be resolved so it does not become a 
distraction to the Agency and impede EPA's homeland security 
mission?

    Response. Over the past few months, the Office of Homeland 
Security (OHS) has worked collaboratively with the Office of 
Inspector General (OIG) to ensure that EPA's homeland security 
mission is strengthened through timely information sharing and 
threat management. OHS also has established a process for 
providing the OIG with access to any external law enforcement 
entity that requests assistance from OHS for EPA related 
counterintelligence or counter terrorism investigative 
activities. This process ensures that there continues to be no 
impediment to the OIG's ability to pursue any law enforcement 
actions or activities that fall within their jurisdiction.


                              gao reports


    Question 1. The Government Accountability Office issued a 
report last year on problems with how EPA analyzes its 
regulations for economic impact, less burdensome alternatives, 
and uncertainties. GAO found that EPA's regulatory impact 
analysis (RIAs) do not clearly identify the costs of EPA's 
rules and the data EPA used in its analyses were often out of 
date and irrelevant.
    For example, GAO found that for several high-profile clean 
air and water rules, EPA relied on employment data that was 
between 20 and 30 years old and from only four industrial 
sectors. The GAO report states, ``Without additional 
information and improvements in its approach for estimating 
employment effects, EPA's RIAs may be limited in their 
usefulness for helping decisionmakers and the public understand 
the potential effects of the agency's regulations on 
employment.''
    That's a big problem--that EPA is making these incredibly 
significant regulatory decisions--and the American public, 
Congress, and even EPA itself do not know what the economic 
impacts or potential job losses will be.

     Is EPA continuing to rely on the outdated and limited 
employment data when analyzing the potential job impacts of its 
rules? If not, what is EPA relying on?
     How much of EPA's budget request will be going toward 
improving and updating the employment data that EPA uses in its 
economic analysis documents?

    Response. The EPA no longer uses the data and study 
critically reviewed by GAO. Given the dearth of studies and 
models, the EPA does not use the same approach for employment 
analysis for every rule. As with other analyses in our RIAs, 
each employment analysis is tailored to the specifics of that 
regulation and reflects the degree to which reliable tools and 
data are available to quantify impacts. When conducting such 
analysis the EPA uses the best tools and data available for the 
relevant rulemaking. Often times, EPA conducts original 
``bottom up'' studies that examine the employment used in 
specific industries and in the manufacturing and operation of 
pollution abatement equipment. In some cases, the EPA focuses 
on a qualitative discussion of the employment impacts both 
positive and negative and in other cases, it quantifies 
selected employment impacts. As the GAO acknowledges, the 
agency strives in all instances to transparently describe the 
strengths and weaknesses of the approach chosen by the agency. 
The EPA believes that these analyses, whether qualitative or 
quantitative, provide decisionmakers and the public with 
valuable information on the employment impacts of its rules and 
has worked hard to refine these analyses over time.
    GAO's discussion of employment impact analysis focuses on 
one particular study that the EPA used to quantify employment 
effects in two of the seven rules reviewed by the GAO. It is 
important to recognize that this published study represented 
the best available peer-reviewed research at the time these 
RIA's were conducted and that GAO reported that the EPA's 
treatment transparently recognized the limitations of the study 
where it was applied. The EPA recognizes that there are limited 
tools provided in the peer-reviewed economics literature to 
quantify the small shifts in employment that might be 
attributable to environmental regulation and is continually 
working to improve our approaches.
    It is difficult to assess how much of the budget request 
the EPA will be using to improve and update the employment data 
in our economic analysis documents. Partly this is because 
economists throughout the agency conduct employment analyses 
and use the best data available for their particular rules. In 
addition, analysis of employment impacts is one part of a 
broader analytic effort conducted for agency rules, so it is 
hard to isolate the costs of one aspect of the regulatory 
analyses.
    The EPA is exploring alternative approaches in the relevant 
theoretical and empirical economics literature to apply new 
modeling approaches to quantify employment impacts. In October 
2012, the agency convened a scientific workshop with academic 
economists to examine the theory and methods for understanding 
employment effects of environmental regulation. The EPA is in 
the process of updating its Guidelines for Preparing Economic 
Analyses to include revised guidance on assessing employment 
impacts from regulation. Finally, the EPA has announced the 
formation of a new Science Advisory Board panel to advise the 
agency on how best to model the economic impacts of 
environmental regulation, including approaches to capture 
employment effects. This panel plans to convene this summer. 
Commenters also are invited to provide information and data 
relevant to employment analysis during the notice and comment 
periods on rulemakings.

    Question 2. The GAO report also found that EPA had cut 
corners in its economic analysis due to the short timeframes it 
had for issuing rules pursuant to court-ordered deadlines and 
litigation settlements.

     What criteria does EPA use when agreeing to a rulemaking 
deadline in a litigation settlement?
     How does EPA's obligation to conduct a robust analysis of 
a rule's economic impact factor into these court-ordered 
deadlines, or does it get short shrift in the discussions?
     Is part of the problem that laws like the Clean Air Act 
have unreasonable deadlines?
     Would you support attempts to give EPA additional time 
under the law to issue rules or update standards every 5 or 8 
years as currently may be the case?

    Response. Generally, EPA and the Department of Justice 
(DOJ) seek to settle cases brought against EPA if we believe 
the litigation risk is high and there is a resolution 
consistent with EPA authorities and in the public interest. The 
factors considered in determining whether to settle a 
particular matter include: the legal risks presented by the 
case, including both the probability and possible consequences 
of an adverse decision; and the comparative public policy 
implications of litigation versus settlement, including the 
resources required to litigate versus to take those actions 
called for by a settlement. These factors are applied in an 
evenhanded manner, without regard to the identity or type of 
the plaintiff or petitioner in the case.
    The environmental statutes as enacted by Congress provide a 
myriad of regulatory actions that the EPA must take by certain 
deadlines. These requirements are commonly referred to as 
``mandatory duties'' and the cases brought against the EPA 
alleging the Agency has failed to fulfill such duties are 
commonly referred to as ``mandatory duty suits.'' Where the 
``mandatory duty'' allegations are strongly grounded in 
statutory text, the EPA's litigating position is generally 
weaker, which impacts how the agency evaluates its settlement 
options.
    While the decision to seek settlement is generally made 
jointly, DOJ typically takes the lead for the United States 
government in the development of a settlement strategy and in 
negotiating the settlement terms, and for EPA settlements, 
DOJ's Environment and Natural Resources Division must approve 
the decision to enter into a settlement agreement or consent 
decree.
    In taking any action, the EPA is guided by applicable legal 
standards and requirements, as well as the relevant science and 
analysis. In mandatory duty lawsuits, seeking settlement allows 
the agency to negotiate for more time than it would expect to 
receive through litigation. Litigating these cases can be 
expensive litigation and result in a court-ordered schedule 
requiring agency action on an unfeasible timeline. By 
negotiating for an achievable deadline, the agency is able to 
invest more time in the analysis and decisionmaking process.
    The majority of environmental lawsuits against the EPA are 
brought under the Clean Air Act. The Clean Air Act does have 
many mandatory duties with associated deadlines, which are the 
source of many of the cases we settle. However, before settling 
these cases, the proposed settlement agreement containing any 
deadlines goes out for public comment. Under Clean Air Act 
section 113(g), before finalizing a settlement agreement under 
the Clean Air Act or asking a court to enter a Clean Air Act 
consent decree, the EPA publishes in the Federal Register a 
notice seeking public comment on the proposed agreement and 
then considers any comments received.
    The EPA has many duties and authorities under the various 
environmental statutes it administers. The agency works to 
protect human health and the environment by focusing on 
critical priorities while also endeavoring to meet recurring 
statutory obligations.


                               facilities


    Question  Administrator McCarthy, EPA's budget 
justification says EPA is continuing to recalculate its 
facility and rent needs. It says that EPA plans to spend $1 
million from the Science and Technology account to study 
further consolidation (Page 140) and that EPA intends to save 
$9.5 million from the EPM account from these efforts (Page 
427).

     What plans if any does EPA have to close or relocate 
program, regional or lab offices or spaces across the country 
in fiscal year 6? When will affected offices be informed of 
their closure? Will the affected employees be given the 
opportunity to relocate or transfer to another duty station?
     How much has EPA spent in fiscal year and 2015 to 
relocate employees? How much does it expect to spend on 
relocation expenses in fiscal year 6?

    Response. In EPA's fiscal year budget request, the agency 
requested $10 million to consolidate the Willamette Research 
Station and the Region 8 laboratory. Employees at the 
Willamette Research Station and the Region 8 laboratory have 
been informed of the agency's fiscal year request to 
consolidate their space. Neither consolidation requires 
employee relocation. The work being conducted at the Willamette 
Research Station will be moved to the Western Ecology 
Division's main facility in Corvallis. Employees from the 
Region 8 laboratory in Golden, CO will be moved to EPA's 
National Enforcement Investigations Center laboratory in nearby 
Lakewood, CO. In fiscal year and fiscal year consolidation 
activities were limited to office moves within local commuting 
areas and employee relocation was not required. In fiscal year 
4, EPA spent $5.4 million to move the offices of approximately 
500 employees from 1310 L Street to the agency's Federal 
Triangle Campus in Washington, DC. In fiscal year 5, the agency 
spent $196.4 thousand in employee relocation expenses 
associated with facility consolidation. The agency does not 
anticipate using additional resources for the remainder of 
fiscal year to move employees into new facilities.


                       superfund/hazardous waste


    Question 1. The fiscal year budget shifts EPA's emphasis 
from well-established programs approved by Congress to ones 
that advance the President's Climate Action Plan.

     For example, the budget would cut almost $1 million and 5 
FTEs from its RCRA corrective action program, which will reduce 
``EPA's technical support to State partners and may reduce the 
pace of cleanups including site-wide 'RCRA remedy construction' 
determinations.'' How will this reduction impact EPA's 
implementation of recommendations in the Government 
Accountability Office's 2011 report concerning RCRA corrective 
actions?
     How will EPA prioritize its work and support to states in 
response to the proposed reductions in funding?
     Will any sites or states that would have received support 
in order for EPA to meet its corrective action goals in the 
fiscal year 4-2018 Strategic Plan, no longer receive support 
due to the proposed reductions in funding?
     In another example, the fiscal year budget request would 
cut funding for the RCRA waste management program by $1.3 
million and more than 9 FTEs, which according to EPA's budget 
justification ``may delay activities such as conducting 
additional analysis to support non-hazardous secondary 
materials categorical rulemakings and responding to regulatory 
backlog petitions.'' Please identify how many ``regulatory 
backlog petitions'' EPA had at the start of fiscal year and the 
backlog time for each petition.
     How will this proposed reduction impact EPA's 
implementation of the final Hazardous and Solid Waste 
Management System; Disposal of Coal Combustion Residuals from 
Electric Utilities rule, signed by EPA on December 19, 2014?

    Question 2. Notably, the fiscal year budget proposed a $2.3 
million increase, including an additional 4.2 FTEs, for the 
Sustainable Materials Management program to implement key 
aspects of the President's Climate Action Plan.

     The budget justification states EPA will explore the 
application of Sustainable Materials Management ``approach to 
other high priority areas.'' What are these areas?
     The budget justification also states that EPA plans to 
hire 5 FTEs to serve as ``Community Resource Coordinators for 
climate adaptation, sustainability, and communities work'' who 
will ``work as a cross-agency, multi-media team to facilitate 
access to EPA's programs and resources.'' Please explain 
whether these would be permanent or term-limited positions, the 
professional qualifications for these positions, and from what 
Headquarters or regional office such positions would be based.
     The budget request proposes the creation of a $1.3 
million grant program ``to support the EPA's investment in 
climate mitigation through waste program activities to reduce 
greenhouse gas emissions.'' Please describe the statutory 
authority for this program, the anticipated number of grants 
that would be funded in fiscal year 6, and a summary of the 
criteria EPA would use for grant awards.

    Question 3. Concerns remain about the slow pace of 
Superfund cleanups. In fiscal year 4, EPA achieved construction 
completions at only 8 Superfund sites, an all-time low, with an 
enacted budget for Superfund cleanups at $555 million. In 
fiscal year 6, EPA is proposing to achieve construction 
completions at 13 sites with a budget request of $539 million. 
How many additional Superfund sites would EPA be able to clean 
up if the $214 million that the President has requested for 
greenhouse gas rules were put toward the Superfund program 
instead?
    Responses. As GAO recommended, the EPA is assessing the 
remaining corrective action workload, evaluating the resource 
needs to meet these goals, and considering revising the goals. 
This reduction in corrective action resources will not delay 
the continued assessment of remaining workload and predictions 
for future progress. The reduction may, in the short-term, have 
an impact on EPA's ability to meet our site-wide remedy 
construction fiscal year and fiscal year targets.

     The EPA will continue to work closely with states to 
prioritize technical assistance and work sharing for facilities 
or work areas where there is the greatest need, and will 
continue to share program efficiencies to facilitate cleanup at 
corrective action facilities and polychorinated biphenyls (PCB) 
sites.
     The fiscal year President's Budget requested funding 
equal to the fiscal year enacted level for the Hazardous Waste 
Financial Assistance program which provides resources to our 
State partners to fulfill their RCRA obligations which includes 
corrective action activities. The proposed reductions to the 
RCRA Corrective Action program will not eliminate support to 
any specific State or facility, but will be distributed 
nationwide. The funding level allows for continued, although 
not fully maximized, progress on cleanups.
     Since 1998, the EPA has received 15 RCRA formal 
rulemaking petitions and EPA has responded completely to three 
of these (Coal Combustion Residuals, Saccharin, and 
Gasification). At the start of fiscal year 5, the EPA has 12 
``regulatory backlog petitions.'' Of these 12 petitions, three 
are actively being addressed (two for Non-Hazardous Secondary 
Materials and one for Corrosivity); the others are under 
review. In addition, EPA receives approximately 30--40 
``informal'' requests for regulatory interpretations or 
assistance with specific emerging waste management situations 
over the course of a given year. These requests come from the 
regulated community, from states, citizens, and from foreign 
governments. Often these are complex, requiring the agency to 
obtain additional information about specific situations or 
industrial processes before being able to respond.
     The proposed reduction will not impact implementation of 
the final Coal Combustion Residuals Rule.
    Within and outside of the Federal Government, the EPA has 
been working to reduce food loss and food waste through 
Sustainable Materials Management (SMM) approaches such as 
smarter purchasing and food donation. In addition, the 
residential and commercial building sector stands as an area 
where SMM principles can make a substantial impact with smart 
design choices, safer materials choices, and reuse and 
recycling of materials. Over the next several decades, billions 
of tons of concrete, steel, and wallboard will be required to 
construct, maintain, and operate our nation's buildings, roads 
and other infrastructure, resulting in substantial 
environmental impacts, including energy and petroleum 
consumption, use of non-renewable mineral resources, greenhouse 
gas emissions, expenditure of fresh water, and land and habitat 
use.
     The Community Resource Coordinator positions are intended 
to be permanent employees in the Regions. Each Region will 
receive 0.5 full-time equivalent employee dedicated to working 
as cross-agency, multi-media team members. The precise 
professional qualifications for the positions have not been 
finalized at this time. However, coordinators will be expected 
to have knowledge of and a firm grasp on sustainability 
concepts such as SMM, green infrastructure, smart growth, and 
brownfields. Further qualifications will include demonstrated 
experience regarding community support entities and mechanisms 
(i.e., the EPA's programs and other programs across the Federal 
spectrum that impact environmental outcomes).
     The statutory authority for the proposed $1.3 million 
grant program is the Solid Waste Disposal Act Sec. 8001--
Research, Demonstrations, Training, and Other Activities. The 
EPA estimates that approximately 8-13 grants would be funded in 
fiscal year 6. These funds will focus on: increasing the 
recycling rates for containers and packaging; enhancing and 
expanding results-driven programs; working with the public and/
or private sector to provide funding to assist states and local 
governments and non-governmental organizations (NGO's) focused 
on infrastructure development and providing technical 
assistance to recycling programs. Support in this program area 
will help to create new businesses and jobs in a sector that 
employs 1.1 million people at approximately 56,000 
establishments, generating an annual payroll of nearly $37 
billion, and more than $236 billion in annual revenues. 
Criteria for the grant awards would potentially include support 
of agency recycling goals, community/stakeholder needs, 
feasibility of project success, project benefits (e.g., 
policies, tools, job creation, economic and social benefits, 
among others), and the ability to leverage existing initiatives 
and partners. The EPA also will work with additional 
stakeholders to ensure consistent recycling guidance, identify 
gaps and recycling barriers, and transfer best practices. The 
reporting period for grants is anticipated to extend beyond 1 
year, in order to measure changing recycling rates.

    The Superfund Remedial program has made substantial 
progress in completing response work, as measured by the site-
wide ``construction completion'' measure, though this is only 
one of a suite of measures used to gauge Superfund outcomes. As 
of the end of fiscal year 4, EPA had achieved construction 
completions at over 68 percent of the 1,706 Superfund sites on 
the National Priority List (NPL).
    As part of the fiscal year budget request, the President 
has requested an increase in the Superfund Remedial program 
budget of more than $38 million and an increase in the 
Superfund Removal budget of more than $9 million. The EPA 
anticipates the increase in Remedial funding will enable the 
agency to start remedial action at up to 10 additional EPA 
funded site projects. It is difficult to assess how many 
Superfund sites could be completed with as much as $214 million 
in additional funding. Partly, this is because each site is 
different with unique site characteristics, so that site-by-
site, cleanup costs would be expected to be very different. 
Some sites cost in the tens to hundreds of millions of dollars 
to complete. In addition, to move a site to completion, site 
investigation and studies, and remedy selection and design must 
be completed before starting and completing cleanup 
construction.


                                keystone


    Question 1. Administrator McCarthy, in January of this year 
you stated that EPA believes current low oil prices are a 
short-term situation and will not affect how your Agency crafts 
new regulations.

     Do you still stand by that statement?
     Can you please explain to me why 3 weeks later EPA told 
the State Department that it should revisit its analysis of the 
Keystone XL pipeline with a new assumption that the current low 
oil prices are permanent?
     As a general rule, you ignore short-term oil prices when 
evaluating costs and benefits. But, politics appear to 
determine when you make an exception to that rule. How can you 
reconcile this inconsistency?

    Question 12. The statement regarding current oil prices was 
a comment on consumer automobile buying habits, and was not 
intended to represent the agency's regulatory development 
process. Administrator McCarthy also noted that she did not 
expect that oil prices would continue to have ``extreme 
fluctuation[s].''
    The EPA's comment letter to the Department of State did not 
suggest an assumption that current low oil prices would be 
permanent. Instead, the EPA noted that given the importance of 
oil prices to the Department of State's market analysis and 
conclusions, and the recent large declines in oil prices and 
the uncertainty of oil price projections, we recommend that the 
additional low price scenario included in the Final EIS be 
given additional weight in considering potential environmental 
impacts of the project.
    The EPA considers all relevant information when evaluating 
costs and benefits of its proposed regulations. With regard to 
our comments to the Department of State concerning the Keystone 
XL pipeline, the Department of State's Final Supplemental EIS 
identified the price of oil as a key and critical determinant 
of the effect of the pipeline on Canadian oil sand development 
and thus the environmental impacts of the project. The EPA's 
comments only recommended that they more fully consider the low 
oil price scenario when evaluating the environmental impacts of 
the project.


                                methane


    Question 1. Administrator McCarthy, the Administration has 
acknowledged the great benefits that we are now enjoying as a 
result of the natural-gas renaissance in the US. In fact, the 
US is now the world's largest gas producer. As this was 
occurring, our nation's producers have been making great 
strides in reducing methane emissions thanks to investments in 
technology allowing us to produce more natural gas in a cleaner 
way. In fact, today, while natural gas production has increased 
37 percent since 1990, methane from production has gone down by 
25 percent. I am concerned as such by your January announcement 
regarding methane regulation.

     Why are you targeting such a steep 45 percent reduction 
in emissions from an industry that has already reduced its 
emissions significantly while increasing production? Moreover, 
the production sector represents only 0.4--1.4 percent of U.S. 
GHG emissions.

    Question 2. In the Administration's January 14th release to 
reduce methane emissions from this industry, an assumption was 
given projecting that industry's methane emissions will be 
increasing by 25 percent--not decreasing as already shown.

    Question 1. Can you explain this assumption and provide the 
specific data from which you've based these projections?

    Question 3. Administrator McCarthy, I'm trying to 
understand EPA's rationale for pursuing another round of Clean 
Air Act regulations on natural gas production. This time the 
agency is directly targeting methane. I think it's important to 
note the industry's progress in reducing methane. Natural gas 
producers have reduced methane emissions by 25 percent since 
1990, even as production has grown 37 percent.
    A recent report by researchers at the University of Texas 
and the Environmental Defense Fund (EDF) found that methane 
emissions from the upstream portion of the supply chain are 
only 0.38 percent of production. That's about 10 percent lower 
than what the same research team found in a study released in 
September 2013. Studies by the National Renewable Energy 
Laboratory, U.N. IPCC, Massachusetts Institute of Technology, 
and many others reached similar conclusion: that methane 
emissions from natural gas production are declining, and quite 
low compared to other sources.
    Moreover, we can't forget that methane is the main 
component of natural gas. Producers have every incentive to 
capture it and prevent leaks. The evidence I just cited shows 
this is exactly what they are doing.
    The industry is only now implementing new source 
performance and MACT standards finalized in 2012, which target 
VOCs and sulfur dioxide, but also will help reduce methane. So 
Administrator, my question is: Why is EPA pursuing another 
round of mandates on the industry? What is the rationale for 
moving down this path?

    Question 4. Administrator, EPA indicated it will develop 
new source performance standards for new and modified natural 
gas wells this summer. This action will be taken pursuant to 
Section 111(b) of the Clean Air Act, which covers new and 
modified sources. Some legal commentators believe that this 
action will provide the basis for regulations of existing wells 
under Section 111(d). What is EPA's legal view on this point? 
Once you finalize regulations under 111(b), are regulations for 
existing wells inevitable under 111(d)? Is EPA planning or 
thinking about regulation existing wells under 111(d)?
    Response. Methane, the key constituent of natural gas, is a 
potent greenhouse gas with a global warming potential more than 
25 times greater than that of carbon dioxide. Nearly 30 percent 
of methane emissions in the U.S. in 2012 came from oil 
production and the production, processing, transmission and 
distribution of natural gas. While methane emissions from the 
oil and gas industry have declined by more than 10 percent 
since 1990, they are projected to increase significantly over 
the next decade if additional steps are not taken to reduce 
emissions from this rapidly growing industry. EPA's strategy, 
which will use both voluntary and regulatory approaches, will 
help avoid this anticipated increase in methane emissions from 
new sources.
    The January 14, 2015 announcement marked the beginning of 
the agency's process to develop proposed standards for methane 
and VOC emissions for new and modified sources in the oil and 
gas sector. As is the case with all of our regulatory actions, 
EPA will develop a robust regulatory impact analysis that will 
include, among other issues, a rigorous analysis of projected 
future emissions from this sector that would be avoided by the 
implementation of the proposed standards. To ensure the 
agency's projections are based on the very best data available, 
EPA's analysis will take into account additional information 
from industry, states, and other stakeholders and will follow 
the time-tested methodologies used in all of our regulatory 
impact analyses. The agency's analysis will be issued along 
with a proposal this summer and will be available for public 
review and comment.
    Methane emissions accounted for nearly 10 percent of U.S. 
greenhouse gas emissions in 2012, of which nearly 30 percent 
came from the production transmission and distribution of oil 
and natural gas. Emissions from the oil and gas sector are down 
16 percent since 1990 and current data show significant 
reductions from certain parts of the sector, notably well 
completions. Nevertheless, emissions from the oil and gas 
sector are projected to rise more than 25 percent by 2025 
without additional steps to lower them. For these reasons, a 
strategy for cutting methane emissions from the oil and gas 
sector is an important component of efforts to address climate 
change.
    The steps announced are also a sound economic and public 
health strategy because reducing methane emissions means 
capturing valuable fuel that is otherwise wasted and reducing 
other harmful pollutants--a win for public health and the 
economy. Achieving the Administration's goal would save up to 
180 billion cubic feet of natural gas in 2025, enough to heat 
more than 2 million homes for a year and continue to support 
businesses that manufacture and sell cost-effective 
technologies to identify, quantify, and reduce methane 
emissions.
    On January 14, 2015, the EPA announced plans to set 
standards under 111(b) to address methane and VOC emissions 
from new and modified sources, develop new guidelines to assist 
states in reducing ozone-forming pollutants from existing oil 
and gas systems in areas that do not meet the ozone health 
standard and in states in the Ozone Transport Region, and work 
collaboratively with key stakeholders to make progress on 
voluntary efforts to reduce emissions from existing sources.


                        environmental education


    Question  For its fiscal year budget proposal, EPA 
requested zero funds for its environmental education program; 
yet its fiscal year budget proposal requests funds albeit an 
increase in funds from $8.7 million enacted in fiscal year to 
$10.969 million.

     Why did EPA, after requesting zero funds for the program 
over the last couple years, request funds and an increase in 
funding for the program?
     EPA has recently identified climate change as a priority 
for environmental education grants under this program. These 
grants are used to educate elementary and secondary school 
students, train teachers, purchase textbooks, and develop 
curricula based on environmental issues EPA identifies as a 
priority. What performance measures are in place to ensure such 
curricula is based on the best available science?
    Response. The recent establishment of the Office of Public 
Engagement and Environmental Education (OPEEE) with a career 
deputy to lead OEE is designed to provide leadership, 
management stability, and forward-thinking strategy to 
establish and implement a consistent vision for environmental 
education (EE) across the agency. Ensuring a centralized 
approach to EE and partnering the public engagement and EE 
functions within OA is intended to help EPA:

     place greater emphasis on EE as a tool for advancing 
priorities by providing leadership, technical expertise and 
coordination of agency efforts;
     enable EE to be more effectively and consistently used by 
the EPA's programs; and
     broaden the reach and scope of EE (through greater public 
engagement).

    Reinstating the EE program project in fiscal year is a 
visible commitment to enhancing the agency's leadership role in 
educating and informing the public and encouraging 
environmentally beneficial attitudes and actions. A centralized 
EE program will allow the EPA to:

     improve internal EE capacity within program offices 
through greater provision of OEE expertise;
     support the National Environmental Education Foundation 
(NEEF) and other stakeholders to leverage their resources for 
greater stakeholder reach; and
     avoid significant administrative complexities associated 
with awarding grants under multiple authorities (under a 
decentralized approach) and ensure grants monitoring and 
compliance

    This program has requested in fiscal year an increase to 
help meet the required staffing levels and corresponding 
funding requirements under the National Environmental Education 
Act. The request also reflects increased support for 
administration of EE grants; advancement of the frameworks and 
tools used for measuring EE impacts; development of a process 
to identify and address gaps and redundancies in EE materials 
and programming within the agency; leveraging of EE efforts 
across the Federal Government; and development of the longer-
term strategic direction for the program.
    In order to be eligible for a grant under the EPA's 
Environmental Education (EE) Grant program, proposals must 
address at least one of the EPA's environmental themes and at 
least one EPA educational priority. The EE Grant Program does 
not assign order of importance or preference to those themes. 
According to the National Environmental Education Act (NEEA), 
grant funds can be used to support development and 
dissemination of curricula, educational materials, and training 
programs for teachers, plus the education of elementary and 
secondary students and other interested groups, including 
senior Americans in both formal and non-formal educational 
settings.
    The annual grants are awarded through a competitive 
process, and applicable Federal guidelines and policies are 
followed for grant solicitations, proposal evaluation, and 
grant awards. The solicitations for EE grants includes a 
requirement that grantees collect and report applicable data as 
a condition to accepting a grant. Grantees are also required to 
submit a logic model with their initial proposal to identify 
short-, medium-and long-term educational and environmental 
outputs and outcomes of the project(s). As a further condition 
of eligibility, grantees must describe how they will evaluate 
the success in achieving the proposed project results and must 
submit a completed evaluation on the project's performance at 
the end of the project. In the application as well as in their 
progress reports, they must demonstrate the educational 
component of their program, including the best available 
science upon which it is based. By law, post-award baseline 
monitoring must be conducted on every EE grant, and at least 
every 6 months all grantees are required to report on the 
progress, accomplishments, and funding associated with the 
project.


             uranium and thorium mill tailings--rulemaking


    Question 1. In January, the U.S. Environmental Protection 
Agency proposed ``Health and Environmental Standards for 
Uranium and Thorium Mill Tailings (80 Fed. Reg. 4156). The 
agency maintains the rulemaking is necessary to reduce the risk 
of undetected excursions of pollutants from in situ uranium 
recovery operations into adjacent aquifers.

     Does the agency have any evidence that these operations 
have adversely impacted an adjacent aquifer? If so, please 
provide such data.
     Please explain why no such data is included in the 
rulemaking docket.
     If EPA has no such data, please explain the basis for 
proceeding with this rulemaking.

    Response. The EPA, as well as the general public, have 
access to NRC data on ISR facilities. More information 
concerning in-situ recovery (ISR) wellfield baseline and 
restoration groundwater quality data collected from the NRC 
licensed ISR sites for regulatory purposes can be found at 
http://www.nrc.gov/info-finder/materials/uranium/. Generally 
the data is current through 2013 and shows both excursions and 
in at least one case, stability monitoring for as long as 10 
years.
    The current requirements at 40 CFR Part 192 address 
conventional uranium facilities but do not specifically address 
ISR operations. ISR operations are now the most common method 
for extracting uranium. In order to understand some of the 
reasons the EPA proposed the rule, it is helpful to understand 
the history related to ISR licensing and regulation. In 2006, 
after years of implementing the general requirements in 40 CFR 
Part 192 at ISR facilities, NRC said that the ``manner of 
regulation [of ISR facilities] is both complex and 
unmanageable'' and has led to an ``inconsistent and ineffective 
regulatory program [for these types of facilities].'' In 2007, 
NRC began developing new rules to address the issues at ISR 
facilities but stopped because the Atomic Energy Act (AEA), as 
amended by the Uranium Mill Tailings Radiation Control Act 
(UMTRCA), requires that the EPA promulgate generally applicable 
standards, which are then implemented and enforced by NRC.
    In past and present efforts to implement the general 
requirements in 40 CFR Part 192 at ISR facilities, requirements 
vary from site to site rather than following a consistent, 
national approach for all ISR facilities. The proposal presents 
health or environmental standards tailored specifically to 
address the technologies and challenges associated with the 
most widely used method of uranium recovery.
    The proposed standards will regulate byproduct materials 
produced by uranium ISR, with a primary focus on groundwater 
protection, restoration and stability. The proposed rule will 
reduce the risk of undetected excursions of pollutants into 
adjacent aquifers. This in turn will reduce the human health 
risks that could result from exposures to radionuclides in well 
water used for drinking or agriculture in areas located down-
gradient from an ISR In addition to avoiding human health 
impacts, the proposed rule has the potential to detect 
excursions sooner and thus enable a faster remedial response. 
Because plumes detected during long-term stability monitoring 
would be smaller, costs of remediation would be potentially 
much lower. The proposal would also lessen the likelihood of 
undocumented contamination of aquifers resulting in costly 
cleanup, potentially funded by the U.S. Government rather than 
the responsible party (e.g. the ISR facility). Citizens located 
near these ISR operations have commented that they are 
concerned about these facilities and have requested that EPA 
finalize this proposal. The intent of the Part 192 proposal is 
to establish requirements that will ensure the ISR facility 
that disturbs the groundwater must restore that groundwater to 
predetermined levels and ensure that the restoration is stable 
before leaving the site and terminating its NRC license.

    Question 2. In the cost benefit analysis accompanying the 
rulemaking, the agency focuses almost exclusively on the 
increased costs that would be imposed by the proposed rule's 
new monitoring requirements, which could require facilities to 
conduct more than 30 additional years of groundwater 
monitoring. EPA fails to assess multiple other costs that would 
be associated with the rule, including the costs of maintaining 
licenses, permits, etc. for 30 years; claims maintenance fees 
owed to the Bureau of Land Management for facilities on public 
lands; costs to obtain and maintain surety for additional 
years; costs related to continuing leases with private surface 
holders; taxes; insurance; or the cost of maintaining equipment 
and facilities. Given the additional costs that would be 
imposed, it is likely that the ultimate cost would be several 
orders of magnitude higher than EPA calculated in their cost 
benefit analysis.

     Please explain why EPA chose to ignore these costs in its 
analysis.
     Does EPA plan to revise its cost benefit analysis to more 
comprehensively assess the costs of the rulemaking? If not, why 
not?

    Response. License fees range from $35,400 to $40,000 per 
year, but drop to zero if only decommissioning is occurring. 
Financial assurance costs continue through decommissioning, but 
decline as more of the site is decommissioned. Throughout the 
life of an ISR operation, the costs associated with licensing 
and financial assurance would, in EPA's assessment, be 
unaffected by the proposed rule, until only one wellfield is 
still in operation or undergoing decommissioning. The longer 
duration of monitoring required would cause the firms to incur 
the costs associated with financial assurance for a longer 
period of time (potentially 30 years). However, as the number 
of wellfields in operation declines, and the amount of 
radioactive material onsite declines, the magnitude of the 
financial assurance required would decline proportionally. EPA 
thus believes that the additional costs associated with payment 
of license fees and financial assurance would be small relative 
to other incremental costs and thus we did not include them in 
our quantitative estimate of costs and impacts.

          Responses by Gina McCarthy to Additional Questions 
                          from Senator Wicker


                             carbon dioxide


    Question 1. As I hope you know, a one-sided focus on worst-
case stories and scenarios is a poor foundation for sound 
environmental and economic policies. There is an extraordinary 
amount of uncertainty in climate science mainly because of the 
complex nature of the climate and climate models. Climate model 
predictions have wildly varying degrees of accuracy and many 
have estimates that failed to come to fruition. With so much 
uncertainty and unknown variables regarding the impacts of 
carbon dioxide on the world's oceans and environment how can 
you possibly accurately estimate the costs and benefits of your 
proposals? Considering you can't provide a quantifiable, 
measurable direct impact of these regulations on sea level rise 
and global temperatures, don't you think the other supposed 
benefits to society are equally uncertain and overstated?
    Response. Actions taken to comply with the proposed 
guidelines will reduce emissions of CO<INF>2</INF> 2 and other 
air pollutants, including SO<INF>2</INF> NO<INF>x</INF> and 
directly emitted PM<INF>2.5</INF> , from the electric power 
industry. States will make the ultimate determination as to how 
the emission guidelines are implemented. Thus, all costs and 
benefits reported for this action are illustrative estimates. 
The EPA has calculated illustrative costs and benefits in two 
ways: One based on an assumption of individual State plans and 
another based on an assumption that states will opt for multi-
State plans. The illustrative costs and benefits are based upon 
compliance approaches that reflect a range of measures 
consisting of improved operations at EGUs, dispatching lower-
emitting EGUs and zero-emitting energy sources, and increasing 
levels of end-use energy efficiency. The annual compliance 
costs are estimated using the Integrated Planning Model (IPM) 
and include demand-side energy efficiency program and 
participant costs as well as monitoring, reporting and 
recordkeeping costs.

    Question 2. With each and every climate regulation put 
forward by the administration, the supposed benefits of each 
regulation continue to get smaller and smaller and more 
imaginary while the costs to American taxpayers and the economy 
continue to grow. A sound environmental and economic policy 
would place amount of regulation, in this case carbon dioxide 
emissions, where the marginal benefits are equal to the 
marginal costs. It seems the opposite is true in the latest EPA 
budget proposal. While carbon dioxide emissions continue to 
rise across the globe, at what point will EPA begin to allocate 
their limited budgetary resources to other programs that have 
greater benefits to American taxpayers while imposing lower 
costs on them?
    Response. By 2030, the Clean Power Plan proposal would cut 
carbon emission from the power sector by 30 percent nationwide 
below 2005 levels, which is equal to the emissions from 
powering more than half the homes in the United States for 1 
year. These measures will avoid up to 6,600 premature deaths, 
up to 150,000 asthma attacks in children, and up to 490,000 
missed work or school days providing up to $93 billion in 
climate and public health benefits, which far outweigh the 
costs of the plan.

    Question 3. In the fiscal year budget request, EPA notes it 
will be finalizing rules for formaldehyde emissions in 
composite wood products. Why has EPA decided to regulate 
laminated products when the authorizing legislation gives you 
authority to exempt those products? The testing costs far 
exceed any benefit considering that studies submitted to EPA 
show that the value added process of finishing laminated 
products can reduce the emission profile of an already 
compliant platform.
    Response. The Formaldehyde Standards for Composite Wood 
Products Act (TSCA Title VI), enacted by Congress in 2010, 
establishes formaldehyde emissions standards for hardwood 
plywood, particleboard, and medium density-fiberboard. Congress 
also provided the EPA with the authority to exempt some or all 
laminated products from the definition of hardwood plywood 
pursuant to a rulemaking under TSCA Title VI, which shall be 
promulgated ``in a manner that ensures compliance with the 
[statutory] emission standards.'' The information available to 
the EPA at the time the regulations were proposed in June of 
2013 did not indicate that laminated products would be in 
compliance with the emission standards, and therefore the 
agency did not propose an exemption for all laminated products 
from the proposed regulations. The agency did however, propose 
to exempt laminated products that are made with compliant cores 
and laminated with ``no-added-formaldehyde'' resins because we 
concluded that such exemptions would be consistent with the 
statutory directive.
    As directed by the Act, the EPA is continuing to evaluate 
all available and relevant information from State authorities, 
industry, and other available sources to determine whether the 
definition of hardwood plywood should exempt engineered veneer 
or any laminated product. In an ongoing effort to reach out to 
potentially affected stakeholders, the EPA met and continues to 
meet with companies and trade associations that represent, 
among other members, producers of laminated products. As part 
of this effort, the EPA has specifically requested data on 
formaldehyde emissions from laminated products, as well as 
comments and information on the proposed definition of 
laminated products. The initial comment period for the 
implementing regulations was twice extended at the request of a 
number of industry stakeholders and closed on October 9, 2013. 
In spring 2014, the EPA provided an additional public comment 
period on the proposed rule and conducted a public meeting on 
laminated products to address issues of concern to 
stakeholders. In addition, the EPA has met regularly with the 
California Air Resources Board (CARB). The agency is working to 
develop an approach to laminated products that would address 
potentially significant formaldehyde emissions while 
recognizing industry concerns over testing costs and burdens, 
particularly for small businesses.

    Question 4. With respect to the ongoing rulemaking on 
formaldehyde emissions in composite wood products, you recently 
stated that laminates could potentially be a ``significant 
source of emissions.'' Does EPA have scientific data that 
validates that statement? Will you share it with the committee? 
Data submitted to the public record during the rulemaking shows 
that the value added process of finishing laminated products 
can reduce the emission profile of an already compliant 
platform.
    Response. In developing the proposed laminated products 
provisions, the EPA consulted several sources of information, 
including a 2003 Composite Panel Association technical bulletin 
on laminates, as well as information provided by small entity 
representatives to the Small Business Advocacy Review Panel 
held for the proposed regulations. During the public comment 
periods, the EPA received additional information, including 
test results that appear to confirm that the lamination process 
can increase formaldehyde emissions. The California Air 
Resources Board (CARB) submitted results from their testing of 
laminated products, which are available in the docket for this 
rulemaking at http://www.regulations.gov/
#!documentDetail;D=EPA-HQ-OPPT-2012-0018-0515 and are also 
attached. According to CARB, the results indicated that, in 
several instances, the laminated products emitted considerably 
more formaldehyde than was emitted by the cores, likely due to 
the urea-formaldehyde resin used to affix the veneer. In 
addition, CARB noted that, while most samples with no stain or 
finish had higher emissions than identical products with a 
stain, indicating that the application of stain can reduce 
formaldehyde off-gassing and decrease exposures to 
formaldehyde, a number of samples with a stain still emitted 
more formaldehyde than the cores.

    Question 5. The academic and scientific communities are 
actively pursuing research into the magnitude of methane 
emissions from various sectors of the U.S. economy. With much 
of this research outstanding, why doesn't EPA wait to 
understand the major sources of methane emissions before 
promulgating regulation?
    Response. Methane, the key constituent of natural gas, is a 
potent greenhouse gas with a global warming potential more than 
25 times greater than that of carbon dioxide. Nearly 30 percent 
of methane emissions in the U.S. in 2012 came from oil 
production and the production, processing, transmission and 
distribution of natural gas. Methane emissions are projected to 
increase by about 25 percent over the next decade if additional 
steps are not taken to reduce emissions from this rapidly 
growing industry.

    Question 6. EPA's announcement last month on methane 
regulation indicated that there was no intention to regulate 
existing sources in the oil and gas industry at this time, 
instead, the agency would allow for voluntary actions by 
industry for existing sources. Aren't the control technique 
guidelines, coupled with your pending ozone regulation 
essentially a defacto regulation of existing sources in the 
industry?
    Response. The EPA will develop new guidelines to assist 
states in reducing ozone-forming pollutants from existing oil 
and gas systems in areas that do not meet the ozone health 
standard and in states in the Ozone Transport Region. These 
guidelines will also reduce methane emissions in these areas. 
The guidelines will help states that are developing clean air 
ozone plans by providing a ready-to-adopt control measure that 
they can include in those plans.

    Senator Inhofe. Thank you very much.
    We are going to have 6-minute rounds and use the early bird 
rule which we established when we changed things around here. I 
will begin and probably will not take all of my time because I 
want to reserve some in case some of my colleagues want to have 
more time.
    The EPA is asking for, as I said in my opening statement, 
$3.5 million for additional attorneys and lawyers to defend 
their proposals. My question would be if the States requested a 
judicial stay of the rule after it is finalized to allow for 
legal challenges to the rule to be resolved, would the EPA 
object to that request for a stay?
    Ms. McCarthy. We see no reason for a stay in the rule, 
Senator, but if you are looking at the lawyers we are asking 
for.
    Senator Inhofe. I am talking about the existing source 
rule.
    Ms. McCarthy. We are not interested in staying any of the 
rules, Senator. We don't think there is a reason for it. We are 
moving ahead to finalize those rules.
    The lawyer issue is not related to our climate effort. It 
is related to regional and headquarters efforts to provide the 
resources we need to smoothly move through permits, to get our 
legal positions on our rules effectively identified and 
commented on.
    Senator Inhofe. I understand your answer is no. Now I will 
ask the second part of that question. As soon as some of the 
States refuse to submit a SIP, a State program, or if the EPA 
denies the State SIP, would the EPA consider withholding 
Federal highway funding or would you say no?
    Ms. McCarthy. This is not a traditional State SIP under the 
national ambient air quality standards. There are other 
processes for us to work with States. Clearly our hope is that 
States will provide the necessary plans. If not, there will be 
a Federal system in place to allow us to move forward.
    Senator Inhofe. For the benefit of some who may not be 
aware of why we have been talking so much up here, it seems 
like every hearing we have turns into a global warming hearing. 
One of the reasons people are talking about doing this through 
regulation is that ever since 2003 we have had four votes in 
the U.S. Senate to go ahead and do something, have some kind of 
cap and trade they are now talking about doing through 
regulation.
    It was soundly defeated four times. Now the Obama 
administration is saying we will do through regulation what we 
were unable to do through legislation.
    Ozone is a big deal for a lot of us. The 2008 
implementation program, which planned for a 2008 ozone NAAQS 
was issued 2 weeks ago. I made the statement in my opening that 
there are a lot of States which have not complied with 2008, 
correct?
    Ms. McCarthy. That is correct.
    Senator Inhofe. Do you know how many States?
    Ms. McCarthy. I do not know, sir, because we are in the 
early stages of implementing the 2008 standard.
    Senator Inhofe. We have a standard of 75 ppb. A new 
standard they have tested down to 65 ppb and even 60 ppb. Even 
65 ppb, in my State of Oklahoma, would put all 77 of our 
counties out of attainment. That is a very serious thing.
    What is the justification for going ahead and moving toward 
this before we have had compliance with the 2008 regulations? 
What is your justification for that?
    Ms. McCarthy. Actually, we are under a court order to move 
forward because the Clean Air Act enacted by Congress requires 
us to review these every 5 years and we are significantly 
behind.
    The good news is this rule is simply looking at the level 
we need to achieve in order to protect public health and 
welfare. That is what we are going to be making a decision on.
    Senator Inhofe. As opposed to moving on with that rule?
    Ms. McCarthy. We don't have an option here. The Clean Air 
Act requires us to look at the science as it is updated every 5 
years. The court has told us that is what it says over and 
over.
    Senator Inhofe. That same court was there in 2008 when many 
States had not complied with that. That is my point. I don't 
see any logical reason we would move to a more stringent 
standard when we haven't complied with that.
    I am going to save the remaining 2 minutes of my time. 
Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman. I appreciate it 
very much and appreciate this hearing.
    Ms. McCarthy, it is always a pleasure to have you before 
the committee.
    Senator Inhofe. I am going to interrupt you. She has been 
chairman for the last 8 years and I am just not used to this, 
so I won't recognize you. I will recognize Senator Boxer next.
    Senator Boxer. To thoroughly confuse matters, I yield my 
time to Senator Cardin and will take mine later.
    Senator Cardin. Thank you, Senator Boxer and thank you, Mr. 
Chairman.
    Mr. Chairman, I just want to make a point. Only in the U.S. 
Senate would getting a majority vote, 50 some votes, in favor 
of a proposal be characterized as soundly defeated.
    My recollection is the cap and trade provision, to which 
you referred, got over 50 votes in the U.S. Senate. I just 
wanted to correct the record on that point. I am sure the 
public understands that a majority is not a majority in the 
U.S. Senate.
    I want to compliment you on your budget as it relates to 
important priorities. I think the overall budget is a 
reasonable investment in the Environmental Protection Agency 
and I applaud the Administration for bringing that forward.
    I think the emphasis on climate change as it relates to 
U.S. leadership that will have, I think, major dividends in 
global action which help the people of our Country, is exactly 
where we need to be. Your budget reflects those priorities.
    I want to first start by saying I am very supportive of the 
priorities that you have set as it relates to the size of the 
EPA budget and the focus on issues that are critically 
important to our Country.
    I want to ask you why you are recommending a reduction in 
the State Revolving Fund on clean water. I want to preface that 
by telling you I know the circumstances in Maryland and the 
circumstances around the Nation where water main breaks are a 
daily occurrence, where we had River Road in Montgomery County 
become a river threatening peoples' lives, where we have seen 
businesses shut down, where we have seen the Beltway shut down 
because of water main breaks. I visited Baltimore water main 
facilities and found water mains that are 100 years old and in 
desperate need of repair.
    Our States are crying out for more resources in the State 
Revolving Fund. Can you explain to me the rationale for the 
recommendation on the State Revolving Fund?
    Ms. McCarthy. Senator, there is no question that this is a 
level that is $50-some odd million below what was enacted last 
year. I will have to point out though it is $527 million above 
what the President requested last year. We certainly recognize 
there are significant challenges out there and are doing the 
best we can within a conservative and appropriately designed 
budget.
    Senator Cardin. I am going to let you finish your answer 
but it seems to me you are saying that you are depending on 
Congress to put in the right amount of money?
    Ms. McCarthy. We have actually submitted a budget that is 
very close to what was enacted last year. We are trying to 
address the issue in a variety of different ways.
    I am not suggesting that I wouldn't love to have lots of 
money to address these issues but difficult choices need to be 
made. I will point out that we are trying other very creative 
approaches to also supplement the money that is available in 
SRF so that we can target SRF appropriately. Then we have the 
WIFIA Center that we are beginning to create this year.
    I think the Water Infrastructure Resiliency Finance Center 
is also a very creative approach to try to address this 
challenge by building more public-private partnerships.
    It is not that I don't think we could always spend more 
money and spend it effectively. I am suggesting that public 
sector dollars will not cover the need that is out there. We 
need to find very creative approaches and also attract private 
sector dollars into this venture because it matters to all of 
us.
    Senator Cardin. I agree with that. I agree that we are 
going to have to supplement the infrastructure financing by 
creative methods, whether it is WIFIA, tax credits or public-
private partnerships. My Mayor, Stephanie Rawlings-Blake, 
suggested a separate trust fund for water infrastructure. We 
are going to have to do something for more.
    You need a basic program that at least is there to provide 
the fundamental commitment by the Federal Government. The same 
thing is true, by the way, with highway transportation. We want 
our 6 year reauthorization but we also recognize we may have to 
supplement that with more infrastructure in creative ways.
    Maybe my math is different than yours. We can do this later 
and get me the information. My staff tells me this is a 22 
percent cut in the Clean Water State Revolving Fund, amounting 
to a transfer of $332 million.
    Ms. McCarthy. I am sorry, I misunderstood. I thought you 
meant the entire fund. The Clean Water SRF is lower because we 
have shifted a lot of the additional resources to drinking 
water. As a whole, it is $2.302 billion we are proposing.
    Senator Cardin. The State Revolving Fund that deals with 
our wastewater treatment facilities are cut by 22 percent?
    Ms. McCarthy. That is because the shift is going to 
drinking water for the first time in quite a while because the 
need on drinking water is even more severe than the need for 
wastewater at this point. I can show you, and certainly will 
provide your staff with the figures.
    Senator Cardin. We need modern drinking water for capacity 
but if we don't deal with wastewater treatment, we are going to 
have problems with clean water in our streams. I can assure you 
of that. It is a major source of pollution for our water 
bodies.
    Ms. McCarthy. I totally agree with you. We would be able to 
utilize money effectively. This is, I think, a reasonable 
approach to start recognizing that at this point, drinking 
water has not been appropriately funded and that we need to 
make some shift in that fund. We are certainly able and willing 
to talk to folks about why we believe that is the case.
    Senator Cardin. We are half right and half wrong. Drinking 
water needs more, but you shouldn't be cutting the State 
Revolving Fund.
    Senator Inhofe. Thank you.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    First of all, I would like to ask unanimous consent to 
enter into the record, an article, an op-ed, from the Wall 
Street Journal of September 19, 2014 by Steven E. Koonin, 
entitled Climate Science Is Not Settled.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T4980.007
    
    [GRAPHIC] [TIFF OMITTED] T4980.008
    
    [GRAPHIC] [TIFF OMITTED] T4980.009
    
    [GRAPHIC] [TIFF OMITTED] T4980.010
    
    [GRAPHIC] [TIFF OMITTED] T4980.011
    
    Senator Wicker. I would point out to our witness and also 
to the members of the committee that Steven E. Koonin, 
interestingly enough, was Under Secretary of Science in the 
Energy Department during President Obama's first term and is 
currently Director of the Center for Urban Science and Progress 
at New York University. Yet, he authors an essay entitled, 
Climate Science Is Not Settled.
    I am going to read extensively from it in the time I have. 
Mr. Koonin starts by saying, ``The idea that `Climate science 
is settled' runs through today's popular and policy 
discussions. Unfortunately, that claim is misguided. ``It has 
not only distorted our public and policy debates on issues 
related to energy, greenhouse-gas emissions and the 
environment, but it also has inhibited the scientific and 
policy discussions that we need to have about our climate 
future.
    He sounds like you, Mr. Chairman. At this point, he says, 
``The crucial scientific question for policy isn't whether the 
climate is changing. That is a settled matter. The climate has 
always changed and always will.''
    The author also believes humans are influencing the 
climate, but he says, this, ``The impact of human activity 
appears to be comparable to the intrinsic natural variability 
of the climate system itself. The crucial unsettled scientific 
question for policy is how will the climate change over the 
next century under both natural and human influences. Answers 
to that question at the global and regional levels as well as 
to the equally complex questions of how ecosystems and human 
activities will be affected should inform our choices about 
energy and infrastructure.''
    There is one other sentence that I will quote at this 
point. ``Even though human influences could have serious 
consequences for the climate, they are physically small in 
relation to the climate system as a whole.'' I think that is a 
very interesting and balanced opinion piece raising doubts 
about the question of whether this is settled science.
    I also would simply respond to what the Ranking Member said 
about deteriorating sea ice. I would point out to my colleagues 
that as a matter of fact, according to NOAA, indeed arctic ice 
in January of this year was 6.3 percent below the 20 year 
average from 1981-2010.
    However, at the same moment, Antarctic sea ice is the 
largest on record, 44.6 percent above the 1981 to 2010 average. 
Deteriorating sea ice may be happening to 6.3 percent extent in 
the Arctic but it seems to be increasing by 44.6 percent in the 
Antarctic.
    Director McCarthy, I noticed and would call to your 
attention that Congressman Whitfield in the House submitted 
questions on June 19, 2014 to EPA concerning the carbon dioxide 
regulation for power plants. He received a letter finally on 
February 11, 2015. I just wondered, Administrator McCarthy, if 
since that time you have a better answer to those questions. 
The questions concern power plants. Has EPA estimated the 
impact of this proposed CO<INF>2</INF> rule for existing power 
plants in terms of global mean temperature?
    The answer includes this sentence, ``Although EPA has not 
explicitly modeled the temperature impacts of this rule, the 
clean power plant has an important and significant contribution 
to emission reductions.'' In other words, EPA cannot tell 
Congressman Whitfield, in answer to his question, to what 
extent is the temperature going to be impacted by this clean 
power rule.
    Further, he asked, ``Has EPA estimated the impact of the 
proposed CO<INF>2</INF> rule for existing power plants in terms 
of global mean sea level rise?'' Again, the EPA was unable to 
answer his question: ``The EPA has not explicitly modeled the 
sea level rise impacts of this rule.''
    I will tell you what is going to happen because of this 
rule to my State of Mississippi. It is going to be devastating 
to the economy. The Mississippi Energy Institute says, ``The 
estimated cost to Mississippi ratepayers is $14 billion by 
2030, not including fuel costs. Mississippi is projected under 
this power plan to experience the largest increase in 
electricity production costs of any State, a 177 percent 
increase.''
    I would say to my colleagues, and I would say to you, 
Administrator McCarthy, we know the negative effects on the 
hardworking people of my State in terms of how much money they 
are going to have to pay, but your agency is unable to say in a 
6-month time in answer to a question submitted by the chairman 
of the subcommittee what impact, if any, it will have on global 
temperature and was unable to say what impact, if any the rule 
would have on sea level rise.
    It seems to me the answer is, well, it is bound to help. We 
know it is going to increase electricity rates by 177 percent, 
cost jobs and make it harder for the people in my State, but we 
just think it is bound to help in some way although we cannot 
quantify that.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Wicker.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman.
    I am going to ask unanimous consent to place into the 
record the series of votes that the Senate has taken regarding 
climate change. Is that OK with you?
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T4980.023
    
    Senator Inhofe. I have the same list, I believe. If yours 
is different, then I would ask unanimous consent that next to 
yours, that is granted, I will have mine. Without objection, so 
ordered.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T4980.073
    
    Senator Boxer. May I ask that I get back the 10 seconds 
that my friend stole from me?
    Senator Inhofe. You have it.
    Senator Boxer. Here is the deal. We started voting on 
climate change issues in 2003. We got our clocks cleaned in 
2003 and 2005, absolutely true. In 2008, we had, absent 
Senators Collins, Martinez, Smith, Snowe, McCain and Coleman, 
by letter saying they were with us, that would have been 56 to 
36 in favor of a cap and trade plan know as the Climate 
Security Act, Lieberman-Warner. We had 4 short of 60. We had a 
majority.
    Then we had a Murkowski joint resolution to disapprove the 
ruling on the endangerment finding. That failed, 47 to 53.
    Then on April 6, 2011, we had a 50 to 50 vote on the 
McConnell amendment to prohibit the Administrator of the 
Environmental Protection Agency from promulgating any 
regulation concerning climate. That failed.
    Then we had an astounding vote. I voted with my chairman, 
98 to 1, climate change is not a hoax, yes. That was really a 
huge admission.
    Today, we hear from my friend, Ted Wicker. I take this out 
of context. I think what I heard you say was that there are 
scientists now that you respect saying that human activity does 
have an impact. You said it is offset by other things, but this 
is the first time I have ever heard you say that. In my mind, I 
think we are gaining ground, not fast enough for our grandkids, 
but we are gaining ground.
    On the sea ice, I wanted to talk to my friend because I saw 
an amazing presentation by NOAA on what is happening to the 
ice. You are right about Antarctic versus Arctic, but there is 
just more ice, it is just that it is thinner. We will talk 
about that because I think that is a very important point you 
are making on the ice.
    Back to you, Administrator McCarthy. The EPA's budget 
supports implementation of the President's Climate Action Plan 
by allocating funding for efforts to establish limits under the 
Clean Air Act on carbon pollution from cars, trucks and power 
plants.
    All these actions consistent with the three Supreme Court 
decisions in Massachusetts v. EPA of 2007, American Electric 
Power v. Connecticut in 2011, and Utility Air Resources Group 
v. EPA of 2014, are your actions consistent with the Supreme 
Court decisions or is your rogue agency making up this stuff as 
you go along?
    Ms. McCarthy. They are consistent with the decisions and 
laws that this body has passed.
    Senator Boxer. Isn't it true that if you were not to move 
forward, you could be subjected to lawsuits by are families who 
are concerned about these issues?
    Ms. McCarthy. I am quite sure.
    Senator Boxer. EPA's Revolving Loan Program for drinking 
and wastewater infrastructure help to ensure the water we drink 
is safe and that our lakes and rivers are clean. This is a 
place where I think there is bipartisan concern about the 
budget.
    We see a net cut of $53 million. Can you explain how EPA 
will ensure adequate investments in clean and drinking water 
given these cuts?
    Ms. McCarthy. EPA believes that the total $2.302 billion 
investment in SRF which includes drinking water and clean water 
is a significant step forward. We certainly understand there 
may be interests in additional funding.
    The absolute need of the drinking water supply that we have 
identified so far is $348 billion. On the clean water side, it 
is $298 billion in needed investment. We understand that these 
are issues that will take yearly significant investments.
    The challenge we have is with our limited budget, we have a 
number of core functions in which we need to provide resources 
in order to protect public health and the environment.
    Senator Boxer. You are saying you increased funding on one 
part of the clean water mission and you cut it on the other. Is 
that accurate?
    Ms. McCarthy. We actually shifted funds away from the 
wastewater side and shifted it into the drinking water because 
there is some immediate need that we have identified, not that 
there isn't an immediate need in both categories.
    Senator Boxer. My takeaway from this, I am not asking a 
question, it gets back to the 20 percent cut in EPA's budget 
that we have see over time is having an impact internally. In 
administering landmark laws like the Clean Water Act, it is 
important that Federal agencies follow the best available 
science.
    Ms. McCarthy. Yes.
    Senator Boxer. Can you expand on the science used to 
develop the clean water rule and how the rule reflects the best 
available science?
    Ms. McCarthy. Thank you for raising this, Ranking Member.
    The clean water rule is a rule the Supreme Court actually 
told us almost 6 years ago that we should do some more science 
around this so we could be clear about the waters that needed 
to be protected that were absolutely significant for drinking 
water and other functions we are relying on.
    They told us to go back and look, which we did. We actually 
did a compilation of more than 1,000 studies that had been done 
and peer-reviewed. We worked with our Science Advisory Board so 
that could look at that compilation, look at the assessment and 
do a peer review.
    We have done the science. We need to be able to reflect 
better in our rules what waters are necessary to protect under 
clean water. That is going to clarify issues that the States 
and this body, many of you, have been asking us to clarify for 
years. We are using sound, peer-reviewed science to do our job 
moving forward.
    Senator Inhofe. Thank you, Senator Boxer.
    Let me take the chairman's prerogative and ask if you want 
to respond to the last question Senator Wicker asked during his 
line of questioning?
    Ms. McCarthy. There were many, sir. I understand that there 
are a vast minority of scientists who believe that the 
challenge of climate change isn't as significant as the 
majority.
    Senator Wicker. Referring to the very last question with 
regard to what benefits are we going to receive from the clean 
power plant with regard to temperature and sea level which is 
what I thought was the whole point.
    Ms. McCarthy. This issue was actually fairly well discussed 
by the Supreme Court. When they were looking at this issue, 
this is work and advice we followed, the Supreme Court said it 
was very clear that carbon pollution is a danger to public 
health and welfare and that efforts need to be underway to make 
progress.
    The benefits that we are looking at are the benefits of 
strong domestic action that will, in and of itself, send a 
clear signal that we are doing what we can cost effectively and 
flexibly to make progress on carbon pollution.
    It has already changed the international dynamic because 
climate change cannot be addressed without significant 
effective international efforts but we are going to do our 
part. That is the benefit of this rule.
    To ask me whether a marathon can be accomplished without 
crossing the first mile, I would say you can't do it. While 
this won't get us to a cleaner, to address fully the issue of 
climate change, it gets us out of the gate, it gets us running 
and it provides the impetus and energy that we need to prove 
the actions we need to address climate change are both 
economically sound and are going to be providing us great 
national security and we are going to be able to move this ball 
forward internationally which is the forum for finally 
addressing climate change in the most comprehensive and 
cohesive way.
    Senator Wicker. Twenty seconds, Mr. Chairman.
    Senator Inhofe. Yes, out of my time.
    Senator Wicker. I would simply observe the Supreme Court 
has a legalistic view of this but we have policy decisions to 
make as legislators and representatives of the taxpayers. It 
might be when all this is said and done we have the whole 
international community agreeing on what we should do, that 
this is going to prevent sea level from rising a quarter of an 
inch.
    I might decide that is not worth a 177 percent increase in 
electric rates for my citizens in my State. It might be that 
they would conclude it is going to help by one degree globally. 
I might conclude that is just not worth the loss of jobs for 
Americans.
    Senator Inhofe. My time is down to 1 minute now.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Administrator McCarthy, it is good to see you again.
    Ms. McCarthy. You too.
    Senator Sullivan. I always think it is important to get on 
the record at these hearings how important clean water is and 
clean air. As I have mentioned before, in Alaska, we have the 
most pristine environment in the world. Alaskans are really 
great about taking care of it.
    As a matter of fact, I think we care about our environment 
a lot more than a lot of people in this town. We have a 
tremendously good record of taking care of that environment.
    I think one of the things they are most concerned about is 
two interrelated themes that most Alaskans, I would say the 
vast majority, is concerned about. Your agency is not 
accountable. It is not accountable to the law. Most 
importantly, it is not accountable to the people where you are 
not listening to the people or the States. I will get into that 
in a minute.
    Then you rush to get out rules which is of concern. Where 
we think you are trying to put out an agenda that is not based 
in the law to quickly get that agenda established before you 
leave office.
    On accountability, I think there is a whole host of issues 
we can talk about but from my perspective, this is a really big 
issue for me. Accountability starts at the top. Last year, 
there was a glowing Wall Street Journal profile on you but some 
of us found it rather disturbing.
    You were up in Alaska, honored by the Alaska Native people 
with gifts, which is a big deal in my State. You were quoted in 
the article about one of the gifts, which was a pen, that you 
threw the f--ing thing away, was your quote. A young girl gave 
you a jar of moose meat from Native people that you said, 
``could gag a maggot.''
    A lot of people saw that as a glowing article. Most people 
in Alaska saw it as an incredible disrespect to the people of 
my State. To me when the leader of an agency comes to a State 
and makes those kinds of statements to a national newspaper, it 
doesn't show that you are focused on serving the people you are 
required to serve.
    Have you had the opportunity to make a comment on that, to 
apologize? If you would like to apologize here publicly, that 
would be fine.
    Ms. McCarthy. I am happy to apologize for those remarks. I 
will tell you they were taken out of context but it doesn't 
matter because they hurt individual tribes I care about.
    Senator Sullivan. They sure did. Thank you for apologizing.
    Ms. McCarthy. No problem.
    Senator Sullivan. The clean water rule, the ``waters of the 
U.S.'' rule, is one of these issues that when you talk about no 
support, either in the law or the people, I think it is 
something that is happening right now.
    My view is this is executive amnesty for water. Let me give 
you a reason why. In 2009, the EPA proposed expanding the clean 
water jurisdiction, is that true, through the Congress?
    Ms. McCarthy. Yes.
    Senator Sullivan. You did. It went nowhere in the Congress 
in terms of the bills that were submitted in 2009 to expand the 
clean water jurisdiction.
    Ms. McCarthy. We never proposed such bills, sir.
    Senator Sullivan. For the record, we can get the bills that 
were proposed, a letter from your predecessor on expanding the 
jurisdiction of the Clean Water Act.
    When that happens and the Congress doesn't move on that, 
the Administration is not allowed to simply say, we are going 
to do it with a rule. That rule will expand the jurisdiction of 
the EPA in Alaska over our waters by approximately 40 percent, 
in a State that already has 60 percent of all waters in the 
United States in Alaska covered by the Clean Water Act.
    In this last hearing, I asked for your legal opinion on 
where you got the legal authority. We still have not received 
that. Can you get that opinion to us?
    Ms. McCarthy. Senator, I have been very clear. I have no 
authority to expand the jurisdiction of the Clean Water Act, 
nor am I proposing through a rulemaking to do that.
    Senator Sullivan. There are a lot of people who disagree 
with that. We would like to see your legal opinion that gives 
you the authority to propose this rule.
    Ms. McCarthy. I have no legal opinion to support that 
position. I am not doing that.
    Senator Sullivan. Don't you do legal analysis of the rules 
you propose?
    Ms. McCarthy. We do legal analysis of our rules. We do not 
expand through our rulemaking the jurisdiction under the rule. 
I implement.
    Senator Sullivan. That is the big issue right now. You said 
you didn't do that in your clean air issue and, a lot of States 
sued. The recent Supreme Court came out and said you did 
exactly that, you violated the Constitution.
    There are not a lot of people who believe what you are 
saying in terms of the authority. You have not done a legal 
analysis on ``the waters of the U.S.'' and whether you have the 
legal authority? You have no legal analysis on this?
    Ms. McCarthy. We have certainly done a legal analysis in 
the proposed rule and we will explain it in the final as well 
after looking at comments, but I have never claimed that the 
agency can expand the jurisdiction of the law.
    Senator Sullivan. You cannot. That is why we need a legal 
opinion that says you are not doing that when many people think 
you are doing that. You have no legal analysis on ``the waters 
of the U.S.'' right now?
    Ms. McCarthy. No. We clearly are looking at staying within 
the boundaries of the Clean Water Act legally and using science 
to implement it appropriately as the Supreme Court told us we 
should do. That is what this rule is all about.
    Senator Sullivan. Mr. Chairman, if I may, I think in the 
last hearing, I asked for the legal analysis that you said your 
agency undertook that says that ``the waters of the U.S.,'' the 
regulation you have, is a legitimate agency function because it 
is based in statute.
    You said you were going to provide that. We have not seen 
that.
    Ms. McCarthy. I am happy to provide you the actual clean 
water rule that we proposed. It does include a legal analysis 
of what we are supposed to do, what we were told by the Supreme 
Court, the boundaries of the law, and explain why we are well 
within those boundaries in following that advice.
    Senator Inhofe. Thank you, Senator Sullivan.
    Senator Whitehouse?
    Senator Whitehouse. Thank you, Mr. Chairman.
    Welcome, Administrator. How are you?
    Ms. McCarthy. I am well, Senator. How are you?
    Senator Whitehouse. I am well, thank you.
    Could you comment for a bit on EPA's track record in terms 
of the cost of regulation? We come at this question with things 
like the U.S. Chamber of Commerce's statement that proposed 
existing power plant regulation will cost the economy 224,000 
jobs and $289 billion in high electric costs through 2030. That 
got replayed by colleagues of mine pretty extensively.
    Upon examination, it earned a PolitiFact false and it 
earned four Pinocchios from the Washington Post Fact Checker. 
We have had your predecessors, both Republican and Democrat, 
here describing over and over as environmental rules have come 
up, how there has developed a more or less standardized 
industry response which is to exaggerate the costs, deny the 
benefits and try to cast doubt about the problem.
    What is your view? Let us start with the Clean Air Act. How 
has EPA's enforcement of the Clean Air Act worked to the 
benefit or peril of the American people?
    Ms. McCarthy. Overall, the Clean Air Act has resulted in 70 
percent reduced air pollution, while the GDP has tripled. We 
have looked at all of our major rules and followed all of the 
economic procedures we are supposed to follow, the best science 
that we can.
    Time and time again, we actually over project the costs, so 
our rules are even more cost effective than we have projected. 
That is not a surprise to people who see how we follow the 
rules and our transparency. Time and time again, we know we 
hear the same arguments over and over again every time we 
propose a rule.
    Every single time, I have never seen those lack of benefits 
come through or those excess costs be realized. This Congress 
has given us requirements to continue to look at cost benefit 
but also to do a 20-year study of the Clean Air Act and how 
those benefits have been realized. The benefits have far 
exceeded even the individual benefits we estimated for each of 
those individual rules.
    It is a tremendous opportunity to improve public health and 
protect the environment. We are going to continue to implement 
it effectively and cost effectively.
    Senator Whitehouse. Over and over again, the American 
people have been economic winners as well as public health 
winners because of EPA regulations?
    Ms. McCarthy. We have shown that we identify for people 
what the public health goals have to be to keep themselves and 
their families safe. It sparks innovation, it grows jobs, it 
helps us maintain a robust economy and it keeps our lifestyle 
that we are so used to in this Country available to everyone.
    It is part and parcel of how we have grown the economy in 
this Country. I am sure hoping that continues.
    Senator Whitehouse. The question of carbon pollution 
continues to be debated. As you said, the debate is getting 
increasingly one-sided as an amazing majority of scientists and 
every single major scientific organization in the Country comes 
down on the side of the importance of coping with carbon 
pollution.
    In addition to your obligation to follow the best available 
science, which you do in this, you also have an obligation to 
follow the law. The Supreme Court has spoken quite clearly to 
the question of carbon pollution, has it not?
    Ms. McCarthy. Quite a few times, yes.
    Senator Whitehouse. Using those words, defining carbon 
emissions as a pollutant, correct?
    Ms. McCarthy. They have also indicated that EPA's science, 
I cannot quote it directly but the word outstanding comes to my 
mind. They vilified that we have done everything we could on 
the science side and we have proven our case.
    Senator Whitehouse. I think it is important to note the 
history we began with because it casts a spotlight on whether 
or not we really have a legitimate discrepancy in scientific 
opinion or whether this is simply the rollout of a repeat 
performance that has happened over and over again whenever an 
industry has faced a new regulation to protect the public 
health in which they create artificial doubt with a stable of 
basically kept scientists.
    I think it is important that we bear that in mind and that 
the public keep an eye on that as well. Would you agree there 
is a difference between a legitimate, scientific debate and 
this campaign of doubt casting that has pre-existed the fight 
over carbon? It goes all the way back to whether tobacco was 
safe or not. The tobacco industry was the great proponent and 
inventor of this theory, was it not?
    Ms. McCarthy. Yes, and I am certainly aware that the wealth 
of science we have that shows that climate change is real, it 
is happening, and it is a threat. Humans are causing the 
majority of that threat. It is supported by the majority of 
scientists and frankly, the public in the U.S. at this point as 
well. They are concerned. The impacts are already being felt.
    Climate change is not a religion or a belief system. It is 
a science fact and challenges us to move forward with the 
actions we need to do to protect future generations.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Whitehouse.
    Next we will hear from Senator Sessions but first, I do 
have my last remaining minute of which I am going to give 45 
seconds to Senator Sullivan. Let me just quote one of the 
imminent scientists of the many, many scientists who believe 
this, Richard Lindzen, from MIT who made the statement that 
``controlling carbon is a bureaucrat's dream. If you control 
carbon, you control life.'' Many, many scientists out there 
agree with that.
    Senator, if you finish your line of thinking there, you may 
have 45 seconds.
    Senator Sullivan. Thank you, Mr. Chairman.
    I just want to wrap up the discussion on the issue of the 
legality of your actions. There are a lot of people in Alaska, 
and I think throughout the Country, who are doubting the legal 
basis for which your agency is acting.
    Mr. Chairman, for the record, I would like to submit a Wall 
Street Journal editorial called, A Constitutional Tutorial for 
Obama, the President and EPA do not possess an heralded power 
to rewrite laws, and more recently, a Wall Street Journal op-ed 
from Harvard professor, Laurence Tribe, The Clean Power Act is 
Unconstitutional, where Laurence Tribe says, ``Frustration with 
congressional inaction cannot justify throwing the Constitution 
overboard to rescue this lawless EPA proposal.''
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Senator Sullivan. I would like to wrap up with one final 
question. What is the rush on ``the waters of the U.S.'' 
regulation? You are expediting it. Isn't it true that OMB 
allowed you to expedite this because they said it wasn't a 
major rule? You are expediting this rule when 35 States have 
said they oppose it and over 1 million comments have not been 
placed online on this rule. It seems to me that you are rushing 
this.
    Again, we would like to see the legal basis for you moving 
outside the normal procedures for the timeline of a rule that 
is going to impact dramatic parts of the Country and huge parts 
of my State.
    Ms. McCarthy. Very quickly, first of all, the reason we are 
moving forward with this rule is we are in no rush. In fact, 
the questions began in 2001. We are moving it forward. We 
actually have been requested by States, by industries, by 
farming and ranching groups to move forward with the rulemaking 
to provide clarity. We are moving for our constituencies, the 
people who are confused and need answers.
    We have not had 35 States tell us. There have been 
individuals representing various constituencies in States or 
different offices in States who have commented, but we have 
received over 1 million comments and 87.1 percent of those 
comments we have counted so far--we are only missing 4,000--are 
supportive of this rule. Let me repeat, 87.1 percent of those 
one plus million are supportive of this rule.
    Senator Inhofe. Thank you.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    As a member of the Budget Committee and somewhat familiar 
with the Budget Control Act which contained the growth of 
spending, I think EPA this year should be flat spending or at 
least no more than 2.5 percent increase. You are proposing a 6 
percent increase. Where does the money come from? Are you 
proposing to break the limitations?
    Ms. McCarthy. It is part of the President's proposal which 
is not going to buy into the bad policy of sequestration, but 
he has designed a budget that can accommodate this.
    Senator Sessions. The inflation rate in the United States 
is about 2 percent, so you want to have a three times the 
inflation rate increase in spending. I would suggest that when 
we go to our States, the group we have most complaints about 
from our constituency, highway people, whether it is our 
farmers, our energy people, is the Environmental Protection 
Agency. It is an extraordinary overreach.
    You apparently are unaware of the pushback that is 
occurring in the real world. I just want to tell you I am not 
inclined to increase your funding 6 percent a buck. Now you say 
we have a crisis and there are dangers out there.
    In an article by Mr. Lumbergh, who testified before the 
Budget Committee from the Copenhagen Institute, along with Dr. 
Pioki from Colorado, ``We have had fewer droughts in recent 
years.'' Do you dispute that?
    Ms. McCarthy. I don't know in what context he is making 
statements like that, but I certainly can tell you about the 
droughts that are happening today.
    Senator Sessions. No, no, I am not arguing to you today 
that you are wrong about global warming because we have a cold 
spell. I am asking you what are the worldwide data about 
whether or not we are having fewer or less droughts.
    Ms. McCarthy. I will be happy to provide it, but I 
certainly am aware that droughts are becoming more extreme and 
frequent.
    Senator Sessions. You are aware that the IPCC has found 
that moisture content of the soil is, if anything, slightly 
greater than it has been over the last decade in their report. 
Are you aware of that?
    Ms. McCarthy. I don't know what you are referring to, 
Senator, but I am happy to respond.
    Senator Sessions. You need to know because you are asking 
this economy to sustain tremendous costs and you don't know 
whether or not the soil worldwide is more or less moist?
    Ms. McCarthy. I don't know where your cost figures are 
coming from.
    Senator Sessions. I am quoting the IPCC. What about 
hurricanes? We had more or less hurricanes in the last decade?
    Ms. McCarthy. There have been more frequent hurricanes and 
more intense. In terms of landing, those hurricanes on land, I 
cannot answer that question. It is a very complicated issue.
    Senator Sessions. It is not complicated on how many landed. 
We have had dramatic reduction in the number. We have gone a 
decade without a Class III or above hurricane.
    Ms. McCarthy. The scientists are not really considering 
that number to be significant because the subset is so small 
that you are looking at, you are taking issues in science out 
of context.
    Senator Sessions. Are you asserting that you have evidence 
that we have greater hurricanes around the world in the last 
decade than the previous decade?
    Ms. McCarthy. I am asserting that I have plenty of 
evidence, factual evidence from scientists who know this issue 
that climate change is happening, it is real, and it is 
happening now.
    Senator Sessions. Of course the climate is changing, Ms. 
McCarthy. You have been saying we have more storms. Will you 
submit within a few days, it shouldn't take long, a showing 
that we have had more storms in the last decade?
    Ms. McCarthy. When you say ``we,'' what are we talking 
about, the U.S.?
    Senator Sessions. The world.
    Ms. McCarthy. I am happy to submit the full breadth of 
science that we have behind climate. We have submitted it and 
will submitted it again.
    Senator Sessions. Would you acknowledge that over the last 
18 years, the increase in temperature has been very little and 
that it is well below, 90 percent below most of the 
environmental models that show how fast temperature would 
increase?
    Ms. McCarthy. No, I would not agree with that. A 1-degree 
temperature is significant.
    Senator Sessions. I am asking below the models or above the 
models?
    Ms. McCarthy. I do not know what the models are actually 
predicting that you are referring to. There are many models and 
sometimes it is actually going faster and sometimes slightly 
slower than the model predicts, but on the whole, it makes no 
difference to the validity and the robustness of climate 
science that is telling us that we are facing an absolute 
challenge that we must address both environmentally and 
economically from a national security perspective, and for EPA, 
from a public health perspective.
    Senator Sessions. Carbon pollution, CO2, is really not a 
pollutant. It is a plant food and it does not harm anybody 
except that it might include temperature increases.
    Let me ask you one more time, just give me this answer. If 
you take the average for the models predicting how fast the 
temperature would increase or is the temperature in fact 
increasing less than that or more than that?
    Ms. McCarthy. I cannot answer that question specifically.
    Senator Sessions. Mr. Chairman, I would say this is a 
stunning development, that the head of the Environment 
Protection Agency, who should know more than anybody else in 
the world, who is imposing hundreds of billions of dollars in 
costs to prevent climate and temperature increases, doesn't 
know whether their projections have been all along.
    Ms. McCarthy. Whose projections? What models, sir?
    Senator Sessions. Where do you get the information that the 
temperature is increasing? Isn't it from climate models 
produced by scientists around the world that projected certain 
increases as the actual temperature increased at that rate?
    Ms. McCarthy. It depends on what you are looking at. In the 
timeframe of climate, which is trends, absolutely, positively.
    Senator Sessions. Would you submit to me a written document 
that explains how you believe the models have been proven 
correct and whether or not, I will ask this specific question, 
had it increased less than projected or more than projected?
    Ms. McCarthy. I would be happy to provide you the 
information. My concern is you are not looking at climate in 
the kind of trend lines that climate determines. Sometimes you 
were asking us did we get it right last year, did we get it 
right the prior 4 years, instead of looking at this as climate 
demands. This isn't weather patterns. This is a partitive time. 
If you look at the last century, we have had changes in our 
climate that we should not have seen over a span of 1,000 
years.
    Senator Inhofe. I am sure that Senator Sessions is looking 
forward to getting your written document.
    We wanted to hear from Senator Markey but we have a 
unanimous consent request by Senator Vitter.
    Senator Vitter. Actually, Mr. Chairman, I will pass and try 
to stay around. Thank you.
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you.
    Senator Sessions, they have a big stunning development in 
Massachusetts. It is that temperatures off the coast of 
Massachusetts and the Atlantic have been measured at 20 degrees 
above normal.
    What is happening is this Arctic vortex is being sent down 
in larger amounts than ever seen before as Anchorage has almost 
no snow on its grounds, leads to this cold air lingering longer 
over Massachusetts and then hitting this 20 degree warmer than 
normal Atlantic Ocean which then leads to more moisture and 
more precipitation which then leads to us breaking the record 
for the most snow in history.
    That is not weather; that is climate. There is a 
distinction between these things. The reason we know things are 
changing off the coast of Massachusetts is NOAA, NASA and 
predecessor agencies have been using thermometers since the 
1880's to actually take the temperature of the water and the 
air. They just write it down each year.
    They do that all around the world, actually. Scientists all 
around the world keep these temperatures.
    The reason we know it is happening is that people have been 
using thermometers over all these years. It is not a more 
sophisticated technology, it is exactly the same technology, 
probably costs more but it is the same exact device.
    We are now suffering from that in Massachusetts. It is 
climate. There is an intensity, an extra level of effect that 
it creates.
    I would like to point out that in the op-ed of Steven 
Koonin, that Senator Wicker put in the record, there was one 
sentence he left out. That sentence says, ``Uncertainty need 
not be an excuse for inaction.'' I applaud the EPA for all of 
its great work. I thank you, Madam Administrator, for what you 
have done on this issue.
    I would like to move the renewable energy component of your 
clean power plant rules and ask, as you finalize these rules, 
will you be incorporating up to date renewable costs so what is 
truly achievable is reflected?
    Ms. McCarthy. Yes, sir, we will.
    Senator Markey. The renewable fuels standard is another 
policy where technology and innovation can help reduce carbon 
pollution. Last year, facilities with almost 60 million gallons 
of cellulosic ethanol fuel per year capacity on line. Another 
30 million gallons per year of facility was set up this year.
    To continue that growth and investment, the advanced 
biofuels industry needs policy certainty. Will the upcoming 
renewable fuels standard proposal reflect developments in 
cellulosic and advanced biofuels and support their growth in 
the future as was the intent of the 2007 legislative language?
    Ms. McCarthy. Yes, sir.
    Senator Markey. Can you elaborate a little?
    Ms. McCarthy. I think the challenge for us has been the 
requirement to annually look at these budgets. We are looking 
at ways in which we can send longer term signals to the market 
so that advancements like cellulosic can really find investment 
opportunity on a longer term basis that they need to continue 
to grow.
    Senator Markey. I was the co-author of that language in 
2007. Then it was cellulosic but then we went almost 
immediately into a recession which hurt that industry.
    Ms. McCarthy. It has really taken off.
    Senator Markey. It did not get its initial shot but in 
normal economic conditions, we are quite confident it will be 
successful.
    I want to turn to EPA's work to keep our water clean. 
Between 1979 and 2001, about 15 football fields were the 
wetlands that feed into the historic Buzzards Bay in 
Massachusetts were cleaned of all vegetation and pollutants 
with high levels of fertilizer and pesticides that contaminated 
the waters that feed into the Bay. It was all done without 
notification or permitting.
    The EPA tried to take action against the polluters using 
its Clean Water Act authority but more than 15 years later, the 
case is still not resolved and the wetlands have never been 
restored.
    The reason this case remains in limbo is that the Supreme 
Court was unable to make up its mind about whether wetlands are 
bodies of water that fall under the Clean Water Act's 
jurisdiction.
    Rather than perpetuate the uncertainty that the Supreme 
Court created, EPA responded to requests from religious 
organizations, small businesses, public health groups, 
sportsmen's associations and State leaders to craft a 
definition of which types of water bodies can be subject to 
enforcement under the Clean Water Act and which cannot.
    Isn't it true that the EPA, as it reviews more than 1,200 
peer-reviewed, scientific papers and other data, established a 
Scientific Advisory Board of 26 independent scientists to 
review the EPA's work, reached out to stakeholders in every 
single State and reviewed more than 1 million comments on the 
proposed rule?
    Ms. McCarthy. That is true.
    Senator Markey. Isn't it true that more than 30 Republican 
Senators and House members publicly called on EPA to write a 
rule instead of just issuing guidance like EPA initially 
planned to do?
    Ms. McCarthy. That is true.
    Senator Markey. Isn't it true that when this rule is 
finalized, it will actually cover fewer water bodies than was 
the case under policies that were promulgated by the Reagan 
administration and it will permanently remove types of bodies 
of water from being subject to EPA's authority under the Clean 
Water Act?
    Ms. McCarthy. That is correct.
    Senator Markey. It seems that common-sense, scientifically 
based policy is being put on the books and we thank you so much 
for doing that.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Markey.
    Senator Capito?
    Senator Capito. Thank you.
    Thank you, Madam Administrator. I appreciate your coming 
before the committee today.
    I want to say at the onset, I think, in a bipartisan way, 
we have asked questions about the technical assistance issues 
through the Safe Drinking Water and the Clean Water Acts.
    It does maximize resources to a lot of localities, 
municipalities and it is very important to all of us no matter 
how big or small your State is.
    You know I am from the State of West Virginia. We have had 
numerous conversations. As one of my colleagues said, I would 
say in the State of West Virginia, if I hear disagreements, 
which I hear quite a few, but EPA is always right at the 
epicenter because of the impact of the regulatory environment 
we have had because we are so heavily reliant on coal as our 
power source.
    I would like to ask this question. You have in your remarks 
that the President's budget calls for a $4 billion Clean Power 
State Incentive Fund. The way I am reading this, that is a 
legislative prerogative, correct? That exists outside your 
budget?
    Ms. McCarthy. That is not included in our budget.
    Senator Capito. That has to be passed here in Congress 
before that would ever be funded?
    Ms. McCarthy. That is correct.
    Senator Capito. I am not going to waste a lot of time on 
that one because I don't think that is going to go. Although I 
will say, at cross purposes there, in your remarks, you say it 
helps with the financing for renewable and low income 
communities, but in the analysis by the committee, the 
bipartisan analysis, the quote says this would be to give 
grants to States that go beyond the clean power plan?
    Ms. McCarthy. We actually have other opportunities in our 
budget that speak to the issues I was referring to.
    Senator Capito. I would say if we are going to talk about 
economics and environment, if $4 billion, about 50 percent of 
what you are asking for today, the EPA and the President 
believe that is something that will help meet the demands of 
this new clean power plan. That tells me how explosively 
expensive something like this would be across the Country. 
Would that be a safe statement?
    Ms. McCarthy. I don't believe so, Senator. I think it is 
appropriate to look at the proposal that EPA put on the table 
because we believe it was flexible in terms of individual 
States and where they are overall in terms of our ability to 
continue to keep a reliable and cost effective energy system.
    We think the goals are achievable for individual States. 
The standards were set and the overall rule will be very cost 
effective.
    Senator Capito. If the Administration wants an additional 
$4 billion in mandatory spending, in my view--we can move on 
after this. I would like to say my own DEP has said EPA 
comments ``on the 111(d) proposal notes with the finesse of a 
bull in a china shop, EPA intends to assert itself broadly into 
the new regulatory arenas that impact all areas of the Nation's 
economy.''
    If we are looking at the impacts of the clean power rule 
and weaving a balance, you all have talked about this a lot 
with me and I have a lot of frustrations at home about it. Of 
those dollars you are committing to this, how much of those 
dollars are actually used to model the economics?
    We have heard a lot about the science. What about the 
economic effects, the job loss, communities that basically are 
going to be abandoned in my State because of the poor 
communities, the rise, 170 percent and that may be high, of 170 
percent for that low income person in West Virginia, that 
senior and their electric bill where they are already at the 
end of their rope trying to meet their monthly obligations?
    How much time, effort and money do you spend to analyze 
that effect when you are putting together one of these 
regulations?
    Ms. McCarthy. I am happy to try to see if we can decipher 
that for you.
    Senator Capito. If you could quantify that for me, I would 
appreciate it.
    Ms. McCarthy. I am happy to do that. If you look at the way 
in which we designed our proposal, if you look at what we are 
asking in terms of additional resources on climate, you will 
see we are asking for $57.7 million, $25 million of which is 
technical assistance grants going to States so they can help 
them with their plans. In excess of $25 million is to help 
actually provide technical assistance to be able to work on 
this issue.
    You will see that we are providing in the core of our 
budget the funding we believe we need to implement the plan and 
help States implement the plan.
    Senator Capito. I understand. Additionally, even though it 
is a legislative priority, the Administration obviously feels 
an extra $4 billion in mandatory spending is going to be what 
is necessary for the States to meet these challenges.
    Let me ask about ozone real quick because again I think 
there are big economic impacts there. The rule you said went 
forward in 2008, the previous, and now we are moving to a new 
standard. This is ozone?
    Ms. McCarthy. Ozone, yes.
    Senator Capito. We know there are still many States and 
counties not in compliance. The President withdrew this in 
2011, the same proposal, is that correct, to not move forward. 
The $90 billion price tag was something he was really unable to 
move forward.
    Do you believe the economy has changed so much that this 
$90 billion price tag is now sustainable and whatever would be 
on top of the new ozone regulations?
    Ms. McCarthy. The way this works, let me explain. The rule 
being implemented will ask States to look at cost effective 
opportunities for reducing pollutants that contribute to ozone. 
We are setting a health protective standard.
    The rule we are looking at or the standard we are setting 
now is actually going to be based on air quality in 2014, 2016, 
and States will get to 2030 to actually in some cases achieve 
that. National rules already in place will actually get us most 
of the way to complying with that more rigorous standard if and 
when the decision is made to change that standard.
    This is not a stop and start process. It is a continued 
discussion and cost effective actions to us getting at the 
levels of protection for public health.
    Senator Capito. My misunderstanding might be that it was a 
previous rule that was supposed to meet certain standards. I am 
interpreting it as a new rule that is moving you to different 
standards. You are telling me it is sort of a continued rule.
    Ms. McCarthy. It is and has been continuing for 20 years 
and States have been able to manage through this. Everything 
you do to comply with the 2008 will provide you a strong 
foundation to actually achieve what we are proposing.
    The exciting thing about these standards is if we decide to 
reduce the standard to 70, only nine counties in the U.S. 
outside of California are predicted to actually be out of 
attainment by 2025.
    National rules already on the books are going to get us a 
significant way there. It may actually get us outside of 
California and give us the ability to be in attainment almost 
throughout the entire Country.
    Senator Inhofe. We will recognize Senator Rounds. Senator 
Rounds, would you yield for a unanimous consent request from 
Senator Vitter?
    Senator Rounds. I will.
    Senator Vitter. Thank you, Senator.
    Very briefly, I just have a UC request to submit to Ms. 
McCarthy, for the record, my questions, which are on existing 
source performance standards and economic analysis.
    Senator Inhofe. Without objection.
    Senator Vitter. Thank you.
    Senator Inhofe. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Administrator McCarthy, I suspect this is something like 
going to a dental appointment in terms of coming in here and 
sitting down.
    Earlier, you had an opportunity to discuss a little, and I 
sensed the frustration, with regard to the waters of the United 
States rules and the comments made. I want to correct it 
because, if not, we will come back later on and correct it.
    The Corps of Engineers basically issued the request. On 
February 11, Assistant Secretary Darcy told the House 
Appropriations Committee members that 37 percent of the 
comments on the proposed ``waters of the United States'' rule 
were in favor of the rule and 58 percent were opposed and that 
others were neutral.
    On February 26, you told the House Appropriations Committee 
members that 87 percent of the comments were positive and said 
``all they,'' meaning the Corps, ``had completed was a review 
of 2 percent of the comments and you weren't sure which 2 
percent they chose.'' You said you feel badly there is 
confusion. You suggested maybe the Corps should review their 
numbers. Today, you issued a similar suggestion.
    I suspect that although there have been over 1 million 
comments made, it seems there has also been discussion and 
there are only about 20,000 of the million that would be 
considered unique and substantive in terms of comments. It also 
appears in discussions that these were the comments the Corps 
had reviewed.
    I want to clear up any confusion. When you talk about the 
substantive comments that have been made which appear to be 
about 20,000, I don't know there is much disagreement on that.
    Out of the 20,000, 7,400 were unique and substantive 
comments that supported the rule. When you talked about 87 
percent of the comments were positive, you were talking about 
the mass campaigns and the duplicative comments also received 
in addition to the 20,000 substantive and unique comments that 
had been there.
    Also in that 20,000, there were approximately 11,600 of 
these substantive comments that were in opposition to the rule. 
Am I accurate in my assessment?
    Ms. McCarthy. I don't have that exact figure, sir.
    Senator Rounds. I am trying to clear up that while I think 
you were using numbers different from the Corps of Engineers, 
the Corps was talking about the substantive comments and you 
were looking at the gross number of total comments that have 
come in overall?
    Ms. McCarthy. I would have to refer to the Corps for that. 
I don't know, sir. I think the point I am really trying to make 
is we have probably done a bit of disservice saying what is 
opposed and what isn't opposed.
    It is important to know that people find this rule 
important and obviously to get it right. We do as well. Every 
comment is meaningful to us and we look at all of them. It is 
important for us to do what the science and the law say and to 
explain ourselves. We need to do the best job we can in the 
final to have that done.
    Senator Rounds. I do agree with you that this is critical. 
I think this has some far reaching impacts in terms of 
individuals who before may very well not have to have 
permitting in order to do the same jobs they were doing before.
    I think it is so important that when we start talking about 
waters of the United States, I think this is a major rule. 
Although there maybe some discussion or disagreement in terms 
of the definitions of what a major rule is, there is Executive 
Order 12866 directing all Federal agencies to assess economic 
effects of economically significant rules. I do think this is 
one of those rules.
    These rules will have a material adverse effect on any 
sector of the economy such as productivity, competition or 
jobs. In August 2014, a GAO study reported your agency was 
writing and implementing regulations based on information that 
considered the effects of regulations on employment for the 
years 1979-1991. This was in 2014.
    Additionally, the study was limited to four industrial 
sectors. As a result, the regulations EPA was crafting for the 
United States were finalized with the assumptions that the 
United States economy 20-30 years ago was the same as it is 
today and involved only four industrial sectors. That is simply 
not correct today.
    The Bureau of Labor statistics breaks down the 
manufacturing sector into approximately two dozen industries 
and this does not include other sectors such as retail, 
hospitality or tourism.
    I understand you are no longer using the outdated data when 
writing regulations but you are required under this Executive 
Order to consider economic effects whenever you are writing a 
major rule.
    The EPA is in the process of finalizing the clean power 
plant rules and the NOx ozone rules as well, which is predicted 
to be one of the most expensive regulations in the EPA's 
history.
    I am curious. What economic factors and how updated are 
they that you use when you look at any one of these three rules 
today? How up to date are your economic numbers? What 
guidelines are you using today?
    Ms. McCarthy. I am happy to provide you information on this 
but EPA, I believe, does a great job in keeping up with the 
economics we need in order to provide the American public a 
really good understanding of what the costs and benefits are of 
our rules.
    I think we do an excellent job. There is always work going 
on and we try to update as much as we can, but I think we are 
up to date in what we are doing. I would be happy to share that 
information with you.
    Senator Rounds. Would you provide the committee the current 
data you are using when you did each of these three rules, 
please?
    Ms. McCarthy. Of course. There is something called the 
Regulatory Impact Analysis that goes with these rules. All of 
the methods, methodologies and data is contained in that.
    Senator Rounds. I hear you say, and we would like to get, 
since you are not using the old data, you have updated the 
data, the most current data that you have to indicate the 
impact on the economy that all three of these rules would have.
    Ms. McCarthy. I will make sure we provide that information 
to you, Senator.
    Senator Rounds. Thank you very much. I appreciate it.
    Senator Inhofe. Thank you, Senator Rounds.
    We will leave the record open for 24 hours because there 
are things that both Senator Boxer and I want to submit for the 
record, questions for the record and also clarifications for 
the record.
    Senator Boxer. Mr. Chairman, can I make an inquiry?
    Senator Inhofe. Yes.
    Senator Boxer. I asked if I could have a second round and 
you said, no, I could not. I don't ever remember my ever 
stopping from a second round. I ask unanimous consent that I 
have a second round to make some points at this time.
    Senator Inhofe. I object.
    Senator Boxer. Then I ask unanimous consent that I be 
allowed to place documents in the record.
    Senator Inhofe. We have already done that.
    Senator Boxer. No, I want to say what they are. I ask 
unanimous consent that Senator Markey's first statement be 
submitted to the record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]

           Statement of Hon. Edward J. Markey, U.S. Senator 
                    from the State of Massachusetts

    Administrator McCarthy, under your leadership the EPA has 
been working on common-sense policies to continue the gains in 
clean air, clean water and public health that our country has 
made during the last 40 years. Thank you for being here today 
to answer questions about how our country can maintain that 
progress and continue to move forward.
    Being from Boston, there is no denying that we've had a 
weird winter. Arctic air that usually hangs out in Alaska has 
instead been in New England. When that cold air meets the 
record warm water in the Atlantic, the result is extraordinary 
snowfall. Snow that our friends in the western US would love to 
have as they look at the small snowpack on their mountains and 
wonder where winter went this year.
    These weird winters are what scientists have predicted 
would happen as the levels of carbon pollution buildup in our 
atmosphere from burning fossil fuels.
    In the United States, power plants are a major producer of 
carbon pollution and the EPA is working on standards to reduce 
pollution from them. I want to see you finalize the strongest 
Clean Power Plan possible. Getting the renewable energy 
component of it right will be critical.
    Wind and solar electricity generation has seen 
extraordinary growth in the United States in the last decade. 
And with that growth, costs have fallen dramatically.
    And once the Clean Power Plan is finalized those cost 
savings will continue even as we cut dangerous carbon 
pollution.

    Senator Boxer. I ask unanimous consent that the National 
Climate Assessment which was voted on by the Senate 100 to 0 be 
put in the record that shows that climate change is going to 
harm human health.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. I have put in the record two documents that 
show how climate change is fueling our California drought.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
      
    Senator Boxer. I ask unanimous consent to put in the record 
a Washington Post article, The Remote Alaskan Village that 
Needs to Be Relocated Due to Climate Change.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
    Senator Boxer. I ask unanimous consent to put in the record 
the peer-reviewed study that shows warmer temperatures equal 
bigger snow storms.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Boxer. Last, I would ask unanimous consent that I 
put in a document that shows that Professor Laurence Tribe was 
hired by Peabody Coal, the world's largest privately held coal 
company, to write an opinion that criticized the coal rule.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
        
    Senator Boxer. Thank you.
    Senator Inhofe. Without objection, we are adjourned.
    [Whereupon, at 11:04 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
